<html>
<title> - OVERSIGHT OF THE OFFICE OF JUSTICE PROGRAMS: PROGRAM PERFORMANCE--DRUG COURTS</title>
<body><pre>[Senate Hearing 106-1054]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1054

OVERSIGHT OF THE OFFICE OF JUSTICE PROGRAMS: PROGRAM PERFORMANCE--DRUG 
                                 COURTS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON YOUTH VIOLENCE

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 3, 2000

                               __________

                          Serial No. J-106-111

                               __________

         Printed for the use of the Committee on the Judiciary


                  U.S. GOVERNMENT PRINTING OFFICE
74-754                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel
                                 ------                                

                     Subcommittee on Youth Violence

                    JEFF SESSIONS, Alabama, Chairman
BOB SMITH, New Hampshire             JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              HERBERT KOHL, Wisconsin
                       Kristi Lee, Chief Counsel
                 Sheryl Walter, Minority Chief Counsel
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page
Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................    12
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     1

                               WITNESSES

Belenko, Steven, Fellow, National Center on Addiction and 
  Substance Abuse, Columbia University, New York, NY.............    44
Gebelein, Hon. Richard S., Judge, Superior Court of Delaware, 
  Wilmington, DE.................................................    39
Goldkamp, John, Professor of Criminal Justice, Temple University, 
  Philadelphia, PA...............................................    55
Leary, Mary Lou, Acting Assistant Attorney General, Office of 
  Justice Programs, Department of Justice, Washington, DC........     5
McMaken, Hon. Michael E., Judge, District Court of Alabama, 
  Mobile County, Mobile, AL......................................    29

                         QUESTIONS AND ANSWERS

Responses of Mary Lou Leary to Questions from Senator Sessions...    65
Responses of Hon. Michael R. McMaken to Questions from Senator 
  Sessions.......................................................   128
Responses of Hon. Richard S. Gebelein to Questions from Senator 
  Sessions.......................................................   130
Responses of Steven Belenko to Questions from Senator Sessions...   133
Responses of John S. Goldkamp to Questions from Senator Sessions.   135

                       SUBMISSIONS FOR THE RECORD

Committee on the Judiciary, Subcommittee on Youth Violence, 
  Washington, DC:
    Chairman's Report on the Oversight Activities................   164
    Oversight Plan of the Chairman...............................   184
Hummel, John H., KPMG LLP, Washington, DC........................   204

 
OVERSIGHT OF THE OFFICE OF JUSTICE PROGRAMS: PROGRAM PERFORMANCE--DRUG
                                  COURTS

                              ----------                              


                        TUESDAY, OCTOBER 3, 2000

                               U.S. Senate,
                    Subcommittee on Youth Violence,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Jeff Sessions 
(chairman of the subcommittee) presiding.
    Also present: Senator Biden.

 OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM 
                      THE STATE OF ALAMAMA

    Senator Sessions. Good morning. We will get started now, 
and I think Senator Biden will be joining us shortly.
    I am pleased to begin the performance review by the 
Subcommittee on Youth Violence of programs funded through the 
Office of Justice Programs with this hearing. OJP is the grant-
making arm of the Department of Justice, and the subcommittee's 
ultimate focus in looking at OJP will be on financial and 
performance accountability of OJP's programs--bang for the 
buck.
    OJP's budget for a variety of criminal justice programs has 
increased from $695 million in fiscal year 1992 to $3.9 billion 
in fiscal year 2000. Much of this budget increase has resulted 
from the 1994 Violent Crime Act that created and enlarged 
numerous criminal justice programs. Today, OJP funds programs 
ranging from juvenile violence prevention efforts to community 
preparedness initiatives to drug treatment for incarcerated 
offenders. With all this money being spent for many different 
programs, it is time for performance analysis to begin.
    The analysis will focus on simple questions: What is the 
problem being addressed? What is the solution that Congress or 
OJP is advocating? How much does it cost? Does it work?
    The Subcommittee on Youth Violence has developed an 
oversight plan that I will place in the record. The first area 
that the subcommittee will examine is OJP's substance abuse 
programs. These programs run from prevention programs to 
treatment programs to reentry programs. For today's hearing, we 
will be looking at one of these--drug court programs.
    What is the problem being addressed? Well, drug use leads 
to crime. At least it is clear that drugs are an accelerator to 
crime. A recent OJP report entitled ``The 1999 Annual Report on 
Drug Use among Adult and Juvenile Arrestees'' revealed the 
troubling statistic that over 60 percent of 30,000 male 
arrestees from 27 of 34 different sites and cities around the 
country tested positive for either cocaine, marijuana, 
methamphetamine, opiates, PCP, and in some cases several of 
those drugs. Those numbers have not changed since the mid-
1980's at least, if not the early 1980's. Sixty percent plus--
often as high as 66 percent--have drug-tested positive for just 
any crime for which they were arrested, whether it be burglary, 
shoplifting, or robbery.
    The old choices have been prison, which is costly, or 
probation, which has proven to be unsatisfactory. Even with 
offenders being prosecuted, while they are being tried to be 
sent to jail, they often are released on parole and often are 
released on bail prior to trial. So they are out at that time; 
if they are still strung out on drugs, they may well be 
committing crimes.
    As a Federal prosecutor for 15 years, I saw firsthand how 
drugs can gain control of and destroy people. Drugs sap the 
will to work and can be responsible for and accelerate crime. 
There is indeed a problem. So drug courts have been used for a 
decade. Is that a solution to our crime problem? I remember 
vividly--and Judge McMaken, is here from Mobile who was at that 
meeting in the late 1980's--when I was U.S. attorney, we 
brought up Judge Goldstein from Miami, who I believe is 
generally credited with creating the drug court. Judge 
Goldstein was extraordinarily enthusiastic, as anybody who 
knows him knows, and he suggested incredible results from drug 
courts--just unbelievable reductions in recidivist rates. In 
fact, they were so unbelievable, I told him they were 
unbelievable, but I did tell him if he could get 25 percent of 
what he said, that would probably be progress, and we ought to 
consider a drug court. I really arranged that meeting. Judge 
McMaken came and became interested in it, and eventually the 
City and County of Mobile created an eminent, first-rate drug 
court.
    Drug court programs do serve as an alternative to trial and 
imprisonment for nonviolent offenders. If the offender enrolls 
in the program, he will be required to complete a period of 
months without testing positive for drug use, to perform 
community service, to complete certain educational 
requirements, and to hold down a job. If he fails, he will be 
sent back to the regular criminal justice system.
    Congress has, however, allowed local drug courts much 
flexibility in how they operate, with a few notable exceptions. 
These exceptions include several things, such as requiring 
continued judicial supervision over drug court participants. 
Judge Goldstein explained he believed that personal supervision 
by the judge over the defendant was key to success. Mandatory 
periodic testing for drug use is, in my view, an essential 
component of every step of the criminal justice system. Our 
failure to do that systematically throughout the criminal 
justice system is one of the greatest failures in our system, 
but it is done consistently in drug courts. Drug courts also 
must have substance abuse treatment for each participant and 
exclude violent offenders in order to receive Federal funding 
from the Drug Court Program Office.
    Many of the participatants in drug courts fail. The best 
numbers I have been able to see--and if others have different 
numbers I would like to hear them--state that throughout our 
history of drug courts, 200,000 participants have enrolled 
50,000 have completed and graduated, and 65,000 are still 
enrolled, which would indicate some 80,000 offenders have 
failed or either been sentenced, dropped out of the program 
maybe even gone to jail.
    How much does it cost? It is my understanding that there 
are currently around 560 drug court programs operating in the 
United States with 293 additional programs being planned. This 
chart here on my right shows the dramatic increase in drug 
courts from one in the late 1980's to 567 by 2000. That is a 
dramatic increase, and it also shows an increase in Federal 
funding.
    These figures on the right show that 1992 appropriations of 
$3.4 million increased to $57 million by 1999. That figure 
represents Federal support for drug courts. It is not what they 
cost, because I am sure most drug court judges will tell us the 
State and local systems contribute substantially to these 
programs.
    Over the past 10 years, OJP has spent a total of around 
$180 million on drug courts. That is a lot of money, and if we 
are going to continue to spend that much money on a program, 
the American people deserve to know if it works. While there 
has been no comprehensive nationwide study of all drug courts, 
scientific studies of various individual drug courts have given 
us some indication of how they work and do indicate that they 
have shown positive results.
    For example, studies have shown that criminal recidivism, 
measured by rearrests, ranges from 12 percent to 32 percent for 
offenders who were not enrolled in a drug court program. That 
is a pretty broad number, and it raises questions in my mind 
about the rigor of those tests and what cohort was being 
tested. But 12 to 32 percent, according to the studies we have 
of offenders who are not enrolled in a drug court are 
rearrested.
    For offenders enrolled in a drug court program, the 
recidivism rate has been reported to drop to between 4 percent 
and 12 percent during the 1- to 2-year period when they are in 
the drug court. So this would be a drop of some significance, 
but we need to be sure we are not comparing apples to oranges 
and that we have an honest number here. It is obvious to me 
that we don't have a panacea.
    For example, for recidivism after drug courts--that is, 
after they have completed their time in the drug court--the 
studies showed that a control group that had never been through 
a drug court program had rearrests of approximately 36 percent. 
The rearrest rate for those who had gone through a drug program 
was 27 percent. That is an 11 percent change. You would say 
that is a 25 percent reduction and that is significant progress 
worthy of our attention, but in the long run, you are talking 
about an improvement of 11 of 100. Eleven fewer out of the 100 
would have been rearrested had they gone through a drug court 
program as opposed to not going through one, according to 
numbers that we have.
    Despite the obstacles, the subcommittee understands that 
drug courts are demonstrating positive results for addicted 
offenders and reducing recidivism and drug use, at least for 
certain periods of time. We will be looking at that in more 
detail, and I think it is important that we do.
    Another part of the does-it-work inquiry is how can we 
improve drug courts. I am particularly interested in 
discovering what the Federal Government is doing with research. 
Has the DOJ pinpointed the most effective elements of current 
drug court programs in order to guide fledgling and existing 
drug courts? Instead of allowing the Federal Government to run 
drug courts around the country, I believe our best contribution 
would be to provide blue ribbon research and training for drug 
and crime programs.
    Indeed, Fred Thompson, who formerly chaired this committee, 
strongly believed that the virtually exclusive role of the 
Department of Justice in youth violence should be to provide 
the best blue ribbon scientific evidence possible to our State 
and local systems where our juvenile court systems actually 
function. Marshalling monetary resources, data, and the 
accumulated criminal justice experience of coordinated Federal 
agencies, the Department of Justice can make a real difference 
in this arena.
    OJP has informed the subcommittee that it is funding a 
multistage National Institute of Justice evaluation of drug 
courts that, when completed, will provide a clearer portrait of 
drug court effectiveness and the best practices. This is a 
critical step, and it will be something I would like to hear 
more about. I have some concern about why we haven't done more 
research sooner. Indeed, we are going from zero to 500 and 600 
drug courts, with more planned, and it seems to me we are 
awfully late in getting blue ribbon research.
    Further, it is my understanding that OJP provides thorough 
training and technical assistance to local courts to assist 
them in building strong drug court programs and in promoting 
long-term sustainability.
    So we are privileged today to have an excellent list of 
witnesses. On the first panel will be Acting Assistant Attorney 
General Mary Lou Leary. Ms. Leary was designated by the 
President to serve as Acting Assistant Attorney General of OJP 
in February of this year--not too long ago. We certainly can't 
blame you for problems that occurred last year, can we?
    Ms. Leary. No.
    Senator Sessions. In 1998, Ms. Leary was appointed as 
Deputy Associate Attorney General, and from October 1999 until 
coming to OJP, she served as chief of staff to the Associate 
Attorney General at the U.S. Department of Justice. She was 
Acting Director of the Community-Oriented Policing Services 
Office from June to October 1999. She served as U.S. Attorney 
for the District of Columbia, which has got to be a challenge, 
from July 1997 to January 1998. Indeed, I may ask Ms. Leary 
about the exceptional drug testing program used in the District 
of Columbia.
    Ms. Leary, would you raise your right hand, and I will 
administer the oath?
    Do you solemnly swear that the testimony you give to this 
subcommittee will be the truth, the whole truth, and nothing 
but the truth so help you God?
    Ms. Leary. I do.
    Senator Sessions. Thank you. Be seated. We will be glad to 
hear your statement at this time.

STATEMENT OF MARY LOU LEARY, ACTING ASSISTANT ATTORNEY GENERAL, 
OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF JUSTICE, WASHINGTON, 
                               DC

    Ms. Leary. Thank you, Mr. Chairman.
    I appreciate this opportunity to provide you with 
information about the work of the Office of Justice Programs in 
preventing and controlling illegal drug use, particularly among 
our young people. Drug prevention has long been a priority for 
OJP, and we currently support a wide range of intervention 
initiatives to prevent and intervene in drug use, sanction and 
treat drug-abusing offenders, and follow up with community-
based services after incarceration.
    Mr. Chairman, from our experience as prosecutors, you and I 
both have seen the terrible toll that drugs can take on 
individuals and on communities, but we have also seen the 
impact that innovative programming can have on illegal drug 
use, drug-related crime, and improving opportunities for young 
people to grow up in a productive and fear-free environment.
    As you mentioned, I did have the opportunity to serve in 
the U.S. Attorney's Office, and there I had the privilege of 
working with the former U.S. attorney, Jay Stephens, to 
establish the first Weed and Seed site in Washington, DC. That 
is a program that former U.S. Attorney and now Deputy Attorney 
General Eric Holder also strongly supported.
    Senator Sessions. That is one I personally was involved 
with and strongly believe in also.
    Ms. Leary. I realize that. I know that you have firsthand 
knowledge from your experience as U.S. attorney with how much 
of a difference Weed and Seed can make in a community, and from 
a handful of programs at the very beginning, Weed and Seed has 
now grown, and we have over 200 sites across the country at 
this point in time.
    As you know, these programs support law enforcement to weed 
out drug dealing and violent crime and gangs, and then they 
bring in social services and the like to help revitalize 
communities. We have had evaluation teams looking at Weed and 
Seed, and we know that there are things that we can do to 
improve that program; however, we do know that the basic 
strategy really works.
    For example, in Seattle, violent crime dropped 54 percent 
in the Weed and Seed target area 5 years after the initiation 
of the program, and that was compared with a citywide drop of 
only 38 percent. In Hartford, CT, Part One crimes fell 46 
percent in 2 years after inception of the program. Citywide, 
crime declined 22 percent. Similarly, in Las Vegas, violent 
crime in the Weed and Seed area dropped 8 percent in the 
program's first 2 years. Citywide, the decline was only 3 
percent, and this has been extremely helpful in our efforts to 
eliminate drugs and crimes.
    Many of OJP's initiatives that are targeted at drug use by 
young people are supported, as you know, through our Office of 
Juvenile Justice and Delinquency Prevention, and in your role 
as chairman of the Youth Violence Subcommittee, I know that you 
have been looking at some of those programs. My written 
statement details a number of those initiatives which are 
geared towards drug use by young people.
    Enforcement programs are also a critical component of our 
comprehensive effort to prevent illegal drug use and to help 
States and local communities enforce their drug laws. OJP 
certifies about $900 million in programming to ONDCP as drug 
related, and practically two-thirds of that amount of money 
actually goes to enforcement initiatives. For instance, 40 
percent of the funds awarded under the Byrne Formula Grant 
program are used by States to support multi-district law 
enforcement task forces that target drug trafficking.
    Senator Sessions. Is that 40 percent of the Byrne Grants?
    Ms. Leary. The Byrne Formula Grant, that is correct.
    We support intervention and treatment as well for drug-
involved offenders to try to break that cycle of drug use and 
crime. Eighty percent of the prisoners who are incarcerated in 
our institutions today report that they were under the 
influence of drugs or alcohol when they were arrested or that 
they stole property to buy drugs or they have a history of drug 
or alcohol abuse. I know that these figures are not new to you, 
having worked as a prosecutor.
    Senator Sessions. And alcohol is high, too.
    Ms. Leary. Extremely high.
    Senator Sessions. People don't understand the numbers are 
real dramatic, are they not, on alcohol use and crime?
    Ms. Leary. They are extremely high, and, in fact, we are 
beginning to see some innovations in drug courts who are also 
addressing alcohol abuse.
    You know, at the same time, you can see that study after 
study tells us the treatment is effective, and particularly if 
it is prison based on long-term treatment. Coercive treatment 
is just as effective, if not more so, than voluntary treatment. 
So OJP administers several initiatives that combine drug 
treatment with criminal justice sanctions and incentives for 
good behavior.
    And you and I have had some discussions about one of our 
most widespread and effective programs to address drugs, and 
that is the drug court program. Drug courts combine intensive 
supervision and sanctions with incentives such as reduced 
charges or shorter sentences for offenders who successfully 
complete treatment.
    In the drug courts, we use judges to monitor offenders' 
performance to make sure that they are getting drug treatment 
and other services and that they are sticking to their regimen. 
As you noted, Mr. Chairman, testing is a really important 
component of that. The courts require the testing on a regular 
basis, and then they impose prompt and graduated sanctions if 
there are any infractions.
    The drug courts grant program, as you know, was authorized 
by the 1994 Crime Act, and since that time, since 1995, Drug 
Courts Program Office has awarded about $125 million. Six 
hundred communities have received that funding to set up 
courts. In addition, there is training and T.A. and evaluation 
money that has been expended.
    But as you know, drug courts really began as a grass-roots 
movement. So in addition to the support through the Drug Courts 
Program Office, all States and local communities use their own 
funds or a combination of local, State, private, and Federal 
funding from Byrne, LLEBG, juvenile accountability, incentive 
block grant programs to support the drug courts.
    We have about 100 new drug courts coming on line every 
single year, but only half of those are a result of Drug Court 
Program Office funding.
    Senator Sessions. Are any dropping off line, do you know?
    Ms. Leary. A few, but very few, and some of them actually 
drop out in the very initial stages. When we do our training 
for communities who are planning drug courts, almost all of 
them end up implementing a drug court, but we have had a couple 
of dropouts along the way, which is good. They realize we 
really--this is too much of a commitment or we are not ready, 
whatever.
    In terms of local support, the California Legislature just 
this year appropriated about $20 million to support drug courts 
in the State. That is half the total appropriation for the Drug 
Courts Program Office for fiscal year 2001, a big commitment. 
And oftentimes, we will see local communities come in with far 
more than the 25 percent required local match for funding.
    So in addition to funding, OJP provides extensive training 
and technical assistance to communities who are planning new 
drug courts. We have, as you know, a mentor court system so 
that teams who are considering planning a drug court can visit 
a court that is up and running, talk to the program staff, and 
learn from the experts who are doing it day in and day out. 
Then you can help folks avoid common mistakes, and they don't 
have to reinvent the wheel when they go about their own drug 
court planning.
    We closely monitor the performance of drug court programs 
that we fund. We spend a lot of time in the field, and when we 
do discover problems in our monitoring visits and the like, we 
step in immediately and provide training and technical 
assistance. If the problems persist even after that assistance, 
then we stop the drawdowns of Federal funds until they fix the 
problem. On rare occasions, as a last resort, if a program 
fails to take remedial measures, then we will rescind the grant 
funds or not provide funding for the following year.
    We also rely on evaluations to measure the drug court 
performance. Since 1995, we have committed $5 million to 
evaluate drug court programs. We plan to spend more in fiscal 
year 2001 to expand these efforts.
    As the chairman knows, our National Institute of Justice 
has begun a multiphase, multiyear, multisite evaluation of our 
drug court programs. We have some preliminary findings from 
those evaluations that were released this past year. We are 
using the results from that study to improve future drug court 
programming. For example, through the training that we provide 
to drug court communities, we are addressing any problems that 
were identified in the evaluation. We are also taking those 
evaluation results, converting them to plain language that a 
practitioner can understand, and we are disseminating those 
results broadly in the field.
    We require communities who are planning a drug court to 
include on their team an evaluator or a management information 
systems person, and the reason that we do that is so that 
communities will understand and will actualize setting up your 
evaluation criteria from the get-go, and then it doesn't become 
an afterthought when you are midway through your program.
    We are also supporting an evaluation of the effectiveness 
of the various treatment services that are used by drug courts 
and the development of an assessment tool that can be used by 
drug court programs to provide reliable information on the 
program costs and to tell us what kind of savings we are 
incurring through the drug court program. A privately funded 
analysis of 77 drug court evaluations that was released found 
that drug courts really are effective in addressing drug abuse 
among nonviolent offenders and reducing burdens on the criminal 
justice system and in helping offenders become law-abiding and 
drug-free citizens. That particular study found that only 10 
percent of drug court clients' drug tests were positive, 
compared to 31 percent of the defendants who were under just 
regular probation.
    Sixty percent of those who entered drug courts were still 
in treatment after 12 months. That compares favorably to a 50 
percent rate for folks who were treated in regular outpatient 
programs.
    Senator Biden. Excuse me. Treated in outpatient programs, 
not as a consequence of a criminal disposition, just 
voluntarily----
    Ms. Leary. Correct.
    Senator Biden [continuing]. Going into a drug program. 
Thank you.
    Ms. Leary. Correct.
    Senator Biden. Thank you, Mr. Chairman.
    Ms. Leary. One study has shown that rearrest rates for drug 
court graduates were consistently lower than those for non-
graduates overall. When researchers took a look at Portland, 
OR, they found over a 1-, 2-, and 3-year period, 35 percent of 
the drug court graduates were rearrested within 3 years 
compared to 61 percent of non-graduates.
    We know that drug courts also save money. Right here in 
Washington, DC, they save an average of $6,000 per client per 
year compared to the costs of incarceration. A comprehensive 
cost analysis of the drug court program in Portland----
    Senator Sessions. Saved $6,000?
    Ms. Leary. That is correct. Instead of incarcerating, you 
are spending the money on a drug court program. You are saving 
the $6,000 that you would have spent to incarcerate that 
individual for the year.
    Senator Sessions. I would be surprised if it weren't more 
than that.
    Ms. Leary. It is expensive.
    Senator Sessions. If you take 20,000 or more.
    Ms. Leary. Well, I think when you figure in the costs of 
the drug court and treatment as well, the savings are about--
that is what they are reporting to us, is a savings of $6,000. 
So we are being conservative on our estimate.
    A comprehensive analysis of the costs of the drug court 
program in Portland, OR, found that for every dollar, every tax 
dollar that they spent on the drug court program, they saved 
$2.50 in costs to the public.
    Senator Biden. What kind of costs?
    Ms. Leary. Those are costs in processing cases, in handling 
defendants, moving them through the court system, and the like; 
but if you look at broader costs, if you look at, for instance, 
costs to victims of crime as a result of drug abuse and those 
kinds of broader issues, the cost savings estimate was 
increased to $10 for every $1 spent, and that is coming out of 
that Portland study.
    For me, I think particularly as a parent, one of the most 
compelling statistics coming out of the drug court program is 
that we have had over 1,000 babies born drug free to drug court 
participants, and when you look at the costs of caring for 
children who are born addicted to drugs, you will see that in 
the early years, we are spending a minimum of $250,000 per 
child. And, of course, as that child gets older and 
complications develop and all, the costs increase 
exponentially. And there are also, you know, the untold costs 
in raising those kids, who, studies show, have all kinds of 
problems and oftentimes get involved in the criminal justice 
system later in life.
    Office of Justice Programs supports research and 
statistical analysis to inform programming as well as 
evaluations to measure effectiveness. We try at OJP to 
incorporate research and evaluation as an integral part of our 
efforts, not just have it be an isolated endeavor. We are 
trying to make evaluation part of every program we support, use 
the results of research and evaluation to inform our 
programming and to improve what we are doing out in the field.
    And in administering the drug court program, for instance, 
we carefully scrutinize the results of those national scope 
evaluations, individual assessments of drug courts, and the 
results of our monitoring visits. Starting with the passage of 
the 1994 crime bill, we work with Congress so that now we are 
able to take money off the top of all new programs for research 
and evaluation.
    Senator Sessions. Is there any limit to how much you can 
take off the top for research and evaluation?
    Ms. Leary. Yes. Yes. We are taking, I think it is 1 percent 
off the top for all programs.
    Senator Sessions. Would you need more than that?
    Ms. Leary. It would be helpful, and we can talk about that 
with your staff.
    I personally am committed to ensuring that we work with 
performance measures, build them into all of our programs at 
OJP, and that OJP staff closely monitor our grant programs to 
measure the effectiveness, and when we see problems, to 
intervene immediately with training and technical assistance.
    You may be familiar with our drug court clearinghouse, for 
instance, which in the past 2 years alone has responded to 
3,500 requests for technical assistance just in the drug court 
program.
    And because crime is primarily a State and local 
responsibility, we are also working hard to build research and 
evaluation capacity at the State and the local level. We have 
entered into a cooperative agreement with the National 
Association of Drug Court Professionals. They are working to 
develop standards and performance measures for drug courts to 
use. Three years ago, those standards were published, and they 
have been adopted by the Conference of Chief Justices, by a 
number of States, and by the Conference of State Court 
Administrators.
    I would like to take just 1 minute to mention another 
initiative this morning that is very much related to our drug 
abuse efforts, and that is offender reentry. We know that----
    Senator Biden. Excuse me. Would you define reentry? You 
mean reentry into the drug courts or reentry into the use of 
drugs or reentry into--define for the record what you mean by 
reentry.
    Ms. Leary. Senator Biden, when I talk about reentry, I am 
talking about how we go about reintegrating offenders when they 
come out of institutions. Many of them have drug problems, but 
some of them do not as well, but how do we help communities who 
have to deal with 500,000, 600,000 incarcerated individuals 
coming out of institutions back into the community every year; 
how do we keep them on the straight and narrow;, how do we keep 
them from getting involved again in criminal activity, from 
getting involved again in drug abuse, from getting involved 
again in all the kinds of things that led them to incarceration 
in the first place.
    Senator Biden. And you are talking about drug-addicted or 
drug-arrested--that their convictions are based upon a drug 
offense or that there is a basis to believe that they were 
addicted to drugs when they went into the system?
    Ms. Leary. No. I am talking about any incarcerated 
offender.
    Senator Biden. Any incarcerated individual?
    Ms. Leary. But we know from our research that a vast 
percentage of incarcerated individuals have problems with drug 
abuse, alcohol abuse, and there are many other co-occurring 
disorders as well.
    But oftentimes when these individuals return to the 
communities from the institutions, they have little or no 
supervision, and about 20 percent of them have no supervision 
whatsoever. So within 3 years, we know that perhaps two-thirds 
of them, about two-thirds of them, recidivate. So we are 
developing approaches to deal with the need for post-
incarceration supervision through reentry courts, which are 
modeled on the drug court model, and also through reentry 
partnerships which establish a network of community support 
services to help individuals with a reentry plan coming back 
into the community, monitoring their adherence to the plan, and 
monitoring recidivism.
    It draws on the resources of the community to help deal 
with the need for housing, employment skills, substance abuse 
treatment, and the like, so that the individuals get the kind 
of support they need to be held accountable, and the 
communities can be ensured of their public safety.
    We are in the very initial stages of these reentry 
initiatives, but we believe that they hold significant 
potential for improving public safety and for reducing 
recidivism.
    Senator Biden. What is the relevance of drug courts? Is it 
just that the model of drug courts----
    Ms. Leary. The model of drug courts. Well, I think it is 
important because the model of drug courts was actually kind of 
an inspiration for working with a number of communities on 
developing reentry courts.
    Senator Biden. I just want to understand what point you 
were trying to make relative to drug courts. It is just----
    Ms. Leary. That drug courts have provided a very successful 
model.
    Senator Biden. OK. Good.
    Ms. Leary. And in addition, I think that the reentry 
initiative can build on the success of drug courts by providing 
a host of services and support and sanctions for folks who come 
out of the institutions, and many of them are people who 
actually are in need of drug court intervention.
    Senator Biden. Can I ask another question? Are these--
excuse me. The models that you are contemplating or initiating 
relating to, quote, reentry courts and/or reentry partner 
partnerships, would it be required to participate in the 
reentry courts as a condition of sentencing or condition--since 
we don't have in the Federal system probation, what is the--in 
other words, what constitutional authority do you have at a 
Federal level, or are these State models----
    Ms. Leary. These are State.
    Senator Biden [continuing]. Models you are setting up to 
hopefully encourage States to fund and States to----
    Ms. Leary. These are State and local.
    Senator Biden. Would it be required that the participation 
in these reentry courts be a condition of sentencing in the 
first instance?
    Ms. Leary. It could be, and the reentry courts are just 
getting up and running, and they are developing their criteria 
now.
    Senator Biden. I mean, I am the guy that introduced the 
bill.
    Ms. Leary. I know that.
    Senator Biden. But my point is I think it is worth 
explaining what you mean, because I know even though I am the 
guy that introduced the drug court bill and introduced this, I 
think the average listener or the record when you read it, it 
will be hard to understand why you went in one breath from drug 
courts to these courts without explaining in detail why you 
were putting them together.
    I just want to make sure no one is confusing this.
    Ms. Leary. Right.
    Senator Biden. But I don't want anybody walking away 
thinking that what you are talking about is extending the drug 
courts into becoming reentry courts, because if you didn't 
listen closely, at least that is what I was worried you were 
saying, as opposed to the drug court model being a potential 
model for reentry courts, totally unrelated, totally unrelated 
to the existence of the drug court.
    You could have a State with no drug courts in it, like 
North Dakota, and it could end up having 10 reentry courts in 
the State. Correct?
    Ms. Leary. Correct.
    Senator Biden. OK. Because the greatest--and I apologize 
for the intervention, Mr. Chairman.
    The greatest problem I had in trying to sell the drug court 
idea, however many years ago it was now--6, 8, 10 years or 
however how long it was. God, it is a long time. How long has 
it been? I have been here a long time. At any rate, it was that 
people thought that this was a criminal court that you went to 
post-conviction. Do you follow me?
    Ms. Leary. Yes.
    Senator Biden. So that is why I don't want any confusion 
here about delineating the nature of the courts.
    Ms. Leary. Right.
    Senator Biden. I found some difficulty in convincing people 
of the drug court route.
    Ms. Leary. Yes. The drug courts have been a model, and we 
have seen that it has been successful, that you can use the 
power of the court basically and that leverage to pull the 
levers and hold people accountable.
    Senator Biden. Thank you very much. I am sorry for the 
intervention.
    Ms. Leary. No. That is fine, and I also mention it because 
we had discussed earlier in the hearing some of our broader 
initiatives at preventing drug use by individuals in the 
community, and this is another way in which we can do that 
post-incarceration.
    So through these initiatives, host and the drug court 
programs, Office of Justice Programs is going to continue to 
assist State and local communities to address the problem of 
illegal drug use. I look forward to working with you, Mr. 
Chairman, and the other members of this committee, to further 
our efforts in this regard.
    Thank you very much for the opportunity to speak. I am 
happy to answer any questions that you have.
    Senator Sessions. Thank you. I think there is a role for 
drug courts, and we need to make sure their work is as 
absolutely fine as it possibly can be.
    Senator Biden, we have a vote on, and I would be glad to 
give you your choice. If you would like to do an opening 
statement now as a ranking member?
    Senator Biden. No. I don't need to make an opening 
statement. Thank you. I just ask unanimous consent that my 
statement be placed in the record.
    Senator Sessions. All right.
    [The prepared statement of Senator Biden follows:]

 Prepared Statement of Hon. Joseph R. Biden, Jr., a U.S. Senator From 
                         the State of Delaware

    Mr. Chairman, thank you for convening this hearing today to look at 
the drug court program. I have been involved with drug courts since 
their inception and I believe in them. And, as the author--along with 
Senator Specter--of legislation to reauthorize the drug court program, 
I look forward to exploring today how we can help them work even 
better.
    I look forward to hearing from all of our witnesses this morning, 
but let me take a minute to thank Judge Gebelein for being here.
    Not only is Judge Gebelein one of the nation's foremost experts on 
drug courts, but he also is in charge of the drug court program in my 
home state of Delaware.
    I have been an observer in Judge Gebelein's Drug court--he is known 
as a ``tough judge,'' but he's also smart enough to know that the old 
system of locking up every drug offender and throwing away the key--
with no treatment and no supervision upon release was failing our 
criminal justice system and the public at large.
    In the 1994 Crime Law, Congress created a grant program to fund 
drug courts because we believed that they were a cost-effective, 
innovative way to deal with non-violent offenders in need of drug 
treatment.
    And in the past six years, drug courts have taken off. There are 
currently 533 drug courts currently operating throughout the country, 
with an additional 293 courts being planned.
    Let me tell you why I am such an advocate for these courts--drug 
courts are as much about fighting crime as they are about reducing 
illegal drugs.
    It is no secret that there is a strong link between drugs and 
crime.
    As one of our witnesses today, Steven Belenko, well knows--because 
he literally wrote the book on this at The National Center on Addiction 
and Substance Abuse at Columbia University--80 percent of those 
incarcerated today are there because of a crime associated with drug or 
alcohol abuse or addiction; either they have a history of substance 
abuse or addiction, they were high when they committed their crime, 
they violated drug or alcohol laws, or they stole property to buy 
drugs.
    The most recent Arrestee Drug Use Monitoring Program (ADAM) data 
revealed that more than half of adult male arrestees in the 34 ADAM 
sites tested positive for drug use at the time of arrest.
    Drug courts take non-violent drug-related offenders and closely 
supervises them as they address the root of their criminal problem.
    This task is made more difficult by the fact that the root problem 
is a chronic, relapsing condition--addiction.
    Let me let you in on a little secret--if we just lock these folks 
up and don't treat them, they are going to commit crimes again and 
again and again. Treatment helps to break that escalating cycle of 
drug-related criminal behavior.
    To date, nearly 200,000 people have entered drug court programs and 
the results have been impressive. About 70 percent of the drug court 
program participants have either stayed in the program or completed it 
successfully. That is more than twice the retention rate of most 
traditional treatment programs.
    The other 30 percent of the participants went to jail. And I think 
that should be heralded as a success of the drug court program as well.
    Without drug courts, this 30 percent would have been unsupervised, 
not monitored, and unless they happened to be unlucky enough to use 
drugs or commit a crime near a cop, they would still be on the streets 
abusing drugs and committing crime. Drug courts provide the oversight 
to make sure that does not happen.
    Rather than just churning people through the revolving door of the 
criminal justice system, drug courts use a mix of sanction and 
incentives to help these folks to get their acts together so they won't 
be back.
    When they graduate from drug court programs they are clean and 
sober and more prepared to participate in society.
    In order to graduate from most drug courts, participants are 
required to finish high school or obtain a GED, hold down a job, keep 
up with financial obligations including drug court fees and child 
support payments. They are also required to have a sponsor who will 
keep them on track.
    Drug courts work. And that is not just my opinion. Drug courts are 
effective at taking offenders with little previous treatment history 
and keeping them in treatment. Treatment experts agree that the longer 
someone stays in treatment, the more likely that person is to remain 
drug-free and to become a productive, tax-paying member of society.
    That may be why drug courts are getting results.
    Drug courts reduce recidivism. Though post-program recidivism rates 
vary between drug courts, consider the impact of the Jefferson County, 
Kentucky drug court: Thirteen percent of the graduates of that program 
were reconvicted for a felony, compared to 60 percent of non-graduates 
and 55 percent of the comparison group.
    Drug courts also reduce future drug use. An average of ten percent 
of drug court participants have positive drug tests compared to 31 
percent of those on probation.
    And drug courts are cost-effective. According to a study of the 
Portland, Oregon drug court, for every $1 spent on the drug court, 
$2.50 is saved in avoided costs such as criminal justice costs, public 
assistance and medical claims. If you factor in larger costs--such as 
victimization and theft--there is a savings of $10 for every tax dollar 
spent on drug courts. Just as important, scarce prison beds are freed 
up for violent criminals.
    Harder to quantify is what I believe may be the most important 
impact of drug courts. Nearly two-thirds of drug court participants are 
parents of young children. After getting sober through the coerced 
treatment mandated by the court, many of these individuals are able to 
be real parents again. And more than 1,000 drug-free babies have been 
born to female drug court participants, a sizable victory for society 
and the budget alike.
    Mr. Chairman, new innovative and effective programs like drug 
courts don't come along often. When they do, we should make sure that 
we do everything possible to make sure that they continue to succeed. I 
look forward to hearing from our witnesses today about how they think 
we can do that.

    Senator Sessions. I am inclined to think we probably should 
go before the next panel.
    Thank you, Ms. Leary. Thank you for the work you have done 
since you have been in this position. We will have some 
questions when we get back, and then we will take the second 
panel. We do have a vote, and it will probably take us 10 
minutes to get back.
    Thank you.
    [Recess.]
    Senator Sessions. OK. We will get started again. Senator 
Biden will join us in a minute.
    Ms. Leary, thank you for your comments and observations. 
Our goal fundamentally today and what we will do as we go along 
is to ask you, as you have taken over this office to make sure 
that you know and your staff knows precisely what is going on, 
precisely what our research shows, what is working, how much 
money is being spent, and how much money is being planned to be 
spent.
    On the OJP funding for drug courts, both the discretionary 
and block grant formula amounts, how much is now going to drug 
courts? We have a chart up here. Can you tell us if that chart 
accurately summarizes where we are and what additional 
information you need to give an accurate answer to that 
question?
    Ms. Leary. I can tell you we tried to figure out for fiscal 
year 1999 how much money went to drug courts, because as you 
know, it comes from multiple sources, and so with respect to 
OJP funds, it is approximately $55 million that went to drug 
courts during fiscal year 1999.
    Senator Sessions. Now let me ask you: You have an account 
in OJP for drug courts and a division, and what is the name of 
that division?
    Ms. Leary. Well, we have the Drug Court Program Office.
    Senator Sessions. Drug Court Program Office that reports 
directly to you?
    Ms. Leary. That is correct.
    Senator Sessions. And that has a budget of $50 million?
    Ms. Leary. No. No. That has $40 million.
    Senator Sessions. Forty million.
    Ms. Leary. Now, in addition to the Drug Courts Program 
Office, there are several other funding streams coming through 
OJP that go to drug courts: the Byrne Formula Grant, the Local 
Law Enforcement Block Grant, Byrne Discretionary. Some Weed and 
Seed funds go to drug courts, and the Juvenile Accountability 
Incentive Block Grant. Moneys from each one of those funding 
streams can and actually does go to drug courts as well.
    Senator Sessions. Does that make sense to you? Should it 
all be funneled through the Drug Court Program Office?
    Ms. Leary. Well, one of our goals with reorganization, as 
you noticed, is to kind of streamline things and make a little 
bit more sense.
    Senator Sessions. You are talking about more than 20-25 
percent funding through your own Department of Justice. It is 
not under the program office.
    Ms. Leary. Yes. And these are statutorily prescribed. You 
know, you have purposes, permissible purposes for each of these 
other grant programs, and drug courts would be one of the 
permissible purposes, but in addition, we shouldn't forget that 
a lot of money comes to drug courts from States, localities, 
private foundations, and the like. So even when you look at the 
Federal funding, that doesn't reflect the total.
    Senator Sessions. Now, the Byrne Grant goes to the State, 
and the State can then use it for drug court funding. Is that 
why you do not have accurate numbers, or it is difficult to 
have accurate numbers?
    Ms. Leary. It is difficult to have accurate numbers.
    Senator Sessions. But you think that the number is $57 
million for fiscal year 1999. Are there any other funding 
streams out there other than State moneys and local moneys from 
the Federal Government that could be going to drug courts?
    Ms. Leary. Well, HHS provides money for treatment, and you 
know the drug courts rely very heavily on HHS funds for that. 
So, yes, there are Federal funds.
    Senator Sessions. And now that is not included in that $57 
million, to your knowledge?
    Ms. Leary. I don't know since I don't really know how that 
chart was put together. I would say it appears not to.
    Senator Sessions. Do you have the numbers available of what 
amount HHS is putting into drug courts?
    Ms. Leary. No, we don't, but we can work with your staff to 
help identify some folks who could help get that number.
    Senator Sessions. Can you get it from them, or does it take 
me to get it from them?
    Ms. Leary. We will do everything we can, Senator.
    Senator Sessions. We need to know that.
    Ms. Leary. Sure.
    Senator Sessions. You need to know that.
    Ms. Leary. We do.
    Senator Sessions. The taxpayers need to know what we are 
spending.
    Now, basically would you describe how this thing works? If 
a city applies or a jurisdiction applies for a drug court, and 
the Federal Government gives a grant, about what percentage of 
the cost are they funding in that initial grant, and what is 
your vision about continued funding of the drug court?
    Ms. Leary. Well, when a community initially wants to do a 
drug court, what we do first is, instead of giving them a 
grant, we bring them on board for a year of a training program. 
So we will bring them to any one of a number of sites 
throughout the country. They come with a whole team from their 
jurisdiction which would, you know, include an evaluator or a 
management information systems person, and they attend a total 
of, I think it is about 9 days of training over the course of 
that year to understand what drug court is all about, what are 
the various models here, the cost/benefit analysis, and the 
like. And so before we give them money to set up a drug court, 
we do that. They would need to make sure that they know what 
they are getting into.
    Senator Sessions. They have been trained.
    Ms. Leary. That is correct, and then we give them an 
implementation grant, and that can go up to, I think, 3 years, 
and after that, you can get an enhancement grant for special 
purposes. Many enhancement grants actually go to building 
capacity and funding for evaluation activities.
    Senator Sessions. In existing courts?
    Ms. Leary. Correct.
    Senator Sessions. So normally you have a grant that 
provides funding for 3 years. Is a State required to match that 
in any----
    Ms. Leary. Twenty-five percent match.
    Senator Sessions. So it would be 75 percent Federal support 
for 3 years?
    Ms. Leary. Well, they are not all 3 years. If you can hold 
on 1 second.
    It is up to 3 years.
    Senator Sessions. OK.
    Ms. Leary. It is not a requirement, and it is up to 3.
    Senator Sessions. And then presumably the court is 100 
percent funded by the State and local institutions?
    Ms. Leary. They can be funded by the State. They can get 
local or private foundation, whatever.
    Senator Sessions. But the Federal Government's funding 
would normally be expected to end after 3 years?
    Ms. Leary. That is our goal, yes, that they would move off 
to State and local sources of funding, and, in fact, 22 
legislatures in recent times have passed legislation at the 
State level to support drug courts. So we really are seeing 
success with this, and when you have 100 new courts coming on 
board each year, and only half of them are funded with Drug 
Court Program Office funding, that is also a good sign.
    Senator Sessions. It is 100 new courts, and only half of 
them are receiving Federal money?
    Ms. Leary. Only half are receiving Drug Courts Program 
Office money, but, you know, they are probably using some of 
their other sources.
    Senator Sessions. Now, HHS has a substantial sum of money 
devoted to drug treatment. Are you aware of how effectively 
they are working with local drug courts to apply those drug 
treatment resources in a way that facilitates the success of a 
drug court?
    Ms. Leary. The very best drug courts are working closely 
with HHS, and they need to be partners. That is one of the 
things that we tried to facilitate.
    Senator Sessions. But I have been in the real world, and 
the real world doesn't always work like we think. I mean, maybe 
HHS has a plan they want to do in a local community, and they 
are not interested in redirecting resources under some sort of 
a hegemony of the judge who wants to do it a certain other way.
    Ms. Leary. Right.
    Senator Sessions. Could we improve OJP's cooperation with 
HHS in helping fund drug treatment for these courts?
    Ms. Leary. I would have to say that there is always room 
for improvement in Federal collaboration among agencies. I have 
seen that from my own experience in the U.S. Attorney's Office 
and at OJP, but we do work pretty closely with CSAT to try to 
coordinate our efforts in treatment and also even data 
collection, because if a drug court is working with OJP and 
with HHS, they have to collect data for each of those Federal 
agencies. It doesn't make sense for us not to be talking to one 
another about common data elements that would be useful for 
both agencies and the courts.
    So we are working on that regard as well, but there is 
always room for improvement only Federal collaboration.
    Senator Sessions. Let me mention to you and discuss with 
you the 1997 GAO report which preceded your time there. It 
recommended that the Department of Justice require drug court 
programs to collect in-program--that is, while they are in the 
drug court and being tested and meeting regularly with the 
judge--in-program recidivist data and post-program recidivist 
data. That is, after they have completed and graduated, what 
kind of recidivist data do we have? This makes sense to me 
because it would enable OJP to evaluate drug courts, perhaps 
determine which ones work better than others, and could help 
give valuable advice to all these States who are thinking about 
adopting it.
    To me, we could provide no greater service than to have 
really peer-reviewed scientific information that we could 
provide to a local or State jurisdiction when they decide to 
adopt a drug court. So what efforts have we undertaken to date, 
and what information and statistical information have we 
obtained since that 1997 GAO report?
    Ms. Leary. The most reliable information that we have 
obtained is through our NIJ studies, which we have provided to 
your staff and have talked about with them, and that is because 
we have discovered that States and local courts----
    Senator Sessions. Some of those were pre-1997, weren't 
they? Have you undertaken anything intensively or significantly 
since 1997 to really make a major leap in your analysis of 
these drug courts?
    Ms. Leary. Yes. We have a big effort in partnership with 
the National Institute of Justice, which is part of OJP, to do 
this long-term study. And that will give us, you know, 
perspective. It is kind of a--it is a national evaluation, but 
in terms of the--I think we have a real obligation to help 
build the capacity at the local level so that the courts can 
get a better handle themselves on the results of their efforts. 
We found that they are sorely lacking in expertise and 
equipment and sophistication.
    So we have done a number of things. Number one, when we 
bring communities in----
    Senator Sessions. I guess I want to stay on this research 
and evaluation information question. GAO recommended that. Do 
you agree with their recommendations?
    Ms. Leary. No, I agree that ideally you would be collecting 
that kind of data.
    Senator Sessions. And they talked about evaluating programs 
through DOJ funding to assess post-program criminal and drug 
recidivism and compare that to a group of non-participants or 
similar cohort.
    Ms. Leary. Right.
    Senator Sessions. Do you agree that would be a good 
project?
    Ms. Leary. That would be very useful, and some of that has 
been done.
    Senator Sessions. Well, some of that has been done. Can't 
we get that information? Isn't that a reasonable request for 
those of us who are providing funding that after a decade here 
we begin to really evaluate this?
    Ms. Leary. Yes, I agree. I think that is very useful 
information. It is information we should have. It is not easy 
to obtain, as you know, particularly in instances where the 
supervisory power of the court has ended. Somebody is no longer 
on probation. It is difficult to track that individual into the 
future, and that is a problem that we are grappling with, and 
we are trying to figure it out at the Federal level, and we are 
also trying to help the States build capacity so that local 
courts can do a better job.
    Senator Sessions. Well, will you commit that as part of 
this National Institute of Justice study that you would 
evaluate those issues that GAO suggested that we will have a 
recidivism program both in-program and out-of-program and 
compared to nonparticipants?
    Ms. Leary. Yes.
    Senator Sessions. I just think that is important. We need 
to nail that down.
    Ms. Leary. Right. And I should probably make it clear that 
we will do it through the studies. It is impossible to do it 
for every single drug court in America.
    Senator Sessions. Right. That is correct.
    Ms. Leary. But we will get a handle on it.
    Senator Sessions. Take a series of them and get some top 
scientific evaluation there.
    Would you also be willing to give the Subcommittee a 
progress report on results as the NIJ study data comes in? 
Would you share those with us as they come in?
    Ms. Leary. Sure.
    Senator Sessions. Tell us about this study, NIJ study. Have 
you had an opportunity, since you have been on board, to 
evaluate exactly what is planned there, and can you describe 
for us some of the things that you would like to see covered by 
this study?
    Ms. Leary. The study is--it is a multiphase study, so it is 
taking place over a period of time. They are looking at 
individual drug courts to try to ascertain the number of 
things, the topology of the drug courts----
    Senator Sessions. What does that mean?
    Ms. Leary. Let me tell you some of the questions they are 
trying to answer.
    Senator Sessions. OK.
    Ms. Leary. They are trying to answer questions who are 
these folks who come into drug courts, what do they need, what 
are the courts doing to address those needs, and how effective 
are the steps that are being taken to address those needs, how 
much does it cost, what is our cost/benefit analysis, what 
happens to these individuals while they are enrolled in drug 
court in terms of recidivism, retention, and the like, and then 
what happened to them after they finish up the drug court 
program, and obviously compared to people who are on regular 
probation, for instance, or people who are on various forms of 
intensive supervision, electronic monitoring and the like, you 
know, a decent comparison group. Those are the basic questions 
that we are trying to answer.
    Senator Sessions. Well, the thing is it can be awfully 
muddled----
    Ms. Leary. Yes.
    Senator Sessions [continuing]. About how you compare and 
what you compare. If you have, for example, an individual who 
is sentenced normally to probation for a smaller offense, and 
they have access to the State treatment program of mental 
health or something, and the judge orders them to undergo 
treatment, and they report to a probation officer, you know, 
you never know what has been happening in that treatment. They 
may be drug testing the person.
    Ms. Leary. That is right.
    Senator Sessions. You don't have the leverage of the judge. 
So comparing this really would take some rigor, and that is why 
the studies you have got provide insights into this, but from 
what I can understand, the experts you will be testing later 
recognize that we are not where we need to be with data at this 
point.
    Ms. Leary. That is right. That is right, and you will get a 
lot more information from the other witnesses on the panel 
about this, but it is very important, I think, for evaluators 
to understand what it is that we are evaluating, you know, what 
are the nuances of this program, how does it actually operate, 
what are the outside influences that might impact on what is 
happening on it.
    Senator Sessions. One more question, and I will let--did 
you have something you wanted to say?
    Ms. Leary. That is fine.
    Senator Sessions. With regard to how a case is handled, 
there are two theories. One is that you require the defendant 
to admit that he is guilty and actually plead guilty and 
withhold adjudication of the guilty plea pending successful 
completion of the drug court, the post-conviction, post-
adjudication--post-conviction, post-plea, I guess is the right 
word--way of handling it, and the other would be to simply move 
them into a diversion from criminal justice without a 
requirement of a plea and to go through this drug court program 
of treatment and monitoring.
    Does the Department of Justice recommend one or the other 
of those programs at this time?
    Ms. Leary. We leave it up to the individual courts to 
determine what works best for them, but what we do is we 
provide information about the various models and how well they 
work in different settings, and at this time, I think better 
than half of the drug courts in operation use what you might 
describe as kind of a post-adjudication model. Some use kind of 
a hybrid pre- and post-adjudication, and some use something 
else altogether.
    So we have seen a trend towards the post-adjudication 
model.
    Senator Sessions. It always struck me that that made more 
sense, because you end up 2 years down the road, and the 
witnesses are gone, the evidence has been lost, the person 
totally rejects the drug court, and you have got to figure out 
how to try the case.
    Ms. Leary. I have been in that courtroom.
    Senator Sessions. Whereas, if he successfully completes it, 
it is easy to--what do you call it?--not adjudicate guilt and 
dismiss the plea.
    Senator Biden, I will turn it over to you.
    Senator Biden. Thank you, Mr. Chairman. I agree with you 
that the evaluation of the program would be useful for a whole 
lot of reasons, but as my grandfather would say, I don't want--
I want the horse to be able to carry the sleigh here, and to do 
the kind of genuine evaluation that leads to discussion of 
recidivism, based on rearrest, recidivism based on not arrest 
but use of drugs, the question of whether or not someone is 
drug free, for how long. These are all fairly difficult to 
measure.
    I just want to make sure everybody understands. When we 
passed this the first time, I did not advertise it to be a 
cure-all of anything. I advertised it as we were taking a low 
risk at a minimum to save big money with the prospect and hope 
that it would impact upon future drug use and recidivism, but 
that was not the promise of the program. So I want to make it 
clear I don't want to set a new bar for whether or not this 
program is working or not working. That is just me speaking.
    But the second point I want to raise with you is that 
before you so quickly commit another administration to this 
thorough study, I think it is important that somehow you get to 
us a written response that indicates with some specificity what 
you are suggesting you are willing to study or likely to study. 
For example, in many States, they don't even have computerized 
criminal records within the State. Within the State. And so the 
knowledge that you would know whether or not there was a 
rearrest is de minimis in some States.
    And so what I am concerned about is if we come along after 
your study, and you find out that you say we can't give you an 
accurate, a definitive picture of rearrest rates, recidivism, 
then we are in a circumstance where if we make that a mandatory 
requirement of the program, we are going to be imposing on the 
States an incredibly expensive burden of, you know, computing. 
Now, I wish they were like my State and small enough and 
enlightened enough to get ahead of the curve, but it is easy 
for us with 750,000 people to do this, compared to States with 
10 to 32 million people.
    And so the second point I would make is that it is pretty 
important to know what is the baseline from which you are 
starting to monitor accurately future drug use or post-drug 
court drug use with or without arrest. It requires a lot of 
testing, and so if that is the measure, that is a very 
different measure. You could have someone--I mean, we all know 
a whole hell of a lot of addicts who never get arrested or drug 
users who never get arrested, and so I just think it is very 
important you and the Department are very specific about what 
is it you think we should be--you should be tasked to do 
relative to studies, and I would love all this information. 
What I don't want to do is set a bar, and then you all come 
back to us and say, by the way, you know, we need an extra $220 
million, or we need X, Y, Z, or that you have to not fund as 
many drug courts in the future because you are funding the 
studies.
    Do you follow me?
    Ms. Leary. Exactly.
    Senator Biden. So I would really like to know, and I fully 
agree with the objective of the chairman. I sincerely mean 
that, but I would just make sure we better be counting, you 
know, understand what we are doing so we don't--so the Senator 
and I, if we are still here, or whether we are not, someone 
else who has this committee later says, Well, wait a minute 
now, you all didn't do this study, this program can't mean 
much, or, you know, the study says this, and therefore the 
program doesn't work. I mean, specificity is pretty important.
    Senator Sessions. Senator Biden, I just was reminded that 
there is an objection from your side to committees--we have got 
until 11:30 a.m. We have got a couple of judges.
    Senator Biden. I will withhold any more questions, or I 
will do it in writing.
    Ms. Leary. The points are very well taken on that.
    Senator Biden. I agree with you. Let us move on.
    Senator Sessions. All right.
    Senator Biden. I agree with you.
    Senator Sessions. Thank you, Ms. Leary. I appreciate that, 
and we will probably submit some other questions and we would 
like to be partners with you in improving this program. I do 
believe there is good in drug courts, and obviously we are 
spending an increasing amount of money on them. If we can 
identify the very best parts and the very best courts and 
replicate that, we will do a service to the country.
    Ms. Leary. Thank you.
    [The prepared statement of Ms. Leary follows:]

               Prepared Statement of Hon. Mary Lou Leary

    Mr. Chairman and Members of the Subcommittee:
    I appreciate the opportunity to provide you with information about 
the work of the Office of Justice Programs (OJP) in preventing and 
controlling illegal drug use, particularly among young people. Drug 
prevention has long been a priority for OJP, and we currently support a 
wide range of initiatives to prevent and intervene in drug use, 
sanction and treat drug-abusing offenders, and follow up with 
community-based services after incarceration.
    As a former state and federal prosecutor, I have seen the terrible 
consequences of illegal drug use and trafficking--ruined lives, 
families torn apart, and communities devastated by drug-related crime. 
But through my experience at the United States Attorney's Office here 
in Washington, DC, I have also had the opportunity to see how 
communities--working together with criminal jsutice, health, education, 
and other agencies--can reduce illegal drug use and drug-related crime 
and improve opportunities for young people to grow up in an environment 
free from drugs, crime, and fear.
    As you may know, Mr. Chairman, I had the privilege of working with 
former U.S. Attorney Jay Stephens to establish the first Weed and Seed 
Program in the District of Columbia. That program, based in 
Washington's Langston-Carver neighborhood, has had remarkable success 
in driving out drug traffickers, closing crack houses, and making the 
streets safe for the families who live there. Later, working with 
former U.S. Attorney and now Deputy Attorney General Eric Holder, we 
expanded our Weed and Seed efforts to four sties in D.C.
    OJP currently supports Weed and Seed programs in over 200 
communities throughout the nation. These programs support law 
enforcement initiatives to weed out drug dealing, gang activity, and 
violent crime and seed the targeted area with educational, treatment, 
and social services, and employment opporutnities. Drug abuse 
prevention and other youth programs are essential components of many 
Weed and Seed programs. In addition, most Weed and Seed programs 
involve youth in their community crime prevention, school-based, and 
neighborhood cleanup efforts.
    As you know, Mr. Chairman, from the Weed and Seed sites in Mobile, 
these programs have tremendous community and neighborhood support. In 
addition, their methodologies have been independently evaluated and 
determined to work in reducing crime and improving the vitality of 
neighborhoods. A National Impact Evaluation of Weed and Seed also shows 
that the small amount of federal funding provided to sites, and the 
emphasis on broad-based community participation, has stimulated sites 
to mobile a far greater amount of local ersources for their Weed and 
Seed programs, particularly for the seeding component. Our strategy in 
administering Weed and Seed is to provide funding and technical 
assistance to help communities leverage resources to sustain their 
efforts, and many communities have responded overwhelmingly to this 
challenge. We are now working to enhance Weed and Seed site data 
collection and evaluation capabilities, so that sites can use the 
results of these performance measures to further improve their 
programs.
    I would like to briefly describe for the Subcommittee OJP's other 
major drug-related initiatives in five categories; prevention, 
enforcement, intervention and treatment, post-incarceration 
supervision, and research and evaluation. Together, these initiatives 
constitute a comprehensive approach to the prevention of illegal drug 
use and the control of drug-related crime.

                               PREVENTION

    Prevention is the first step toward ensuring the public safety, 
and, for that reason, is an integral component of OJP's comprehensive 
approach to reducing drug use and its consequences. We know, for 
example, that 16 percent of all jail immates and about 25 percent of 
property and drug offenders said they committed their offense to get 
money to buy drugs. At the same time, research also shows that young 
people who refrain from using illegal drugs before the age of 18 are 
likely to avoid drug problems throughout their lives. Clearly, 
prevention is an important key to community safety. OJP supports a 
broad array of initiatives designed to educate young people, their 
parents, and adults who work with youth about the dangers posed by drug 
use.
    As you know, Mr. Chairman, while OJP funds some drug prevention 
efforts directly, such as Weed and Seed, many states use OJP funds 
awarded through the Edward Byrne Memorial State and Local Law 
Enforcement Assistance (Byrne) Formula Grant and Local Law Enforcement 
Block Grant to support drug prevention initiatives. However, most OJP 
initiatives designed to prevent drug use by young people are supported 
through our Office of Juvenile Justice and Delinquency Prevention 
(OJJDP).
    For example, OJJDP partners with the Office of National Drug 
Control Policy (ONDCP) on the Drug-Free Communities Support Program. 
This program supports community coalitions that engage youth, parents, 
media, schools, and law enforcemennt to reduce and prevent youth 
substance abuse. Under this program, funds have been provided to over 
300 communities.
    OJJDP also supports the Drug Prevention Program for Youth. This 
school-based program provides Life Skills Training to youth to enable 
them to resist pressure to use drugs. The program also tests and 
demonstrates promising drug prevention strategies to reach children in 
grade school, middle school, and high school and develop a 
comprehensive, strategic approach for replicating model drug prevention 
programs for youth.
    Drug prevention also is an importannt component of many other 
programs OJJDP supports. Under the Safe Schools, Healthy Students 
Initiative, OJJDP--in partnership with the Department of Education and 
Health and Human Services--last year provided more than $100 million to 
54 communities to design comprehensive, community-based programs to 
prevent aggressive behavior and drug and alcohol abuse by young people. 
The programm involves a partnership among educational, mental health, 
social service, law enforcement, and juvenile justice agencies.
    OJJDP and BJA also support Boys & Girls Clubs of America (BGCA), 
which operates facilities where young people can participate in 
positive recreational, educational, and social activities. Through its 
Smart Moves program, BGCA helps local clubs provide drug and alcohol 
prevention programming for youth. In addition, drug abuse prevention is 
an objective of the Juvenile Mentoring Program (JUMP), which pairs at-
risk youth with adult role models to prevent drug use and deliqneucy 
and to improve school work and life skills. Through these and other 
efforts, OJP is working to deter young people from illegal drug use.

                              ENFORCEMENT

    Enforcement programs are another critical component of OJP's 
comprehensive effort to prevent illegal drug use and to help states and 
local communities enforce drug laws. Of the approximately $900 million 
in program funding that OJP certifies to ONDCP as drug-related, two-
thirds of these funds are for enforcement initiatives. For example, 
states use approximately 40 percent of funds awarded under the Byrne 
Formula Grant Program to support multi-jurisdictional law enforcement 
task forces that target drug trafficking.
    As you know, Mr. Chairman, the Byrne program was created by the 
Anti-Drug Abuse Act of 1988 specifically to help states enforce state 
and local drug laws. In providing guidance to states on their use of 
Byrne funds, BJA emphasizes controlling violent and drug-related crime 
and serious offenders through multi-jurisdictional and multi-state 
efforts to support national drug control priorities.
    Funds awarded to states and localities under BJA's Local Law 
Enforcement Block Grant (LLEBG) Program also may be used for drug 
enforcement efforts. LLEBG funds may be used to hire law enforcement 
officers, pay overtime, procure equipment, enhance school security, 
create drug courts, adjudicate violent offenders, establish multi-
jurisdictional law enforcement task forces, and support crime 
prevention programs. State and local jurisdictions determine how they 
will use their LLEBG funds.
    BJA also is helping local jurisdictions safely investigate and 
close down clandestine drug laboratories. These labs illegally 
manufacture controlled substances, often endangering the nearby 
neighborhood and the officers who investigate the labs, as well as 
increasing the availability of illegal drugs. For example, under a BJA 
grant, the National Sheriffs' Association provides training and 
technical assistance to state and local law enforcement and regulatory 
personnel on safe methods for investigating and cleaning up illegal 
drug labs.

                       INTERVENTION AND TREATMENT

    Intervention and treatment are important linchpins of OJP's 
comprehensive drug control initiative. Research has shown that 
combining criminal justice sanctions with substance abuse treatment is 
highly effective in breaking the cycle of drug use and crime. Many 
studies have demonstrated the effectiveness of treatment, particularly 
treatment in prison or other long-term residential settings followed by 
aftercare treatment in the community. OJP administers several major 
initiatives that combine drug treatment with criminal justice sanctions 
and incentives for good behavior.
    One of the most widespread and effective programs is drug courts. 
Drug courts use a ``carrot and stick'' approach. Intensive supervision 
and sanctions are combined with the prospect of reduced charges or 
shorter sentences for offenders who successfully complete treatment. 
Although drug courts vary among communities, such courts typically 
involve active participation by judges, regular drug testing of 
offenders, and prompt, graduated sanctions. Drug courts use a 
partnership approach that integrates drug treatment with other health 
and social services. As an alternative to traditional incarceration or 
probation, drug courts are an effective means to reduce drug use and 
recidivism and are less costly than traditional supervision.
    In 1994, the Violent Crime Control and Law Enforcement Act (Crime 
Act) authorized a new Drug Courts Grant Program in the Department of 
Justice. To administer this new grant program, the Drug Courts Program 
Office (DCPO) was created within OJP. Since 1995, DCPO has awarded more 
than $125 million to support the planning, implementation, or 
enhancement of drug courts in over 600 local communities.
    DCPO also provides technical assistance to communities in 
designing, implementing, and operating drug courts. Much of this 
technical assistance is provided through DCPO's Drug Courts 
Clearinghouse at American University. The Clearinghouse provides 
technical assistance to DCPO grantees, conducts research, and collects 
and disseminates information on drug courts.
    DCPO also sponsors the mentor drug court program, through which 
jurisdictions establishing new drug courts have the opportunity to 
learn from established drug courts, thereby avoiding potential 
problems. In addition, DCPO sponsors regional training conferences for 
drug court grantees.
    DCPO closely monitors the drug court programs supported with OJP 
funds. When problems are detected, DCPO staff step in to provide 
additional training and technical assistance. If problems persist, 
drawdowns of federal funds are prohibited until corrective measures 
have been taken. As a last resort, for programs that fail to take 
remedial measures, grant funds are rescinded.
    DCPO also relies on evaluations to measure drug court performance. 
In 1998 and again in 1999, Columbia University's National Center on 
Addiction and Substance Abuse (CASA) released findings from reviews of 
77 drug courts. CASA reported that evaluations have shown that drug 
courts are effective in addressing drug abuse among nonviolent 
offenders, in reducing the burdens imposed on the criminal justice 
system by drug-related cases, and in helping offenders become law-
abiding, drug-free, and self-sufficient members of their communities.
    Among the CASA findings are the following:
    <bullet> Compared to other treatment programs, drug courts provide 
more comprehensive supervision and monitoring, increase the rates of 
retention in treatment, and reduce drug use and criminal behavior while 
participants are in the drug court program.
    <bullet> Drug use for participants while in the program remains 
low, as compared with similar defendants not in a drug court. CASA 
found that an average of 10 percent of drug tests of drug court clients 
were positive, compared to an average of 31 percent for similar 
defendants not in a drug court, but under probation supervision.
    <bullet> Retention and graduation rates among drug court 
participants remain high, as compared with other outpatient treatment 
programs. Sixty percent of those who entered drug courts were still in 
treatment after 12 months, compared to 50 percent of individuals 
treated in outpatient programs.
    <bullet> Recidivism for participants while in the drug court 
program remains low for graduates. Post-graduation recidivism rates are 
also low. In an evaluation of the Jefferson County, Kentucky drug 
court, only 13 percent of drug court graduates were convicted of a 
felony in the one-year following graduation, compared to 60 percent of 
those who failed to graduate and 55 percent of the comparison group of 
eligible offenders who declined to participate in the drug court 
program.
    Other evaluations found nondrug court clients were about twice as 
likely to recidivate as compared to drug court clients. In Portland, 27 
percent of drug court clients were arrested for a new offense, compared 
to 46 percent for the comparison group. In Las Vegas, 39 percent of 
drug court clients were rearrested, compared to 66 percent for the 
control group.
    Drug courts can also help communities save money. For example, 
Denver reports savings of $2.15 million annually, and Washington, DC 
saves an average of $6,455 per client per year compared with the cost 
of incarceration. A comprehensive cost analysis of the drug court 
program in Portland, Oregon, found that every taxpayer dollar spent on 
the drug court saved $2.50 in other costs to the public. When broader 
cost savings were taken into account, such as costs to crime victims, 
the ratio of the benefit to the taxpayer was estimated at $10 saved for 
every $1 spent.
    As of June 1, 2000, there were 533 operating drug courts with 
another 293 in the planning stages. While drug courts originally served 
only adult offenders, today specialized drug courts have emerged to 
serve juveniles, Native Americans, families, and individuals charged 
with driving under the influence (DUI). More than 57,000 individuals 
have graduated from a drug court. More than 1,000 drug-free babies have 
been born to drug court participants. And over 90 percent of drug court 
graduates are gainfully employed.
    Research also has shown a tremendous need for prison-based drug 
treatment. The National Center on Addiction and Substance Abuse found 
that 80 percent of the 1.7 million adults incarcerated at the time of 
its study were under the influence of drugs or alcohol when arrested, 
stole property to buy drugs, or had a history of drug and alcohol 
abuse. From prisoner surveys conducted by OJP's Bureau of Justice 
Statistics, we know that over 80 percent reported drug use prior to 
incarceration, and between 30 and 40 percent report having been under 
the influence of alcohol immediately prior to or during the commission 
of their offenses. A study by OJP's Corrections Program Office (CPO) in 
1997 indicated that approximately 70 to 80 percent of all state prison 
inmates are in need of substance abuse treatment. However, only a 
fraction of the substance-abusing offenders in the nation's 
correctional facilities have access to treatment.
    Studies have shown a tremendous difference in recidivism rates for 
drug-abusing offenders who receive treatment as compared with those who 
do not undergo treatment. A Delaware study, for example, found that 
inmates who completed the state's drug treatment program were three 
times more likely to be drug and crime-free after 18 months than 
nonparticipants or those who failed to complete the program.
    To help fill the treatment gap, OJP's Residential Substance Abuse 
Treatment for State Prisoners (RSAT) program provides formula grants to 
states for substance abuse treatment programs in state or local 
correctional facilities. Last month, OJP awarded more than $57 million 
to all 50 states and eligible territories to continue to provide 
substance abuse treatment to state and local prisoners. Originally 
authorized in the 1994 Crime Act, RSAT has allowed OJP to provide more 
than $230 million to the states and territories since 1996.
    In implementing RSAT, states are encouraged to adopt comprehensive 
approaches to substance abuse testing and treatment for offenders, 
including relapse prevention and aftercare services. RSAT programs must 
last from six to 12 months, be provided in residential treatment 
facilities set apart from the general correctional population, focus on 
the substance abuse problems of the inmate, and work to develop the 
inmate's behavioral, social, vocational, and other skills needed to 
reduce substance abuse and related problems and improve the ability to 
remain drug and crime-free upon the offender's return to the community.
    Another major OJP program is Breaking the Cycle (BTC), a system-
wide, coordinated program designed to reduce substance abuse and 
criminal activity of drug-involved offenders by combining drug 
treatment with criminal justice sanctions and incentives. It is based 
on research suggesting that early identification and assessment of drug 
users, followed by treatment and supervision tied to the court's 
coercive powers, can reduce drug use and crime. BTC's focus is on 
maintaining continuous treatment as the defendant moves through the 
justice system.
    In 1996, OJP's National Institute of Justice (NIJ) selected 
Birmingham, Alabama as the first Breaking the Cycle demonstration site. 
In 1998, NIJ expanded the initiative to Jacksonville, Florida and 
Tacoma, Washington, and, in 1999, selected Lane County (Eugene), Oregon 
as the first Breaking the Cycle project in a juvenile justice system. 
Each site brings a strong collaborative framework to the initiative, 
which includes partners from the justice and treatment communities and 
the local political system. Each also has undertaken other innovative 
strategies to treat and monitor drug-using defendants. Each site has an 
active drug court and networks to promote criminal justice and 
treatment system coordination.
    In fact, the court plays a critical role in each BTC project, both 
in offender management and in oversight of program implementation and 
operation. Judges are responsible for ensuring that sanctions and 
incentives are applied appropriately and that treatment and other 
services are coordinated among the various program partners.
    Under Breaking the Cycle, Birmingham has significantly improved its 
handling of drug-using defendants. Substance abuse assessments that 
once were conducted six months after arrest are now completed within 
two days of arrest. The number of defendants on the project's active 
caseload has more than doubled from 900 a month to over 1,800, and the 
median length of supervision has increased from about 150 days to 232 
days. Treatment also includes case management, frequent urinalysis, and 
other needed services. Criminal justice and service providers are now 
engaged in developing a seamless transition of drug treatment and 
supervision data from the pretrial stage to post-adjudication 
supervision.
    Birmingham's experience as Breaking the Cycle's ``pioneer site'' 
reinforced the importance of elements such as strong system 
collaboration, a comprehensive management information system, and the 
availability of wide-ranging treatment options. The Birmingham 
experience also showed that Breaking the Cycle's collaborative 
structure can be used to address other system issues. NIJ has 
incorporated the lessons learned in Birmingham into its partnership 
with the other Breaking the Cycle sites. It also is working with site 
officials to transition Breaking the Cycle to other local, state, and 
federal funding sources.

                     POST-INCARCERATION SUPERVISION

    Experience with these and other treatment programs, as well as 
research, have documented the need for post-incarceration supervision 
and follow-up treatment, or aftercare, in the community to reinforce 
institutional interventions. OJP is developing approaches to help 
offenders stay crime and drug-free when they return to their 
communities following incarceration. The objective of these efforts is 
to hold offenders accountable for their behavior, to reduce recidivism, 
and to increase public safety.
    About half a million offenders are released from prison or jail 
each year and return to our communities. Too often, these offenders 
fail to receive the close supervision, drug treatment, and other 
services they need. About 100,000 offenders are under no supervision, 
drug treatment, and other services they need. About 100,000 offenders 
are under no supervision at all. Mr. Chairman, as you and I know from 
our experience as former prosecutors, many of these offenders 
recidivate. In fact, we know that about two-thirds of released 
offenders will reoffend and be reincarcerated if they are not closely 
monitored to prevent recidivism and drug abuse relapse.
    OJP has begun testing two approaches to help communities more 
effectively supervise offenders following incarceration. The first 
initiative is a reentry court, along the lines of a drug court, which 
supervises released offenders using judges instead of traditional 
parole boards. Law enforcement and correctional officers, along with 
treatment and service providers, set up a reentry plan, monitor 
offender behavior, and apply sanctions and incentives.
    OJP is providing intensive technical assistance to nine state and 
county agencies--including Broward County, Florida, San Francisco, and 
the states of Delaware, Iowa, Kentucky, and West Virginia--to develop a 
variety of models for reentry courts.
    The second approach involves reentry partnerships, where law 
enforcement, corrections, and the community work together to prepare 
for and manage the reentry process. Under this initiative, reentry 
plans are developed for individual offenders based on a network of 
community resources, including employment, housing, substance abuse 
treatment, family counseling, and other services. This comprehensive 
approach draws upon the resources of a broad range of partners, 
including corrections agencies, community police, treatment providers, 
and community-based organizations. The offender, the offender's family, 
the victim, and the community all work together to develop a 
comprehensive strategy for managing an offender's reentry to community 
life. Eight states are participating in this initiative--Florida, 
Maryland, Massachusetts, Missouri, Nevada, South Carolina, Vermont, and 
Washington.
    In addition, to maximize the impact of federal funds in the reentry 
partnership sites, OJP plans to collaborate with the Departments of 
Labor (DOL) and Health and Human Services (HHS). DOL would provide 
assistance in developing and operating jobs-related programs in the 
reentry sites, and HHS would support substance abuse and mental health 
services. We have also set aside monies under this program to support 
an evaluation, and, in fact, our National Institute of Justice has just 
recently issued a Request for Proposals for this purpose.

                        RESEARCH AND EVALUATION

    In addition to these programmatic efforts, OJP supports research 
and statistical analysis to inform programming, as well as evaluations 
to measure program performance and effectiveness. At the Justice 
Department, from the Attorney General on down, research and evaluation 
are real priorities. Research and evaluation are not isolated 
endeavors, but an integral part of our efforts to administer justice in 
this country and to improve the operations of the criminal and juvenile 
justice systems. Our goal is to have data and knowledge driving policy, 
so that our programming and funding decisions are based on sound 
performance measures, hard data, and ongoing analysis.
    Starting with the passage of the 1994 Crime Bill, we worked with 
Congress to allow us to take money off the top of all the new program 
funds to support research and evaluation in those areas and to help 
inform future federal spending. At OJP, we are working to make 
evaluation a part of every program we support and to use the results of 
research and evaluation to inform our programming and spending 
decisions. For example, since 1995, we have committed $5 million to 
evaluate drug court programs, and we plan to expend additional monies 
in fiscal year 2001 to expand these efforts. Our National Institute of 
Justice has designed a multi-phased, multi-year, multi-site evaluation 
of over 30 drug court programs. Some preliminary findings from the 
first evaluations were released this past spring, and we are using 
those results to improve our drug court programming. In addition, we 
are supporting an evaluation of the effectiveness of the various 
treatment services used by drug courts and research that will develop 
an assessment tool that can be used by drug court programs throughout 
the country to provide reliable information on program costs and cost-
savings.
    In addition, we are supporting initiatives that incorporate 
research and evaluation into programs from their inception. In these 
programs, researchers and practitioners work together to identify local 
crime-related problems, guide the implementation of interventions, 
evaluate progress, and disseminate data.
    I am committed to continuing to ensure that performance measures 
are built into every program that OJP has a responsibility to ensure 
that taxpayer monies are spent wisely and effectively. For that reason, 
I am working to ensure that OJP staff closely monitors every grant 
program to measure effectiveness, and to quickly intervene with 
training and technical assistance where needed to improve program 
operations. If a program continues to flounder in spite of additional 
assistance, I believe we must learn from our mistakes and end funding 
for projects that simply do not work.
    In addition to federally supported initiatives, we are also working 
to build research and evaluation capacity at the state and local 
levels. Federal support for research and evaluation is critical. But at 
the same time, we must build capacity at the state and local levels to 
enable those officials to better understand and respond to crime. 
Because crime in this country is primarily a state and local 
responsibility, we must enhance state and local capacity to assess 
their crime statistics, analyze risk factors, and conduct research and 
evaluation to inform local planning and programming.
    OJP is working to foster performance measures at the state and 
local level. Assistance provided to drug courts is one example. 
Although OJP closely monitors the drug courts supported with its grant 
monies, provides training and technical assistance where needed, and 
rescinds funds from ineffective programs, many drug courts are 
supported with funds from state and local government, private industry, 
and foundations. In fact, as you know, Mr. Chairman, drug courts began 
as a grass-rots movement, without federal assistance, and spread across 
the nation.
    In an effort to ensure the effectiveness of all drug courts, OJP 
entered into a cooperative agreement with the National Association of 
Drug Court Professionals to develop standards and performance measures 
for drug courts. A Drug Court Standards Committee, composed of drug 
court practitioners from throughout the country, developed 
recommendations published in DCPO's 1997 report, ``Defining Drug 
Courts: The Key Components.'' This landmark report describes the 10 key 
components of a drug court and provides performance benchmarks for each 
component. The Conference of Chief Justices, the Conference of State 
Court Administrators, and several states have adopted the key 
components and performance benchmarks as standard measurement tools for 
drug courts.
    OJP also is working to help jurisdictions collect and analyze drug 
use data, and then use those data in local criminal justice planning. 
Through the Arrestee Drug Abuse Monitoring (ADAM) program, 35 
jurisdictions across the country collect and analyze interviews and 
urinalysis of adult and juvenile arrestees and detainees in police 
lock-ups. Analyses of these data help jurisdictions understand local 
and regional drug use trends, as well as the links between drug use and 
crime, and make informed decisions about deployment and spending. ADAM 
was the first national indicator, for example, to document an alarming 
rise in Western jurisdictions in methamphetamine use. ADAM has also 
found that marijuana was the most commonly used drug among juvenile 
detainees.
    ADAM is designed so that each participating local jurisdiction can 
customize information to meet its unique needs. ADAM makes it possible 
to identify levels of drug use among arrestees; track changes in 
patterns of drug use; identify specific drugs that are abused in each 
jurisdiction; alert officials to trends in drug use and the 
availability of new drugs; provide data to help understand the drug-
crime connection; and evaluate law enforcement and jail-based programs 
and their effects.
    ADAM also serves as a research platform for a wide variety of 
related initiatives, including the relationship of drugs and crime to 
related social problems, such as alcohol abuse, domestic violence, drug 
markets, firearms, gambling, gangs, and sexually transmitted diseases. 
For example, in Indianapolis, a special committee convened by the 
mayor's office consisting of law enforcement officials, court 
officials, and service providers, used ADAM data to develop a plan to 
address problems such as prostitution, drug use, and other crimes.
    Through an agreement with the Bureau of the Census, OJP's Bureau of 
Justice Statistics collects additional data regarding drug use by 
prison and jail inmates, drug-related programs in state and local 
police agencies, and the adjudication and sentencing of drug offenders. 
For example, BJS surveys found that more than 80 percent of jail and 
prison inmates reported prior drug use, compared to 36 percent of the 
general population.

                               CONCLUSION

    These data highlight the need for continued national attention to 
the problem of illegal drug crime and drug-related crime. OJP has 
adopted a comprehensive approach to preventing illegal drug use, 
enforcing drug laws, providing appropriate interventions and sanctions 
for drug-abusing offenders, ensuring post-incarceration supervision and 
treatment, and supporting research and evaluation to inform these 
efforts. I look forward to working with you, Mr. Chairman, and the 
Members of this Subcommittee to prevent illegal drug use in this 
country, particularly by our nation's young people, and to reduce drug-
related crime. This concludes my formal statement. I would be happy now 
to answer any questions you or the Subcommittee Members may have.

    Senator Sessions. All right. Our next panel, we will get 
your names up there, and if you can go on and step forward, I 
guess I will ask you first to give your oath, if you would.
    Do you solemnly swear that the testimony you give to this 
subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Judge McMaken. I do.
    Judge Gebelein. I do.
    Mr. Belenko. I do.
    Mr. Goldkamp. I do.
    Senator Sessions. Thank you very much.
    Our second panel is comprised of several distinguished 
experts on the operation and study of drug courts. Judge Mike 
McMaken has presided over the drug court in my hometown of 
Mobile, AL, for 7 years. I have watched with great admiration 
how he has conducted that court. He served as district judge in 
Mobile County since 1987 and currently presides over the 
district court. He has served tirelessly to improve the Alabama 
criminal justice system, devoting particular efforts to child 
advocation advocacy. He co-authored a publication entitled 
``Implementing Child Advocacy: A Rational and a Basic 
Blueprint.'' He served as first president of the board of the 
directors of the Child Advocacy Center, Incorporated, in 
Mobile, and when he was a private practitioner, he represented 
the Mobile County Department of Human Resources at one point of 
his legal career, almost exclusively dealing with child custody 
actions involving abused and neglected children. He served as 
an assistant district attorney and prosecutor in both Mobile 
and Tuscaloosa and was present at and has presided over the 
creation of this drug court and its history since.
    Senator Biden, you have someone you would like to 
introduce.
    Senator Biden. I do, and let me say, Mr. Chairman, first of 
all, thank you and to the whole panel. I am supposed to be, 
like we all are, but I have three other things I am supposed to 
be doing now, and I say to Judge Gebelein there are 19 
University of Delaware students in the back room from my former 
professor, Professor Belinski. I can't remember what grade he 
gave me. So I am trying to figure out if it was a good grade, I 
am going to go speak to him. If it wasn't, I am going to go to 
the press conference, but all kidding aside, and I am supposed 
to be with Senator Hatch at 11 o'clock, which I am obviously 
not going to make, at another function on the digital divide 
and the H-1B visa.
    So I apologize if I step out, gentlemen, during your 
testimony.
    But I know you know Judge Gebelein, Mr. Chairman. He has 
been here before. He has been a member and associate judge in 
the Superior Court of Delaware since 1984. Prior to that, he 
had a job similar to the one you had as a Federal prosecutor. 
He was our attorney with the State of Delaware. He is a good 
card-carrying Republican, which I hope makes you like him a 
little more, but he also is----
    Senator Sessions. He did look like a nice fellow, I must 
admit.
    Senator Biden. He is one hell of a guy. He has served as 
chairman of the Delaware Sentencing Accountability Commission 
since 1989. He is the founder of the Delaware Statewide drug 
court system--ours is Statewide--where he serves as drug court 
judge responsible for post-adjudicated offenders, and he is the 
founding member of the National Association of Drug Court 
Professionals. There is much more to say about him, except to 
suggest to you that this is a serious man who has taken his job 
incredibly seriously. We have had, I am very proud to say, 
incredible success in Delaware. He has dealt with over 1,400 
folks who have come through his system. They have so far a 62 
percent completion rate, success rate, and I have visited his 
courts many times.
    I am happy he is here, and in the event that I don't get to 
stay for the whole testimony, it is not because of my lack of 
interest. It is because I have these other things, and I know 
so much about what he has done already.
    But I appreciate you having him here, Mr. Chairman.
    Senator Sessions. Thank you.
    Our next panelist is Dr. Steven Belenko, a fellow at the 
National Center for Addiction and Substance Abuse, CASA, at the 
Columbia University. He studied drug courts for a number of 
years and has published two studies that synthesize the current 
body of drug court research on outcomes, such as recidivism 
rates for drug court participants and graduates as compared to 
non-participants.
    Dr. John Goldkamp is currently a professor of criminal 
justice at Temple University where he heads the Crime and 
Research Institute in Philadelphia. His research focuses 
broadly on discretion in criminal justice and innovation in the 
courts, with special emphasis on treatment and alternatives to 
confinement, including drug courts. Dr. Goldkamp co-authored 
the first comprehensive evaluation of the Nation's first drug 
court in Miami. They didn't get a 80 percent cure rate, I don't 
think, did they?
    Dr. Goldkamp has conducted one portion of the large-scale 
national evaluation funded by NIJ to study the oldest drug 
courts in the United States.
    Judge McMaken, thank you for coming, and I just want to 
reiterate that I know how much you care about the people who 
come before you, and how hard you work to try to turn their 
lives around. I have seen that commitment over many years, I 
appreciate you for that. I think it is not atypical of other 
drug court judges around the country. We would be glad to hear 
your comments at this time.

 PANEL CONSISTING OF HON. MICHAEL E. McMAKEN, JUDGE, DISTRICT 
 COURT OF ALABAMA, MOBILE COUNTY, MOBILE, AL; HON. RICHARD S. 
 GEBELEIN, JUDGE, SUPERIOR COURT OF DELAWARE, WILMINGTON, DE; 
STEVEN BELENKO, PH.D., FELLOW, THE NATIONAL CENTER ON ADDICTION 
 AND SUBSTANCE ABUSE (CASA) AT COLUMBIA UNIVERSITY, NEW YORK, 
 NY; AND JOHN GOLDKAMP, PH.D., PROFESSOR OF CRIMINAL JUSTICE, 
              TEMPLE UNIVERSITY, PHILADELPHIA, PA

              STATEMENT OF HON. MICHAEL E. McMAKEN

    Judge McMaken. Thank you, Mr. Chairman. It is a privilege 
to be here. I want to thank you for the invitation to 
participate in this proceeding.
    First, it is always a pleasure to talk about the Mobile 
drug court program. After 7 years, I have become very attached 
to it, but it is also because I believe these programs can have 
a very positive impact on the community and on the participants 
when they truly commit to recovery. I realize these are very 
expensive propositions, and your committee is absolutely 
correct to be concerned that the Government money that is spent 
is only spent on programs that are successful.
    I have to acknowledge that the Mobile program expends the 
vast majority of its resources on program activities, rather 
than evaluation. Although there was a study done back in 1997, 
it was not as full-fledged an evaluation study as we would 
like, and it was 3 years ago. So those figures are no longer 
current, although it did indicate we were doing well there 
reducing the recidivism rate.
    Our numbers are a little bit smaller than some of the 
programs around the country. I don't know all the numbers of 
other programs, but we do have a very intensive level of 
monitoring and supervision and judicial involvement.
    My personal experiences after this 7 years is that we are 
definitely making a big impact on the people that graduate. We 
just had our 30th graduation last Friday. We graduated our 
454th graduate out of 1,183 participants, which is a smaller 
number than Judge Gebelein's program, but we are very pleased 
with that. We have consistently graduated 43 percent of our 
defendants. We are very, very difficult with them, and 
sometimes we are probably a little bit unreasonable by other 
persons' opinions, but we do have to work in what I consider a 
very conservative political environment, and our county 
commission spends a lot of money on this, and they have a right 
to expect a safe and positive return on their investment.
    There are several reasons I am convinced that we are 
successful.
    Senator Sessions. You say 40 percent. That means that those 
who consistently test positive or otherwise fail to follow your 
orders, you remove from the court, and they go back into is 
criminal justice system?
    Judge McMaken. They are sentenced. We are a post-plea, pre-
sentence program. If they fail, they are sentenced immediately. 
Now, we defer quite a while before we decide they have failed, 
but the 43 percent represents those who have been in the 
program a year or more. They have graduated every graduation we 
have held at 43 percent for the past 7 years.
    I would think that--my personal conviction that we are 
successful is biased, obviously, but I would have thought--and 
I am not familiar with these proceedings so I have no 
preconceived notion of how to go about this, but I brought some 
before and after pictures of somewhat representative defendants 
in our program. I would have thought I could have shown these 
photos to these ladies, and that would be enough to make them 
persevere. That doesn't always work, but the dramatic 
appearance of people, their demeanor, their participation, 
their attitude between the time they admit and the graduation 
is amazing. It is a transition that you can't understand unless 
you go to a graduation proceeding.
    Senator Sessions. I think you invited me to the first one, 
if I am not mistaken.
    Judge McMaken. Yes, sir, and you are invited to every one.
    Senator Sessions. Thank you. And I attended.
    Judge McMaken. At each graduation, I give the defendants an 
opportunity to stand up and speak, and their comments are 
usually very touching and sometimes very tearful, but they are 
given with emotional expressions of gratitude for what they 
have received from the program, and this, I wanted to point 
out, is not a time when they have to impress me. They are done. 
They have already got their dismissal order in their hand. 
Their plea is set aside, and they are free to go, but they are 
genuinely touched by the changes in their lives, I am 
convinced.
    It is very compelling to hear people say things like thank 
you for giving me my daughter back; or a child, my parent; or a 
spouse, my husband; or whatever. Or very commonly, Drug courts 
saved my life, thank you so much. One especially moving comment 
is, Thank you for helping my baby be born drug free. I have had 
defendants who I have sentenced who failed the program, went 
off to the penitentiary, had their baby at Julia Tutweiler, 
came back, and brought the child to us in court to show us that 
this baby was, in fact, born drug free. In prison, but drug 
free. I got my family back. I got my children back, is a very 
common statement from a lot of the women. My family respects me 
again, or I respect myself now.
    One really small comment, but very telling to me was one 
lady told me--it has been years ago--I can leave my daughter in 
the room with my purse again, which you can imagine what life 
is like when you can't trust your daughter to that extent.
    Often the tone of the testimony we receive for graduation 
is very spiritual. It is, I think, a good sign in a lot of 
ways, and you and I obviously share some beliefs with the same 
church membership, but that is a very moving and compelling 
fact with some of our graduates, their spiritual reawakening, 
so to speak.
    I acknowledge that not all of our graduates will succeed. I 
realize some will fail, but many I think persevere, and sitting 
as I do at sort of the top of the criminal justice funnel in 
Mobile County, I get to see everybody or one-fourth of 
everybody that comes through the system at their initial 
appearance for bail hearings and whatnot. I am satisfied we are 
doing good with that respect.
    Two things I would like to see us do: One, we need to work 
more with the children to prevent drug use. I try to take--we 
have been doing this for several years--defendants to schools 
or youth groups at churches to participate in discussion about 
not so much ``just say no'' to the drugs, but a ``this is my 
story, I didn't say no, and this is what happened to me.'' We 
try to match them to the demographics of the group that 
participate with them. We try to have a question and answer 
session. We don't do that enough. We need to do more in the 
effort of prevention in exchange for the what community gives 
to the drug court defendants, and that is also helpful in their 
treatment.
    One last thing I would like to mention, and it is not 
necessarily on point, but I believe it is very relevant, if I 
may go over my time just a second.
    Senator Sessions. Please go ahead. Yes.
    Judge McMaken. Recently, I have been involved in an infant 
mortality program. That is because there is strong research to 
show that drug use is a prime cause for infant mortality, but 
there is so much more involved in that issue. I strongly 
believe that we need to work to get treatment to all women who 
are involved prenatal drug use. I have an article, ``A Reason 
for Hope.'' It describes some of the issues related to prenatal 
alcohol and drug abuse and the cost, and I emphasize what Ms. 
Leary mentioned earlier in this respect. The costs to society 
as a result of that problem are huge. The consequences of what, 
I am afraid, is a fairly widespread community acceptance of 
drug use and abuse may affect more children than we really 
know, and we are talking about resulting damage being costly 
not just in medical expenses, but they are huge, but for other 
directly related social costs such as public assistance and 
special education services.
    As you know, I am a father of an 8-year-old girl with Down 
Syndrome who requires intensive special education assistance. I 
also have a 6-year-old son who has ADHD who is gifted, but he 
also requires a lot of attention as well. So I do understand 
the difficulties of some of those problems on a firsthand 
basis, but the special education expense alone is monumental, 
and there is research, I believe, that justifies the statement 
that children who are exposed to prenatal drug use often need 
special education services and tend to be more impulsive. They 
are more likely to use drugs. They are more likely to drop out 
of school, and they have tendencies more often towards violent 
behavior.
    Senator Sessions. Is there a study on that? I have always 
heard that.
    Judge McMaken. In the article that I have included in my 
testimony, there are references to a number of experts in that 
field, yes, sir.
    I believe that this is an issue directly related to this 
committee's work, and I think it also is affected by what you 
do in our drug courts, and we are trying to get more gender-
specific treatment and paying especially close attention to the 
pregnant females, one of which we just graduated Friday, as a 
matter of fact.
    Senator Sessions. So a pregnant female just graduated. Is 
there any doubt in your mind that that graduate was more likely 
to have been drug free having gone through the court than if 
she hadn't gone through the court?
    Judge McMaken. I can say with a high degree of confidence 
that we made a big difference. This was somebody who was with 
us for about 20 months. In other words, she was over the 12-
month normal timeframe. She was very problematic, extremely 
difficult. She was AWOL more than once, noncompliant in a lot 
of ways, but she has made a tremendous turnaround. I feel very 
confident that she is drug free today. I can't verify it now. 
She is gone from our program, but I believe that baby will be 
born drug free next month.
    Senator Sessions. If she had not been subject to that 
intensive supervision, you believe it is likely she would have 
been heavily using drugs?
    Judge McMaken. Her lifestyle was such that it would almost 
be unavoidable.
    Senator Sessions. Thank you very much, Judge McMaken. I 
appreciate those comments and your great leadership.
    [The prepared statement of Judge McMaken follows:]

                Prepared Statement of Michael E. McMaken

                         WHAT IS A DRUG COURT?

    For quite some time courts have struggled to find ways to more 
effectively deal with the increasing volume of criminal cases, 
especially those cases that are either drug offenses or drug-driven 
crimes. The volume of criminal cases directly attributable to drug and 
alcohol abuse is phenomenal and it has virtually overwhelmed the 
criminal justice system. The number of prisoners in city and county 
jails and in state and federal institutions is incredibly large.
    Given the huge cost of housing a prisoner for a year, it is much 
more fiscally attractive and beneficial to the community if we can find 
ways of disposing of criminal cases AND providing treatment to reduce 
the amount of drug abuse with its related social costs. Drug courts 
provide an option for doing both at once. It is infinitely better to 
keep a person out of prison, working and paying taxes rather than pay 
$15,000.00 to $25,000.00 per year to feed, clothe, secure, 
``entertain'', heat, cool, and provide medical care for, that person.
    Specific details of the Mobile Drug Court program are described in 
the document ``Drug Court Participation Requirements'' attached to this 
testimony. The Mobile Drug Court ``Judgeship'' is not an official full-
time judicial position. I was elected to serve as a District Court 
Judge and my regular duties in that respect have not really changed. 
The District Court Criminal cases, and the ``Small Claims'' and 
``District Civil'' cases are scheduled as usual and the Drug Court 
cases must be fit in wherever and whenever that is possible. The Drug 
Court cases are virtually exclusively Circuit Court prosecutions and a 
huge percentage of them are prosecuted by solicitor's information 
rather than indictments. As a result this takes a fair portion of the 
caseload off of the prosecutors, judges and the Circuit Court criminal 
jury dockets.
    The following three paragraphs present a cursory overview of our 
program, which will hopefully give you some feel for how we operate. A 
defendant charged with a non-violent, drug-related (or ``drug-driven'') 
felony criminal offense may elect to plead guilty and enter Drug Court 
if their application is approved by the prosecution. After a guilty 
plea is entered, the court defers sentencing and admits the defendant 
to the court-based, three-phase, intensive outpatient, drug treatment 
program, which is expected to last for one full year.
    During this treatment program the defendant must attend weekly 
group treatment sessions (the number diminishes from 3-4 to 1-2 
depending on Phase), meet with his case-manager and treatment counselor 
for individual review sessions, undergo frequent drug testing, attend 3 
(5 in Phase I) NA, AA or CA meetings weekly, pay the treatment fee of 
$1,500.00 (for the year) and appear in court as ordered by the Judge to 
verify program compliance.
    Court appearances may vary from as often as every 2-3 weeks to a 
minimum of every 2 months depending on the defendant's performance. A 
defendant must test drug-free for at least the six months prior to 
graduation in order to complete the program. Failure to comply with 
these requirements will result in a custodial prison sentence without 
the need for further court proceedings. If the defendant successfully 
completes the program, his guilty plea is set aside and his case is 
dismissed at a formal graduation ceremony where his friends, family, 
fellow drug court participants and the public can celebrate the happy 
event.

                     FREQUENT JUDICIAL INVOLVEMENT

    It is one thing for a treatment counselor or probation officer to 
develop a relationship with a defendant over whom they have 
responsibility. It is quite another for a judge to spend enough time in 
court with a defendant to know very much about him or her. After 
numerous court appearances and extensive reviews of performance 
reports, it is the rule rather than the exception in drug courts for 
judges to interact with a defendant in a meaningful way.
    Another reason this program is very different from traditional 
court proceedings is the fact that there are virtually no lawyers or 
other legal representatives involved. The prosecutor and the defense 
attorney are present at the plea dockets but they do not often 
participate at status hearings. It is the Judge and the defendant * * * 
one-on-one so to speak.
    I frequently tell defendants when they plead guilty that they want 
to be the person I do NOT know. They should want me to say: ``Who is 
he?'' That will mean that I will have had very little opportunity to 
learn about them because their performance will have been exemplary. It 
is usually the ``problem children'' whose names I recall the most 
vividly.
    Sanctions can vary from lectures and scolding to incarceration for 
violations of the treatment program requirements or sentencing if that 
ultimately becomes necessary. At the same time, the Court encourages 
and congratulates successful performance and accomplishments (such as 
getting their Driver's License reinstated, registering to vote or 
getting their (GED). Regular and intensive judicial interaction is 
probably the most distinguishing feature of drug courts.
    Intensive judicial participation may well be the factor that makes 
THE difference for some defendants. When discussing scheduling of the 
most recent graduation our staff was somewhat anxious that I put off 
committing to a specific date. I replied that I was waiting to learn 
when I would be in Washington, DC. I suggested that we could schedule 
the ceremony and that they could proceed without me if I had to be 
away. One counselor was horrified that I would even consider that. She 
said some of the defendants would not want to graduate if I would not 
be there. When I expressed amusement at that suggestion, the others 
insisted that she was correct. They believe that the defendants want to 
``show me'' that they can do it after a year or more of my 
``tormenting'' them.

                               GRADUATION

    The graduation ceremony, which is scheduled about every 2 months, 
is a time of celebration by all parties and often a critical renewal of 
the staff's energy and spirits. The defendant is afforded, and usually 
takes, the opportunity to speak about their experience in the program. 
This testimony is frequently the fuel needed to keep everyone going for 
another two months because the program is very demanding and 
challenging.
    Graduation can be a very emotional time. Listening to them share 
their journey is touching. Tears frequently flow freely. They often 
break down when they personally and publicly thank their counselors and 
case-managers for their efforts.
    Having the defendants and their families thank you for putting them 
in jail and essentially making their lives miserable at times can be a 
truly humbling experience. They frequently share with the Drug Court 
staff comments like:
        <bullet> ``Thank you for giving me my daughter back; now I can 
        leave her alone in the room with my purse.''
        <bullet> ``Thank you for helping my baby be born drug free!''
        <bullet> ``Thank you for showing me a better way to live.''
        <bullet> ``Thanks to you I have my wife (husband, child, parent 
        * * * or most importantly * * * my children) back.''
        <bullet> ``I lost everything * * * my job, my family, my home * 
        * * and when I reached the bottom, drug court showed me the way 
        back up again.''
        <bullet> I especially recall one woman who, after long and 
        agonizing months of fruitless efforts on our part, failed the 
        program and was sentenced to the penitentiary while she was 
        pregnant. When she was released from prison she came back to 
        court one day and brought her baby girl by for us to see the 
        child that we had helped to be born drug free ... even though 
        for her that had to happen while she was in prison. Her 
        expression of gratitude and joy over the happy result left a 
        very memorable impression on me.

                    THE IDEA HAS SPREAD FAR AND WIDE

    There are many drug court programs now but in February of 1993 when 
the Mobile Drug Court began there were only a few around the country 
and those were mostly in Florida and California. I believe that there 
are approximately 450 programs around the country at this time and I 
expect that more are being considered and organized all the time
    Drug court programs have been very successful in many ways and they 
have achieved a greater and much more wide spread acceptance now than 
when they were first created. That is certainly true for our program 
here in Mobile, Alabama. As good as he concept is, there is no doubt 
that such programs can be improved. The better programs almost 
certainly are constantly undergoing changes. In the beginning there was 
a good deal of trial and error. Our greatest improvements have probably 
come from our most painful mistakes.

                           HOW ARE WE DOING?

    I agree that we must try to evaluate the success of drug court 
programs and determine which formats or components are most effective 
and achieve the best results. However, when reviewing and evaluating 
them we must remember that there are many differences among the 
programs.
    I have tried informally and on an ad hoc basis to personally 
evaluate how and where we are succeeding. ``Who is graduating and who 
is failing?'' is an important question. The information is not readily 
available in a database to evaluate our performance and we must 
certainly improve that part of our programs. It goes back to the old 
saying, ``When you are up to your waist in alligators, it is difficult 
to remember that your original objective was to drain the swamp.'' My 
sense is, and this is based on some statistical data gathered together 
over a year ago, that we are succeeding most often in the cases where 
the defendant has no prior felony convictions and their Drug Court case 
is only an offense for possession of drugs. However, there are some 
truly remarkable exceptions to that ``rule.''
    We tried to pull together data on age, race, gender, type of 
offense, criminal history, and number of appearances in court and 
length of time in the program. On a limited basis, I do this personally 
for every graduating class. That is to ensure that we are hitting our 
target demographics as well as to try to remember and comment on each 
graduate's ``story''. I also make a little ``State of The Drug Court'' 
address at graduation. This data needs to be maintained for every 
participant (graduates and failures) and used to improve our selection 
criteria and program content.

                          PROGRAM DEMOGRAPHICS

    The figures that follow assume that all seventeen of the scheduled 
graduates actually appear and graduate at 1:00 PM on Friday, September 
29, 2000. This breakdown is only a very cursory examination of some of 
the demographics of our graduates and I wish it could be more.

1,183  Defendants admitted to date
1,044  Defendants admitted to MDC more than one year ago
507  Defendants Sentenced
454  Defendants Graduated (43.4% of the 1,044)
395  Graduated Defendants w/No Prior Felony Convictions (87%)
59  Graduated Defendants w/Prior Felony Convictions (13%)
347  Graduated Defendants who had only Drug cases (76.4%)
21  Graduated Defendants who had Drug cases and other cases (4.6%)
86  Graduated Defendants who had only Other-Than Drug cases (18.9%)
334  Males to Graduate (73%)
120  Females to Graduate (27%) (When I last asked the Mobile Metro Jail 
            population was 12% female.)
265  Blacks to Graduate (58.%)
189  Whites to Graduate (41.6%)
29  Average Age of all Graduates
14.9  Average Number of Months the Graduate was in Drug Couort

    The average graduate seems to match our original demographic target 
fairly well. We seem to be fairly and appropriately treating male/
female, black/white, and younger/older defendants. Although I have no 
statistical data to back it up, I also feel very strongly that we are 
spread from the top to the bottom of the socio-economic scale. The 
amount of community service that is done to defray drug court fees is 
significant. At the same time, we have many defendants who pay the full 
fee amount and a number of them are able to do it with east . . . if 
they so choose.
    It would appear that we might want to examine very carefully the 
applications of those defendants who have other than Drug cases or 
expend less energy on them while they are with us. Another conclusion 
one might draw is that we might need to be very cautious about 
accepting, or expending too much energy on, defendants with prior 
felony convictions.
    I believe that every drug court program could benefit from this 
kind of self-examination process and that the Mobile Drug Court must 
improve in this respect as well. We need to consistently evaluate our 
performance, refine those policies that work best, change those that 
are not successful and determine our recidivism rate to more fully 
document and validate the program's usefulness.
    Attached to this document is the 1997 ``Report to the Drug Court of 
Mobile County: Comparing Drug Court Graduates to Non-Drug Court 
Participants'', which was prepared by Professor G. David Johnson, PhD. 
Dr. Johnson is the Interim Associate Dean in the College of Arts and 
Sciences and a Professor of Sociology in the Department of Sociology 
and Anthropology at the University of South Alabama.
    Although this evaluation was not as comprehensive as one might 
prefer, it did establish that the recidivism rate of the drug court 
participants was lower than non-participants. This appears to be 
consistent with reviews of other drug court programs. Dr. Johnson will 
hopefully undertake a follow up evaluation of the program in the 
future.
    When comparing drug court programs please remember that they, as is 
all politics, are ``local''. Drug Courts cannot exist without ``local 
politics'' in their creation and continued existence. In the absence of 
either an enlightened monarch or benign dictator there must be some 
strong sense of community ``political will'' to finance, undertake and 
preserve a drug court program. The drug addict lobby is neither very 
popular nor especially powerful and it is up to the community leaders 
(both elected and otherwise) to take the initiative on this front.
    There must be some vision and courage among the local elected 
governmental, judicial, law enforcement and other community leadership 
to attempt to solve the drug problem by other than ``conventional 
means.'' Those conventional means have not achieved a great deal of 
success if one judges by the overwhelming availability, use, and 
unfortunately widespread community acceptance of, illegal drugs.

                    HOW WIDESPREAD IS THIS PROBLEM?

    I believe that it is generally accepted that the use of illegal 
drugs occurs in all segments of the community. Drug and alcohol abuse 
is oblivious to age, gender, race, education and socio-economic status. 
In the Mobile program alone we have had as defendants two lawyers, one 
Ph.D. Psychologist, the children of several lawyers and doctors, many 
nurses, one former police officer, and the family members of quite a 
few friends or acquaintances of the Drug Court staff. In one case we 
even had a family member of one of our staff as a program participant.
    The motivation to change the way drug-driven crimes are prosecuted 
has its motivation in the perception that we have failed to a large 
extent so far as well as in the obvious economic consequences of drug 
crimes. Our courts are overloaded with these cases and the prisons are 
overflowing with drug prisoners. We cannot build or staff enough 
prisons to keep up * * * especially for habitual offenders and/or 
sentencing guidelines in many courts.

                 DRUG COURTS ARE NOT ALL CREATED ALIKE

    Since the drug court programs are all local there exist a variety 
of philosophies and formats. While I do not pretend to have a 
comprehensive overall understanding or personal knowledge of all the 
existing programs in the country, it is my belief that many of the 
programs vary greatly in how they are organized and how they work.
    <bullet> There are diversion, post-plea and combination programs.
    <bullet> Some only accept felony cases or misdemeanor cases, while 
others take both kinds of criminal cases but no cases other than adult 
criminal cases.
    <bullet> Occasionally drug courts involve dependency cases 
(including child custody issues) in addition to criminal matters 
however most are exclusively criminal courts.
    <bullet> Some programs treat juveniles only.
    <bullet> Some courts have been created for Native-American 
defendants.
    <bullet> Some programs obtain drug treatment by contract with 
outside providers while other courts hire their own drug counselors and 
treatment staffs.
    <bullet> Some operate in-home drug testing labs while others do 
not, but instead cooperate with exist in drug testing facilities.
    <bullet> Not all programs use the same type of drug testing 
equipment, supplies, policies or procedures.
    <bullet> Some programs are smaller in scale with extremely 
intensive monitoring and drug testing while others are much larger in 
scale with less frequent contacts and/or drug testing programs.
    <bullet> Some programs are essentially loose coalitions of existing 
community programs with informal or formal agreements regarding 
referral and reporting for treatment and case management.
    <bullet> Programs require a commitment varying from only six months 
to a year or eighteen months or perhaps longer.
    <bullet> Some programs may admit participants who want to continue 
their methadone use but Mobile, for example, does not.
    <bullet> Some drug courts have frequent judicial review, 
involvement and interaction with defendants while others may have less 
judicial contact in favor of staff monitoring.
    <bullet> Some courts may have a full-time Drug Court Judge but many 
are presided over by judges with other dockets as their primary 
responsibility.
    <bullet> Some courts may operate with ``special'' judges (such as 
referees or magistrates) selected by some means other than regular 
judicial elections or appointments.
    <bullet> While some programs may have become institutionalized into 
the local judicial structure others may continue to exist only due to 
the personal commitments and dedication of key personnel or supporters.

                       EXPAND PROGRAM ACTIVITIES

    I believe that we need to expand the activities of the Drug Courts 
and make the programs and the Defendants give back to the community for 
several reasons. First the community is offering the participants an 
unparalleled opportunity to ``beat their case'' AND beat their drug 
problem at the same time. Avoiding a felony conviction can be a 
lifetime financial bonanza. Second, Mobile County for instance foots 
the bill for a significant part of the cost of the program and deserves 
to be compensated whenever possible. Third, the Defendants often need 
to learn to start accepting responsibility for their own mistakes and 
transgressions. Facing the consequences of their actions is often the 
first step to true recovery.

                         COMMUNITY SERVICE WORK

    In Mobile we have insisted on regular community service work as an 
ongoing part of the treatment program. This is a two-fold effort. 
First, in order to offer the more financially strapped defendants an 
opportunity to pay their required contribution to the cost of 
treatment, we have allowed them to perform community service work for 
up to one-half of their obligation. This is a voluntary component of 
the community service work. They sign up and work essentially on their 
own schedule but they must regularly participate to verify their 
efforts to be responsible for the payment of their fees.

                    PUNITIVE COMMUNITY SERVICE WORK

    Second, there is also a Punitive Community Service Work project 
every Saturday morning at 7:00 AM. This is an alternative to going to 
jail for not complying with some drug court program requirement. It 
helps to reduce the jail population and it makes the defendants reflect 
more intensely on their less than successful participation in 
treatment.
    We try to focus on helping the Mobile County Schools with labor to 
reduce their costs and improve the appearance of their grounds and 
facilities. In addition to the schools we also work closely to assist 
city and county parks, public housing, county and city special 
projects, special community events and the county litter patrol.
    This Punitive Community Service Program has been an ongoing project 
for several years. It is an effort not only to modify behavior but to 
also show the community that the program and the courts are working for 
the benefit of everyone. The participants wear safety-vests which 
reflect to the citizens the program's presence and involvement in their 
neighborhoods.

                          ``THIS IS MY STORY''

    The ``This is My Story'' program is one of my favorite parts of 
what the Mobile Drug Court does. We try to take drug court volunteers 
(defendants) into the schools, church youth groups, social or civic 
organizations (for example the Key Club convention in Mobile last year) 
and any other place where the participants can share their 
``testimony'' with the audience. This is primarily directed toward 
children but not exclusively. We try to match our speakers with the 
audience demographically to the greatest extent possible. It is 
sometimes even more compelling when the speakers grew up in that 
neighborhood or went to that school.
    Our speakers (usually 3 to 6) tell how they got into trouble, why 
they started using drugs, when they began and what happened as a result 
of their drug activities. The most productive part is the question and 
answer session during which the kids can interact freely with the 
speakers. We do not do this nearly enough but it may well be the best 
way we can make a significant contribution to the community in the long 
run. I would like this to be done on a regular basis with the full 
support of all of the Mobile County schools.

                CORRECTIONAL FACILITIES ``INSPECTIONS''

    We have taken the entire staff to several of our correctional 
facilities on a number of occasions. I believe that this offers several 
benefits. First, the staff gains a more complete appreciation of where 
the defendants go if they fail. It can give them a better understanding 
of why and how to work harder to help our Defendants succeed.
    Second, it also gives them a better understanding of why the 
program exists in the first place and enhances our relationship with 
the Department of Corrections. The staff has an opportunity to interact 
with the inmates and even visit with some of our prior participants, 
which goes surprisingly well for the most part. This interaction is 
highly educational and helpful for all of us.
    Third, frequently the people who work with Drug Court do so because 
of some personal experience or prior addiction problems themselves or 
with family members or other people they love. If the staff member does 
not already consider what they do as a kind of mission project it 
offers an opportunity to make the staff into ``missionaries'' rather 
than ``just'' employees. Many of the staff members feel this way about 
their work.

                 WE NEED MORE GENDER SPECIFIC TREATMENT

    Women often have more issues and are much more problematic program 
participants. This is just not my gender-biased observation but it has 
long been the consensus of the experienced female drug court staff 
members. We must focus on providing more gender-specific treatment. We 
need special treatment groups to focus on special programs in several 
areas but this is never more important than with the women 
participants.
    We seem to have a fairly significant number of prostitutes with 
drug and alcohol addiction problems and they have proven themselves to 
be THE highest risk categories of drug court candidates. They and other 
women participants often have long histories of repeated problems 
concerning child custody (dependency due to abuse or neglect) and other 
related issues. If those women never deal with their underlying 
problems they are virtually condemned to repeat the cycle and the 
result is inevitably another child at risk in the mother's unchanged 
environment. They often have a child to replace the one who was 
previously removed from their care.
    Women may not be as willing to discuss certain sensitive issues in 
groups where men are present. Some more difficult issues include sexual 
abuse, domestic violence, marital problems, medical problems, emotional 
or psychological issues and pregnancy matters. Pregnancy is an 
especially critical issue for many important reasons.

          WHAT DO WE DO WITH THE DRUG ABUSING PREGNANT WOMAN?

    The abuse of alcohol and other drugs during pregnancy is 
exceedingly dangerous and costly. The costs mount even after the baby 
is delivered if the mother continues to use drugs because it very often 
deprives the child of the nurturing and stimulation critical to proper 
development and growth.
    The costs are enormous for the child, the family and the community. 
First, the child can be severely damaged physically and mentally. Drugs 
are a significant cause of infant mortality and premature births. The 
medical costs alone for the first year of life for a very low birth-
weight child, a low birth-weight child and a normal birth-weight child 
vary dramatically. They can be in the range of $67,000.00 vs. $24,000 
vs. $9,000.00 respectively.
    Those figures do not fully take into consideration the damage done 
to the child in the most critical growth and developmental third 
trimester of pregnancy. The full cost of the future medical, emotional, 
behavioral and developmental difficulties caused by this drug use are 
more difficult to assess. The societal cost of special education, 
juvenile delinquency, and future criminal behavior are speculative in 
amount but most experts would agree that they are huge.
    It is critical to consider that the prenatal effects of drug and 
alcohol use have even bigger implications on the future behavior of 
those children. Research has shown that they tend to be more impulsive, 
have shorter attention spans, increased levels of anxiety and 
depression and have difficulty concentrating. This all results in 
significantly reduced levels of academic performance. Children with 
these problems are much more likely to use drugs, tend toward violent 
behavior and drop out of school.
    The lesson to be learned is that prevention is crucial. 
Identification of women at risk by their drug use during pregnancy and 
their referral to appropriate treatment programs is essential to avoid 
the ``wiring'' problems drug use will cause in their children.
    If children are born with these developmental (and the inevitable 
if subsequent behavior) problems, early intervention is imperative. 
Proper early intervention services can help to address and mitigate the 
results of the mother's drug use. The implementation of the Adoption 
and Safe Families Act may be necessary in some cases but appropriate 
services must be provided to these children.

                 PRISONS MAKE EXPENSIVE MATERNITY WARDS

    Putting women in prison to ensure that their babies are born drug-
free and healthy is hardly a cost-effective solution. Although this 
sometimes is the ONLY alternative and it might work exceedingly well in 
desperate situations, there must be a better overall policy for 
everyone's interests. The need for change is obvious especially 
considering the critical lack of space for female prisoners and the 
number of women who are held in county jails awaiting beds in the state 
system. Some female inmates serve nearly their entire sentence while 
waiting for a bed in the state penitentiary.
    In addition, the state prison and the individual county jails do 
not want to absorb the medical costs associated with the delivery of a 
child. Other solutions must be found. This is true NOT just for women 
with criminal cases but it is also true for all women who are pregnant 
and who are abusing drugs and alcohol. Drug courts should play a role 
in this area as well.

                   ``THANKS FOR THE MEMORIES . . .''

    After over seven years on this bench it never ceases to amaze me 
when Drug Court graduates:
    <bullet> Come up to me in the parking lot at the Wal-Mart and say 
``Judge! Remember me? Here is my card. I am in business for myself 
doing small construction jobs and renovations. I am eighteen months 
clean?''
    <bullet> Come up to me in the reception line at Dauphinway United 
Methodist Church while we were waiting to say goodbye to the minister 
who had just been appointed Bishop and say, ``Remember me? I am Carol. 
These are my two girls and I want you to meet my mother'' and have them 
thank me for what Drug Court did.
    <bullet> Stop me on the street as my wife and I are walking to a 
wedding reception and say, ``Remember me. I have eleven months clean 
now. I'm doing great.''
    <bullet> Greet me with a huge smile at Sam's where she works as a 
door-checker. As she checks my cart when I go through the door and I am 
trying to control my six-year-old and eight-year-old they say ``Hi. I 
am still doing well. Thanks. Have a nice day.''
    <bullet> Call my office and say ``I am pregnant and doing great. 
Will you marry us next week? It would mean a lot to me if you would 
perform my wedding.''
    <bullet> Run out of a group of jurors on their way to lunch in 
front of the courthouse and say. ``Hi. Can you believe it? I am on a 
jury. Thank you!''
    <bullet> Every time I visit my oncologist his ``Angel of Mercy'', 
the R.N. who administered my chemotherapy for six months, will hug me 
with a smile and not have to say anything. Over a period of more than 
two years both of her children graduated from Drug Court only to have 
one die in a tragic automobile accident about six months later. There 
is a special relationship there that needs no discussion but it is 
certainly one I will value forever. For me she and her husband 
epitomize the plight of loving and dedicated parents who struggle with 
the problems of their children. I can vividly picture her mother 
sitting quietly and patiently in every single court hearing both of her 
grandchildren ever had with me * * * never once asking me for anything 
* * * just watching and loving her grandchildren as hard and as 
faithfully as she knew how.

                      ``COST-BENEFITS ANALYSIS''?

    Drug court treatment for a year is highly labor-intensive and 
relatively expensive, but significantly less so than the cost of even 
one year in prison; but that argument only considers the most basic 
economic factors at play--especially the corrections budget. How great 
are the much more intangible cost factors? What is the cost of human 
suffering when we do fail or worse, when we do nothing? As uplifting as 
the successes may be, the failures are equally discouraging.

                   WHAT IS THE COST OF DOING NOTHING?

    Consider the lives of complete hopelessness led by some of our 
defendants. It is difficult to imagine their situation. How can one 
relate to a man or woman who has no horizon to their future? If your 
future is Friday or Saturday night and your only objective is to find, 
buy and use drugs, what does that say about the quality of your life? 
What does that do to your family? What does it do to your children? 
Removing the normal nurturing and stimulation from your children's 
lives is devastating. Yet when possessed by the craving to abuse drugs 
you do not think about taking care of your responsibilities. You care 
only for one thing. You sacrifice everything to satisfy your desire for 
drugs.
    How do you feel when you sober up or come down from your ``high'' 
and realize that you have no idea where your children are living? Or if 
they even have a roof over their heads? Or if they are hungry? Or if 
they are safe? Or loved? Who is hugging them? Who tucks them into bed 
at night? Do they even remember me? Are they alive? Can you feel the 
despair of thinking ``What have I done? Again? Why do I do this? What 
am I going to do?''

                           PAUSE AND REFLECT

    While considering and preparing my testimony I received by email a 
daily inspirational message from a service to which I subscribe. That 
quote stuck me as appropriate to the issue at hand. It is reminiscent 
of the New Testament reference to the fact that the Hebrews drank from 
wells that they did not dig and ate olives from groves that they did 
not plant when they entered the Promised Land.

    A man has made at least a start on discovering the meaning of human 
life when he plants shade trees under which he knows full well he will 
never sit.--D. Elton Trueblood

    What legacy do we want to leave for our children?

    Senator Sessions. Judge Gebelein.

               STATEMENT OF HON. RICHARD GEBELEIN

    Judge Gebelein. Senator, again I want to thank you for the 
privilege of being here and speaking about drug courts. As has 
been mentioned, in Delaware we do have a Statewide drug court 
system now. We started the system back--we began in New Castle 
County, where I am from, in 1993.
    When we looked at the idea of creating a drug court, it was 
after looking at criminal justice problems of substance abuse 
in general, and we targeted two different groups of people to 
put in drug courts. We targeted a diversionary group, a group 
of people who are beginning their criminal careers who weren't 
too seriously involved in crime, and that doesn't mean they 
don't have big problems, but they weren't yet into the career 
criminal status, and we created a diversionary-type drug court 
for those individuals where they would waive their rights to a 
trial, agree to a stipulated set of facts, and go into the drug 
court program. If they fail, the judge holds a trial based only 
on a stipulated set of facts. So it solves the problems of 
coming back later.
    Senator Sessions. Stipulated facts?
    Judge Gebelein. Yes.
    The other group that we decided to target were those people 
who were on probation, had been around for quite a while, were 
well into their criminal careers and clearly had a substantial 
drug problem, and we targeted them because they were the 
fastest growing number of people in our prisons and also the 
ones who seemed to cycle through the system over and over again 
without getting any treatment.
    So we created a second-track drug court which is the one 
that I preside over where, when you are arrested and you are on 
probation, you come into my court, and we try to resolve the 
new charge with a plea and a sentence that involves substantial 
drug treatment resources. A lot of the individuals will be 
going to jail, starting out their sentence in a therapeutic 
community in the jail so that we can get a hold of them and get 
their attention before they move back out into the community.
    So, basically, they either do resolve all their charges or 
they don't. In either event, they are going to probably end up 
being sentenced to do the therapeutic community. We control 
them, then, in the community afterwards through the drug court 
model.
    We have had some fairly good success with the people who 
enter the program. We have had about, as the Senator mentioned, 
a 62 percent completion rate of those that have gone in.
    Senator Sessions. These are the older repeat offenders with 
heavy drug problems?
    Judge Gebelein. These are the heavy-duty people. We have 
1,632 of them that went into the program in the first 5 years, 
and 1,043 of those have graduated or have had a neutral 
discharge, and there is about 3 percent of them that have a 
neutral discharge because we require them to graduate to have a 
job, a stable residence, have been drug free for 4 months. We 
have a number of people who come in who have mental problems or 
other disabilities that prevent from ever getting a job. We 
can't graduate them because they don't meet the criteria, but 
we don't think we should terminate them because they have no 
control over why they can't meet the criteria. So they are 
discharged neutrally at the end of the program.
    We have been the subject of a number of studies. We had a 
study that indicated that of the people who went through the 
serious track, that is the post-sentencing track, of the 
graduates of the program, less than 9 percent of them had been 
arrested for a felony offense within the first 18 months after 
discharge from the program, after graduation from the program.
    Senator Sessions. In 18 months?
    Judge Gebelein. Eighteen months.
    Senator Sessions. Less than 9 percent rearrest in 18 
months. That is pretty good.
    Judge Gebelein. And with those that did not complete the 
program, the rate was 27 percent rearrested for a felony within 
they same period of time.
    In the diversionary track, the numbers were better, as you 
would expect them to be. It was less than 5 percent had been 
arrested for a felony versus 17 percent for the non-completers 
of the program.
    We are currently undergoing a study as part of the national 
study with regard to the older drug courts, and one of the 
problems with any of these studies is that you have to get a 
group together big enough to study, and if you are going to 
take it out 2 or 3 years to see if it really has a post-program 
effect, the number of programs that you can study is somewhat 
limited, because as you can see from the chart, most of them 
have come on line in the last 2 or 3 years. So that is one 
problem.
    The other problem is one that I think Senator Biden 
mentioned, and that is that sometimes you are comparing apples 
to oranges in these programs. The people who go into, for 
example, my track of our drug court are very involved 
individuals. They have about a 15-year history of drug use. 
Most of them have three or more felony convictions. Compare 
them to the other track. Obviously, the people have less 
convictions, maybe one felony if any felonies and a 2- or 3-
year drug history. So you have to be careful in comparing those 
different groups.
    Senator Sessions. I certainly agree with that. I think that 
is why what we have got is a hodgepodge of studies. It would be 
difficult but not impossible I think to get some good 
comparative studies. Excuse me.
    Judge Gebelein. And I think those studies are ongoing right 
now. As I said, we are being studied by, I believe it is the 
NIJ study, but we are also being studied by a CSAT study of 
substance abuse down the road, which is even harder to do 
because you have got to try to get these people to come back 
even after they are out of the program and drop urines and talk 
about their substance abuse, and it is a tough job to perform 
that evaluation, but they are doing that currently.
    Thank you.
    [The prepared statement of Judge Gebelein follows:]

    Prepared Statement of Richard S. Gebelein, Delaware's Drug Court

    During the late 1980's, Delaware along with most other states was 
overwhelmed with drug cases. Like many other states, Delaware had 
passed mandatory sentencing laws for drug offenders, and had increased 
enforcement efforts aimed at drug activity. Under the auspices of the 
Governor, the Criminal Justice Council and the State Sentencing 
Commission, Delaware established a cross jurisdictional committee to 
make recommendations on solutions to the problem of substance abusing 
offenders and the crime they commit.
    The Committee identified a number of problems with how substance 
abuse treatment was provided to the population of criminal offenders. 
Indeed, the Committee found that a lack of coordination and case 
management of the offender and his/her treatment plan led to 
inefficient use of resources, missing opportunities for meaningful 
treatment, and offenders not receiving treatment (nor even being 
identified as having a substance abuse problem) while under criminal 
justice control. Finally, it was noted that there were gaps in the 
treatment continuum.\1\ One of the most glaring deficits in the system 
was the gap between prison based treatment and any aftercare in a 
halfway house or community setting. Many offenders would relapse within 
days or weeks after release before becoming engaged in treatment in the 
community. Many would commit new crimes creating new victims, within 
weeks of release.
    In addition, the Committee was able to observe that the prison 
population that was growing the fastest was also the most heavily drug-
involved--those who were incarcerated as a result of their failure on 
probation or parole.\2\ All of these failed parolees and probationers 
had been under the control of the correctional/criminal justice system 
one or more times and most had not had any substance abuse treatment 
while under supervision.
    It was clear to the Committee that the correctional system and 
treatment systems were equally fragmented, they lacked meaningful 
coordination within each system as well as between the two systems.\3\ 
In those cases where a need was established and treatment was provided 
it was done in a disjointed and ineffective fashion. Gaps resulted 
because of authorization procedures, waiting lists, and communication 
problems between criminal justice supervision and treatment providers. 
There was no process in place for the criminal justice system to track 
individual offenders in treatment, and no system for examining the 
utilization and/or effectiveness of treatment for offenders overall.
    The Committee also saw a need for a continuum of treatment that 
would have to be coordinated by stable case management.\4\ This would 
cause treatment to be started earlier, employed more efficiently, and 
continued without gaps as the offender moved through complex levels of 
custodial and community supervision, as well as through treatment that 
included initial interventions, transitional, and aftercare services. 
In Delaware, the TASC case management model was recommended as a means 
to span the range of correctional interventions, as well as the full 
range of institutional and community-based treatment programming. TASC 
is a program model and a methodology designed to integrate the criminal 
justice and treatment systems by providing client-centered services, 
including screening, assessment, treatment planning and case management 
services, referring clients to substance abuse treatment, other 
services, monitoring client progress, and facilitating communication 
with both justice and treatment.
    Delaware was fortunate to have the opportunity to intensively study 
its criminal offender population at all levels of supervision--both 
institutional and community based--to identify substance abuse and 
other treatment needs through assistance provided by the Office of 
Justice Programs, US Department of Justice and private foundations. 
This study was accomplished with Delaware was designing its system to 
deal with these offenders. The study established that of all the 
offenders under criminal justice control, those with the highest level 
of need for substance abuse treatment were the probation/parole 
violators who were incarcerated, and who would be reentering the 
community. \5\
    At the same time the Committee looked at the newly emerging drug 
court model. At that time, the few existing drug courts were based upon 
a diversion model that assisted in case management and brought 
immediate treatment engagement to drug offenders in lieu of further 
criminal processing. The committee recognized the advantages of this 
approach and adopted it as one key element of Delaware's response to 
this problem.
    The Committee recommended the creation of a diversion model drug 
court for low level offenders at the beginning of their criminal 
career. These offenders could be tightly supervised and given treatment 
at a relatively low cost per individual, $1500-$2000. Many could be 
diverted not only from Court processes but from a life of crime.
    This program has maintained a success rate of over 62 percent for 
the 1425 offenders percent who have been assigned to the program during 
the past six years.
    The Committee also recognized that the drug court benefits, 
including ongoing judicial involvement, immediate sanctions, strict 
accountability and flexibility in sentence modifications as use of 
rewards and graduated sanctions to encourage treatment could well be 
adapted for use with the group of serious offenders (probation-parole 
violators) who came back before the Courts after incurring new criminal 
charges.
    These, the offenders with the most need of treatment, could be 
given the opportunity to resolve new charges in an expeditious fashion, 
receive a treatment oriented ``addiction'' sentence, and then by 
closely monitored and controlled both in custody and upon reentry to 
the community.
    Marrying the Drug Court model with a case management infrastructure 
provided by TASC, Delaware designed its Fast Track--Drug Court. Since 
many of those who agree to resolve their charges at Fast-Track will 
begin their ``addiction'' sentence in residential treatment in jail (or 
prison), Delaware's Fast Track-Drug Court has since 1994 been managing 
those offender's re-entry into the community. The key to the success of 
this program is good case management that stays with the offender as 
that offender moves from Delaware's excellent prison based therapeutic 
community program, (Key) into a half-way house program, (Crest or other 
program), and then to intensive outpatient treatment without any break 
or gap in treatment services. Encouraged and congratulated by the Court 
at each step of this transition, the offender does not ``float'' after 
the conclusion of one program and before the commencement of another, 
with the high risk for relapse and/or recidivism that such 
discontinuity often engenders.
    Results for these serious offenders, many of whom have been in the 
criminal justice system for years are encouraging. Of those placed in 
the serious VOP Offender Drug Court, 1632 have either been discharged 
(successfully or neutrally) or terminated (failed). Of these, 1043 have 
graduated or been neutrally discharged. Neutral discharge is where 
completion is impossible because of a non-criminal justice reason, 
e.g., illness or death. Thus the success rate is close to 63 percent. 
Those who successfully complete the program are about 50 percent less 
likely to be rearrested for serious criminal offenses as other similar 
offenders in the criminal justice system. \6\ The glue that holds this 
system together is active case management provided under the TASC 
model. This case management enables the drug court to address the many 
problems in providing treatment to offenders. In particular, through 
the TASC assessment and management, the Court can avoid placing 
individuals into appropriate treatment, find alternative treatment 
programs for those who need them, find additional community, government 
and private treatment resources, and, provide the offenders with a 
constant reference point throughout their journey through complex and 
confusing criminal justice and treatment systems.
    In Delaware, as in many jurisdictions, TASC expanded its bounds as 
a program for diverting offenders to treatment, to a systems approach 
that managed offenders wherever they were in the criminal justice 
system. The expansion of TASC to serve this larger function is also 
evidenced in programs such as CSAT's Criminal Justice/Treatment 
Networks and the Break The Cycle Demonstration Project funded through 
the National Institute of Justice with collaboration from many federal 
treatment and justice agencies. These programs have TASC, or a similar 
case management entity, as a core element to manage offenders and to 
support both the criminal justice and treatment systems.
    At it's most effective, TASC is an independent entity that is 
interrelated to both treatment and justice systems through the court. 
TASC functions to manage cases, but also to provide a forum for ongoing 
planning and decisionmaking, and as a focal point for continued 
dialogue and learning about substance involved and other complex 
criminal client populations.
    Recent a doctoral student at the University of Delaware has again 
looked at our drug court, specifically targeting the difference between 
``so called'' violent offenders and non-violent offenders who have 
graduated from the court. She has found preliminarily that the drug 
court model has had a positive impact on both these diverse groups. Her 
thesis should be published soon and will provide, I believe, some 
interesting discussion as to appropriate target populations.
    It is, I believe, essential that we continue to study drug courts 
and their results. We must continue to refine criteria for such courts 
allowing however for local experimentation. Our VOP track was not 
eligible for federal funding because it accepts some offenders with 
convictions with violent offenses. Yet it has worked with these 
offenders to reduce their recidivism.
    The American Bar Association is building on the work done by NADCP 
in it's ``key elements'' to draft ABA Standards for Drug Courts. That 
is important. It is equally important, however, that Drug Courts have 
the flexibility our federal system allows to try differing approaches 
to a complex problem.
    The Office of Justice Programs has provided seed money for these 
local courts, acting within their diverse legal systems, to design and 
implement Drug Courts that provide one of the best chances the Criminal 
Justice System has to impact on the substance abuse problem and 
ultimately upon the crime rate.
    1. EFFECTIVE MANAGEMENT OF DRUG INVOLVED OFFENDERS, Drug Involved 
Offender Coordination Committee, March 12, 1992, pp. 4-5.
    2. A Coordinated Approach to Managing The Drug Involved Offender, 
Treatment Access Center, March 11, 1994, pp. 12-14.
    3. Effective Management of Drug Involved Offenders, Supra. At pp. 
4-6.
    4. Id., at pp. 8-11.
    5. A Coordinated * * * at pp. 13-14.
    6. The Delaware Drug Court: A Baseline Evaluation, Whillhite, 
Stephen A., and O'Connell, John P., May 1998, pp. 40-45. In particular, 
this first showed of program graduates re-arrested only 26 percent were 
re-arrested for felonies compared to 56 percent of the non graduates 
re-arrested for felonies.

    Senator Sessions. OK. Thank you very much.
    Dr. Belenko.

                  STATEMENT OF STEVEN BELENKO

    Mr. Belenko. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak with you today about my review of drug 
court research and give you my perspective on the development 
of performance indicators and outcome measures for drug courts, 
as well as what we know about best practices for successful 
drug courts.
    First, in terms of what we know about the impacts of drug 
courts, based on my review of existing research on drug courts 
as well as some of the national drug court surveys that have 
been done, the research to date suggests several conclusions. 
First, drug courts provide closer and more frequent offender 
supervision, that is, by drug tests, status hearings, and the 
like than under the standard probation or pretrial supervision 
that is typical for the population that is served by drug 
courts.
    In addition, drug courts are able to provide timely access 
to treatment and related services under traditional criminal 
justice system processing or supervision. These services 
generally are not readily available, or if they are, they tend 
to be delayed or occur later on in a case.
    Second, the positive urinalysis rates and rearrest rates 
are generally low for drug court participants while they are 
under the drug court program supervision, especially for those 
who end up graduating from the program. Several studies that 
have compared in-program rearrest rates to other drug offenders 
find reductions, though these rates vary across--as you 
mentioned in your opening statement, vary widely across drug 
courts.
    Third, we know research on drug treatment outcomes has 
consistently found that a longer time in treatment is 
associated with better outcomes, and drug court program 
retention is substantially longer than typically seen in 
community-based treatment whether or not it is a criminal 
justice-monitored treatment, but on average, as has been 
mentioned, an estimated 60 percent of those who enter courts 
remain in treatment for at least 1 year. Almost half of those 
admitted end up completing the program. These retention rates 
are much greater than the retention rates typically observed 
for criminal justice clients, specifically, and community-based 
treatment, more generally.
    Senator Sessions. Now, could you summarize that again? 
Community-based treatment is not as effective as----
    Mr. Belenko. Well, in terms of treatment retention, the 
retention rates that we see in drug courts, 60 percent--mostly 
it is outpatient treatment, 60 percent still in after 1 year, 
compared to one of the national treatment evaluations generally 
of community-based treatment find that--the most recent one--
that 50 percent of those who enter outpatient drug treatment 
are out of treatment within 3 months. So it is a dramatically 
better retention.
    Senator Sessions. When they are out of treatment. That 
means they failed or haven't complied with the program.
    Mr. Belenko. Either failed or completed, but they are not 
in treatment.
    Senator Sessions. Or they voluntarily dropped out.
    Mr. Belenko. Correct.
    Senator Sessions. And so you have a twice as high 
completion rate.
    Mr. Belenko. Roughly.
    Third, the extent to which the rate--in terms of recidivism 
key indicators for drug courts, the extent to which the rate of 
new offending is reduced following program participation is the 
most common outcome indicator used by drug courts, and their 
ability to reduce recidivism while under supervision as well as 
after finishing the program is a key to long-term acceptance 
and viability of these programs.
    Drug courts hold some promise in this area, in large part 
because of their ability to retain offenders in treatment and 
provide intensive treatment and supervision and other services, 
and from the research on drug treatment, we know that longer 
retention associated with the higher likelihood of treatment 
completion, which is in turn predictive of reduced recidivism 
and drug use.
    Most of the evaluations that have compared 1-year post-
program recidivism for all drug court participants with a 
comparison group find a lower rearrest rate for the drug court 
group. Out of a total of 21 studies that I have found, 15 have 
found a reduction in the 1-year rearrest rate. In rearrest 
rates after participating in drug court, most of those are 
after 1 year. In four studies, four of the 21, the rates were 
similar between the drug court and comparison group, and in two 
studies, the results vary depending on the measure used.
    Unfortunately, in terms of other outcomes, there has been 
very little substantive research to date about the impact of 
drug courts on other key outcomes such as post-program drug 
use, employment, family, and social stability.
    Finally, an important question about drug courts is whether 
the costs of operating these programs are lower than the 
economic benefits that may occur because incarceration time is 
reduced, because recidivism is lower, or drug use is reduced. 
Research on treatment, drug treatment in other criminal justice 
settings finds that generally these economic benefits are 
greater than the cost of operating the treatment programs, and 
several studies that I have reviewed do conclude that drug 
courts do generate cost savings, especially from reduced 
incarceration. Ms. Leary mentioned the study in Multnomah 
County, Portland, OR, which was fairly comprehensive and found 
a substantial economic benefit for that program.
    Senator Sessions. Did I hear you say that treatment as part 
of a drug court is more effective than treatment not part of a 
drug court?
    Mr. Belenko. In terms of retention, generally the treatment 
retention rates are better in drug courts. We don't know yet 
enough about the long-term impact.
    Senator Sessions. For recidivist rates, you don't have 
those numbers yet?
    Mr. Belenko. In terms of retaining offenders in treatment, 
drug courts do seem to do better than other forms of 
supervision.
    I want to talk for a couple of minutes about how we measure 
the impact of drug courts on recidivism, and that is perhaps 
the key performance indicator that most drug courts and policy 
makers and funders are interested in. The existing research 
unfortunately has a number of gaps in that area that relate, as 
mentioned before, to the shortcomings of the information 
systems that exist in most States and localities. As Senator 
Biden mentioned, many States don't even have Statewide 
computerized information systems.
    There are also differences and difficulties in how we 
measure recidivism, and there needs to be, I think, a more 
common understanding about how we are going to measure 
recidivism that includes the time periods, the type of measure, 
whether it is reconviction, re-incarceration, or rearrest. Data 
quality is a big issue in terms of the ability to access such 
information. Often, it has to be done manually because of the 
lack of information systems. The staff and funding is often not 
there to conduct this effort, and I think a lot more needs to 
be done to encourage States and localities to engage local 
researchers in that effort. Gathering this information can be 
very difficult, but as we all know, it is important.
    Finally, let us jump ahead and talk about some of the 
conclusions that we can draw from this research and what we 
know about best practices, just another minute. We know despite 
abundant research demonstrating that drug treatment can 
significantly reduce drug use and crime, access to treatment is 
typically quite limited for criminal offenders relative to the 
need for such treatment. This has important implications. 
Although some offenders can overcome their drug problems 
without treatment or are able to obtain treatment on their own 
or age out of drug use, most of them have difficulty escaping 
from the cycle of drug use and crime without formal 
interventions imposed and supervised by the criminal justice 
system.
    My research on substance abuse and the criminal justice 
system indicates that within this overall context, drug courts 
offer significant potential to effectively engage offenders 
into long-term treatment and related services. Though the drug 
court field has generally been very supportive of research and 
evaluation, drug courts need to be encouraged to do a better 
job of collecting and maintaining consistent, complete, and 
accurate performance data. Key indicators such as clinical 
assessment information, program completion, services, drug use, 
criminal behavior, and health during program participation 
should be routinely collected, maintained in a database, and 
reported out in a way that is useful for policy makers and 
funders.
    After program participation ends, the periodic collection 
of official recidivism data should be encouraged for drug 
courts as well as for other offenders that might serve as a 
comparison group, but the courts must recognize the need for 
confidentiality protections, especially following drug court 
participation.
    Drug courts are still relatively new, and a number of 
research gaps still exist that I discussed in my previous work; 
however, the field has advanced sufficiently, and there is 
other research on criminal justice-based substance abuse 
treatment that can be applied to the drug court setting to 
suggest several key elements for drug court structure and 
operations that are likely to be associated with more effective 
programs. Those include adherence to the 10 key components that 
have been identified by OJP, clinical and other assessment of 
participant problems and needs, case management, timely access 
to a range of services, adequate information flow between the 
treatment provider and the drug court, comprehensive staff 
training that incorporates cultural sensitivity and competence, 
measurable program objectives and targets with periodic review 
of achievements, adequate data systems that allow ongoing 
monitoring and evaluation, and an after-care component that 
includes ongoing treatment services.
    Finally, I believe that the question generally asked about 
drug courts, which is, Do they work?, is not exactly the 
appropriate question. There is sufficient research to suggest 
that criminal justice-based treatment of sufficient duration is 
effective. The more useful research and policy questions center 
around understanding how to develop the most cost-efficient 
treatment intervention of substance to all offenders that 
maximize positive outcomes for largest number of participants 
and to isolate the operational staff and individual client 
characteristics that predict successful completion and positive 
outcomes.
    [The prepared statement of Mr. Belenko follows:]

                  Prepared Statement of Steven Belenko

    My name is Dr. Steven Belenko, and I am a Fellow at The National 
Center on Addiction and Substance Abuse at Columbia University. I 
appreciate the opportunity to speak with the Subcommittee on Youth 
Violence today about my work on drug courts and give you my perspective 
on the development of performance indicators and outcome measures for 
drug courts. I have been studying the impact of drug abuse and drug 
offenders on the criminal justice system, and the policy and 
programmatic responses to this problem, for more than 15 years. For the 
past eight years I have had a particular interest in drug courts, and 
have visited many around the country, studied their impact, and 
reviewed numerous research reports on their effectiveness in reducing 
illegal drug use and crime.
    My remarks today will center on three areas: (1) The lessons 
learned about the impact of drug courts on crime and illegal drug use; 
(2) the need to identify and develop more useful performance indicators 
for tracking drug courts' impact on recidivism; and (3) what is known 
about best practices for drug court model.

                       THE IMPACTS OF DRUG COURTS

    From the first program implemented in Dade County (Miami, FL) in 
1989, the current generation of treatment drug courts has established 
an importance presence in America's criminal court system. In many 
jurisdictions, drug courts have become the intervention of choice for 
linking drug- or alcohol-involved offenders to community-based 
treatment and related clinical interventions. Although still only 
serving a relatively small percentage of offenders with substance abuse 
problems, drug courts have received considerable publicity, public 
support, and government funding. According to the Department of 
Justice, there were 508 operational drug courts \1\ as of June 2000; an 
additional 281 were being planned. Drug courts are operating or planned 
in all 50 states as well as the District of Columbia, Puerto Rico, 
Guam, two federal jurisdictions, and 54 Native American Tribal Courts; 
an estimated 200,000 drug offenders have entered drug court programs 
since 1989 and 55,000 have graduated.
---------------------------------------------------------------------------
    \1\ 384 adult drug courts, 105 juvenile, 19 family, and 8 
combination adult/juvenile/family.
---------------------------------------------------------------------------
    The key goals of drug courts are to reduce drug use and associated 
criminal behavior by engaging and retaining drug-involved offenders in 
judicially-supervised treatment and related services; to concentrate 
expertise about drug cases into a single courtroom; and to address 
other defendant needs through clinical assessment, case management, and 
linkages to services in the community.
    The key components of drug courts typically include: 1. judicial 
supervision of structured community-based treatment; 2. a dedicated 
courtroom reserved for drug court participants; 3. timely 
identification of defendants in need of treatment and referral to 
treatment as soon as possible after arrest; 4. a team approach in which 
all courtroom staff share the goal of assisting the participant to 
achieve sobriety; 4. regular status hearing before the judicial officer 
to monitor treatment progress and program compliance; 5. maintaining 
defendant compliance through graduated sanctions and rewards; 6. 
mandatory periodic or random drug testing; 7. structured treatment 
phases; 8. establishment of specific treatment program requirements; 
and 9. dismissal of the original charges or a reduction in the severity 
of the sentence upon successful treatment completion.
    The structure and procedures of drug courts provide closer and more 
frequent supervision of offenders than typically seen under the 
standard probation or pretrial supervision that most nonviolent drug 
offenders experience, especially earlier in their criminal careers. The 
studies and data on drug courts that I have reviewed indicate that 
court appearance, drug tests, supervision and treatment contacts are 
much more frequent under the drug court model than under other forms of 
community supervision.
    Drug courts trace their roots to a fairly lengthy history of 
various mechanisms to link substance abuse treatment to the criminal 
justice process, with direct antecedents dating back nearly fifty 
years. The general concept of dedicating specified courtrooms solely to 
drug cases is not new, and special drug case courtrooms operated both 
in Chicago and New York City in the early 1950s. In the early 1970s, 
when heroin was the primary drug of abuse among offenders, New York 
City set up special ``Narcotics Courts,'' in response to the passing of 
the punitive ``Rockefeller'' drug laws. Such narcotics courts, also 
established in several other jurisdictions, were designed to help 
ameliorate the anticipated impact on court dockets of an influx of new 
drug cases and an increased demand for trials expected to be generated 
by the new laws. For the most part, however, these earlier efforts 
provided only limited access to drug treatment for offenders, 
reflecting in part that they were generally designed to process drug 
cases more efficiently, not to treat drug offenders for their addiction 
problems. Other programs have been developed to engage defendants in 
treatment, such as Treatment Alternatives to Street Crime, limited 
diversion programs, conditions of pretrial release, conditions of 
probation or in conjunction with intermediate sanctions. However, these 
programs were often fragmented, inconsistently or inappropriately used, 
or not viewed by the criminal justice system as sufficiently effective. 
Supervision of treatment often rested on several agencies, and 
consequently it was difficult to monitor treatment progress or 
compliance with court-imposed conditions.
    The drug court model incorporates a more proactive role for the 
judge, who in addition to presiding over the legal and procedural 
issues of the case, functions as a reinforcer of positive client 
behavior. Although the judge is the central player in the program, most 
drug courts seek to function as a team in which prosecutors, defense 
attorneys and counselors work together to help offenders overcome their 
drug problems and resolve other issues relating to work, finances and 
family. Dr. Sally Satel has noted how the personality and role of the 
judge is often seen as being a key factor in the success of a drug 
court. Unlike the traditional courtroom role in overseeing court-
mandated treatment, the drug court judge plays a much more direct role 
in monitoring an offender's treatment progress and compliance.
    In the remainder of this section, I summarize what is currently 
known about the impacts of drug courts on drug use and crime, gleaned 
from my review of some 60 drug court evaluations.
    The available research suggests several overall conclusions. First, 
drug courts provide closer and more frequent offender supervision (e.g. 
number of required court appearances, drug tests, supervision and 
treatment contacts) than under the standard probation or pretrial 
supervision that most nonviolent drug offenders experience, especially 
earlier in their criminal careers. Second, program retention is 
substantially longer than typically seen in community-based treatment, 
whether or not criminal justice-monitored. Third, drug use and criminal 
behavior are comparatively reduced while drug court participants are 
under program supervision. Finally, most evaluations comparing one-year 
post-program recidivism rates for all drug court participants and a 
comparison group find a lower rearrest rate for the drug court. 
However, the magnitude of the effects on recidivism varies across drug 
courts and several evaluations have found no post-program impact on 
recidivism. In addition, studies vary in the type and appropriateness 
of the comparison group.
Retention in Treatment
    Research on drug treatment outcomes has consistently found that a 
longer time in treatment is associated with better outcomes. Retention 
rates for drug courts are much greater than the retention rates 
typically observed for criminal justice clients specifically and 
treatment clients in general. On average, an estimated 60 percent of 
those who enter drug courts remain in treatment (primarily outpatient) 
for at least one year. Although most drug courts require a minimum 
participation of one year, the percentage of all admissions that 
actually graduate from drug court is somewhat lower than the one-year 
retention rate. The 1997 General Accounting Office report on drug 
courts estimated a minimum 48 percent average program completion or 
graduation rate for those that enter drug court; that figure did not 
include those who were still active in the drug court, so actual 
graduation rates may be higher. These retention and completion rates 
are much higher than generally found in community-based treatment 
programs. For example, in a recent national treatment outcomes study 
Dr. Dwayne Simpson and his colleagues at Texas Christian University 
found that only half of those admitted to outpatient drug-free programs 
stayed three months or longer. Another study of treatment retention 
among parolees in New York State found that only 31 percent of parolees 
referred to community-based treatment remained in treatment after six 
months.
    Elements of the drug court model (such as graduated sanctions and 
rewards, judicial supervision, and responses to relapse) that account 
for increased retention in treatment have not been studied but merit 
further research. Several recent drug evaluations have analyzed the 
factors associated with program dropout; the predictors of dropout 
found in these studies (e.g., younger age, more prior polydrug use, 
less employment) are similar to those found in the more general 
treatment retention research. Factors found to affect successful 
program completion in specific drug courts include having received a 
GED, having alcohol or marijuana rather than cocaine as the primary 
drug problem at admission, being employed full-time, being charged with 
drug possession, number of group and case management counseling 
sessions received, and having a stable residence and income source. A 
study of the Multnomah County (OR) drug court found that longer time in 
treatment lowered post-program recidivism. This finding is consistent 
with general findings in the treatment outcome literature and suggests 
that the positive impacts of drug courts may be increased by strategies 
and procedures that increase the length of participation in treatment.
Drug use and Criminal Behavior under Drug Court Supervision
    Positive urinalysis rates are generally low for drug court 
participants. For the 13 courts reporting urinalysis test results in a 
1998 national drug court survey, an average of 10 percent of the tests 
were positive for illegal drugs. In contrast, in the same jurisdictions 
the average percentage of positive tests for similar defendants not in 
the drug court but under probation supervision was 31 percent. For 
example, only 5 percent of urine tests for Santa Clara County (CA) drug 
court participants tested positive, compared to 10 percent of tests for 
non-drug court offenders in electronic monitoring, 13 percent of tests 
for offenders on Intensive Supervision probation, and 25 percent of 
tests for probationers under general supervision. Drug positive rates 
were 9 percent for clients in the Ventura County drug court program, 4 
percent in Escambia and Okaloosa County (FL), 6 percent in three New 
Mexico drug courts, and 6 percent in the 13th Judicial District (Tampa, 
FL) drug court. In the Second Judicial District Court (NM), 21 percent 
of all drug court clients had a positive drug test compared with 38 
percent of those on probation.

               RECIDIVISM DURING DRUG COURT PARTICIPATION

    Drug court evaluations have also found low rearrest rates during 
the drug court program. For example, the reported incidence of rearrest 
was only 3 percent in Santa Clara County (CA) and 12 percent in Ventura 
County (CA). Not surprisingly, given that a new arrest is often a 
trigger for program termination, in-program rearrest rates are higher 
for program failures than for graduates. Seven percent of King County 
(WA) graduates and 27 percent of failures had a rearrest during the 
program, for a combined total of 20 percent. The percentages of clients 
rearrested during the program were 12 percent of graduates and 52 
percent of failures (32 percent overall) in Track 1 of the Delaware 
drug court, and 8 percent of graduates and 41 percent of failures (20 
percent overall) in Track 2. However, neither study included rearrest 
data for clients who were still active in the program at the time of 
data collection. The average annual number of arrests per person in the 
Santa Barbara (CA) drug court decreased from 2.5 in the year prior to 
admission to 1.4 during drug court participation.
Sanctions and Incentives
    One of the unique components of drug courts is the use of 
``graduated'' sanctions and incentives to hold participants accountable 
for program noncompliance and to reward them for positive achievements. 
Sanctions and incentives are viewed by drug court practioners as 
crucial for maintaining compliance, treatment retention, and achieving 
sobriety. However, although several drug court evaluations have 
examined the delivery of sanctions and rewards, little is known about 
their direct impacts on client compliance or retention, or about the 
styles and behaviors of judges that promote compliance and retention. 
Thus far, research in several jurisdictions has simply enumerated 
sanctions and rewards. For example, 44 percent of the sanctions imposed 
in the Cumberland County (ME) drug court were time in the jury box, 31 
percent were some time in jail, and 7 percent were increased AA/NA 
meetings. Among the incentives, 38 percent were advancement to the next 
treatment phase, 30 percent were other rewards such as gift 
certificates, and 16 percent were a reduction in the frequency of court 
status hearings. In the Washington, DC drug court many participants 
were remanded to jail, primarily for testing positive for drugs: 50 
percent spent three days in jail and 22 percent were ordered to spend 
at least a week in jail during their drug court participation. Even 
successful participants are likely to be sanctioned: a jail sanction 
was imposed for 46 percent of the graduates (average 0.9 per graduate) 
and 77 percent of the nongraduates (1.6 per nongraduate) of the First 
Judicial District (FL).
    However, these findings yield little information about the 
operational components of a drug court-based sanctions and rewards 
system that are likely to result in higher compliance and completion 
rates. According to Dr. Douglas Marlowe, these components may include 
regularity and immediacy of sanctions, predictability, the ability of 
the drug court to detect undesirable behaviors, and the need for 
reinforcement structures that will increase the frequency of desirable 
behaviors.
Post-program outcomes
    Recidivism. As criminal justice-based interventions, it is not 
surprising that most drug courts identify increased public safety as a 
primary goal. The extent to which the rate of new offending is reduced 
following program participation is the most common outcome indicator 
used by drug courts. Their ability to reduce participant recidivism 
while under drug court supervision as well as post-program is a key to 
the long-term acceptance and viability of these programs. Drug courts 
hold promise in this area in large part because of their ability to 
retain drug-abusing offenders in treatment and provide intensive 
treatment, supervision, and other services. Research on drug treatment 
indicates that longer retention is associated with a higher likelihood 
of treatment completion, which in turn is predictive of reduced 
recidivism and drug relapse, and increased employment and community 
reintegration.
    A number of evaluations have compared post-program recidivism for 
drug court graduates to a general comparison group, and found much 
lower recidivism rates. However, it is more appropriate to compare 
outcomes between all drug court participants (whether or not they 
graduated) and a comparison group (unless comparison subjects are 
specifically matched to graduates), although the differences would not 
be expected to be as large as for graduates only.
    Out of a total of 21 drug court evaluations that I have reviewed 
that examined post-program recidivism with a comparison group, 15 have 
found that the drug court reduced recidivism (usually after one year), 
in four studies the rates were similar, and in two studies the results 
were mixed depending on the measure used. The size of the reduction in 
recidivism varies across studies. The different results may depend on 
the comparison group used, the length of the follow-up period, the 
recidivism measure, differences in the drug court structure or quality 
of treatment services, and variations in the target population served.
    Other Outcomes. Several studies have examined outcomes other than 
recidivism, based on follow-up interviews with samples of drug court 
participants and comparison sample defendants. For the Santa Barbara 
(CA) drug court, a study comparing client problems at intake and after 
12 months in the program found that the severity of drug court 
participants' alcohol, drug, medical, legal, family, and psychological 
problems were significantly lower than 12 months in the drug court.
    In a study of the Madison County (IL) drug court, researchers 
conducted post-program follow-up interviews with a sample of 48 drug 
court dropouts and 50 comparison subjects (criminal justice clients who 
failed to complete a residential treatment program). The results 
indicated that the drug court dropouts had more drug and alcohol use 
and more days of illegal activity. Although based on a small sample, 
these findings are consistent with several other drug court evaluations 
that have found comparable or higher recidivism rates for drug court 
dropouts than comparison defendants.
    Finally, a few evaluations have gathered employment data, and these 
generally found that drug court participants are more likely to gain 
employment while participating and upon graduation. The limited data in 
this area make it difficult to draw many conclusions about the 
employment effects of drug courts.
Economic costs and benefits
    One important empirical question about drug courts is whether the 
costs of operating such programs are lower than the economic benefits 
that accrue because incarceration time is reduced, or because drug 
treatment reduces the likelihood of relapse and recidivism. Research on 
treatment in other criminal justice settings has concluded that 
investments in treatment generate net economic benefits relative to 
their costs. It could be reasonably hypothesized that economic benefits 
would result from drug court operations, because some proportion of 
drug court clients would have been incarcerated in the absence of the 
drug court. Other drug courts serve a population that is primarily 
probation-bound, but even this group would likely serve some time in 
pretrial detention awaiting case disposition, or receive short jail 
sentences in addition to probation, in the absence of a drug court. Net 
cost savings could also result from reductions in recidivism, drug use, 
use of entitlements, and foster care, as well as increases in 
legitimate employment and improved health.
    Several studies that I have reviewed concluded that drug courts 
generate savings in jail costs, especially for pretrial detention. Cost 
savings have also been found in probation supervision, police overtime, 
and other criminal justice costs. However, studies that have factored 
in projected cost savings due to the births to female drug court 
participants of drug-free babies probably have inflated the actual 
economic benefits attributable to the drug courts.\2\
---------------------------------------------------------------------------
    \2\ This is because estimates of the long-term economic costs of a 
drug-exposed baby vary widely, and the long-term impacts on the child's 
development are uncertain. Second, attributing the cost savings to the 
drug court assumes that the babies would have been born addicted had 
the mother not been in the drug court. This is speculative, given that 
offenders outside of drug court also may have access to treatment, and 
that mothers may stop using drugs in the latter stages of pregnancy 
even without participating in a drug court or other treatment program.
---------------------------------------------------------------------------
    Dr. Michael Finigan has estimated that a one-year admissions cohort 
of 440 Multnomah County (OR) drug court clients reduced criminal 
justice system costs by $2,476,760 over a two-year period (net of the 
annual $1 million cost of operating the drug court program). Adding 
savings in victimization, theft reduction, public assistance and 
medical claims costs to the criminal justice costs, the drug court 
reduced estimates state costs by $10,223,532 over two years following 
drug court participation. Dr. Elizabeth Deschenes and her colleagues 
found that the operational costs per client per day in four Los Angeles 
County drug courts ranged from $14.53 to $21.50. The average annual 
cost per client ranged from $3,706 to $8,924 for program graduates and 
from $1,599 to $3,290 for non-graduates, substantially lower than 
prison ($16,500 per year in California) or residential drug treatment 
($13,000 per year), but more costly than standard probation ($1,200 per 
year).
    Finally, researchers at the Urban Institute estimated that the 
graduated sanctions track of the Washington, DC drug court cost an 
average of $10.78 per client per day ($3,248 per participant) and the 
treatment track averaged $21.01 per day ($8,708 per participant). These 
rates are comparable to those found in Los Angeles County, and are 
substantially lower than the daily cost of incarceration in the 
District of Columbia jail ($62.31 per day). The Washington, DC drug 
court's sanctions track yielded a net economic benefit of $1,493,194 
from averted crimes. Subtracting the program costs, this resulted in a 
net benefit of $713,570, or $2,973 per participant.

           MEASURING THE IMPACT OF DRUG COURTS ON RECIDIVISM

    As mentioned earlier, a key performance indicator used to assess 
the impact of drug courts is the extent to which participation in the 
program reduces criminal activity. As documented in various evaluations 
of individual drug courts, criminal activity tends to be relatively 
reduced while participants are engaged in the drug court program. In 
addition, most studies have found that the prevalence of rearrests is 
reduced in the year following program participation. More generally, 
because drug courts have excellent retention rates, and because time in 
treatment is associated with more positive outcomes, it is reasonable 
to hypothesize that drug courts will reduce criminal activity relative 
to standard criminal justice processing, in which treatment access is 
much more limited and retention rates lower.
    However, existing research on drug courts has several important 
gaps that limit our deeper understanding of their long-term impact on 
crime. First, only a few studies have examined recidivism rates for 
longer than one year (these studies have found a reduction in 
rearrests). Second, although it is clear that those who graduate from 
drug courts have much lower recidivism rates than those who fail, there 
has been little research on the individual or program factors that are 
predictive of rearrest. Finally, existing research often fails to 
adequately define data sources, recidivism measures, or follow-up 
period, making it difficult to interpret the findings.
    There are two basic issues to consider. One is how to improve the 
measurement of recidivism. Although most studies have relied on 
rearrests contained in official criminal justice records, there are 
numerous ways to measure criminal activity. Some examples include 
reconviction, reincarceration, jail beds or jail days used, probation 
and parole violations, and self reported criminal activity. With the 
exception of the latter, these measures must be obtained from different 
official databases of varying quality. One consideration of which 
measure to use centers around these quality issues. Local (city or 
county) law enforcement databases may not have complete arrest 
information, especially when an arrest occurs in a neighboring county. 
Multiple databases may need to be accessed, along with manual files, 
raising concerns about the validity and reliability of official records 
as measures of recidivism. State criminal history systems are of 
varying quality and completeness, and some states do not have a common 
fingerprint-based ID number that can be used to link arrest events over 
time for the same offender. The main Federal criminal history database 
(NCIC) contains arrest information from other jurisdictions but is 
thought to be incomplete and to contain some inaccurate information. 
Rearrest information, as well as probation violations, may be contained 
in the databases of individual law enforcement agencies, requiring 
manual searches of multiple databases or paper files in order to gather 
complete recidivism information. Conviction information may not be 
routinely entered into law enforcement information systems.
    Gathering such information can be very costly, requiring 
substantial staff time to collect, code, clean, and analyze. Collecting 
self-reported criminal activity from drug court graduates and failures, 
as well as comparison samples of offenders, while perhaps yielding more 
comprehensive data on criminal activity, is even more costly to 
achieve. Such followup interviews require a substantial investment in 
research funds, a long time period, and a need for strict 
confidentiality and due process protections.
    The second issue revolves around the need for drug court programs 
to routinely collect information on rearrest. Drug courts may do this 
as a requirement of federal or local funding, to document their 
effectiveness, or to gain support from local policymakers. However, 
drug courts are rarely funded specifically to collect followup 
information on their participants. In addition, many drug courts lack 
adequate management information systems that would allow the routine 
tracking of rearrests. The Drug Courts Program Office (DCPO) has 
undertaken several initiatives over the past few years to encourage the 
development of better data tracking systems, but as in much of the 
criminal justice system, there is still a long way to go in this area. 
Adequate data systems are also important for program monitoring, 
process evaluations, impact evaluation, and cost analyses.
    The question of how long to track drug court recidivism is a 
difficult one. Although it is logical to think that longer followup is 
better, this is not necessarily the case. It is also important to note 
that drug courts should not be held to an impossible or unrealistic 
standard. For example, why should we expect a one-year drug court 
program to eliminate drug use and recidivism for all participants 
forever? The important policy question is how drug courts do in 
relation to other programs, other types of criminal justice 
supervision, and traditional sentences. Further, the broader picture 
suggests that we look at post-program outcomes in the context of 
reduced crime and drug use, and cost savings, during the drug court 
participation. That is, the impacts of drug courts must be measured in 
terms of their total impact on client behaviors and outcomes, both 
during and after program participation.
    Drug addiction is a chronic, relapsing condition. Achieving long-
term sobriety often requires ongoing aftercare, additional treatment 
episodes, participation in self-help group such as AA or NA, or 
``booster'' treatment sessions. Because of funding and program capacity 
constraints, few drug courts are able to provide ongoing aftercare 
treatment or other services once a participant leaves the program. 
Accordingly, it is unrealistic to expect that all drug court graduates, 
let alone drug court participants in general, will avoid relapse or 
criminal activity for the rest of their lives. Moreover, the population 
served by drug courts tends to have multiple problems in addition to 
their substance abuse issues. Unless education, employment, mental 
health, housing, and similar problems are dealt with over the long 
term, relapse is more likely over time.
    It is also problematic to compare recidivism rates across different 
jurisdictions. Local conditions vary greatly, as do law enforcement 
practices and the nature of local illegal drug markets and drug 
problems. Accordingly, the significance of a 25 percent one-year 
recidivism prevalence for drug court participants may be quite 
different in County A compared with County B. If the ``normal'' 
recidivism prevalence in County A for similar types of offenders not in 
the drug court is 40 percent, then that drug court has had a 
substantial impact on recidivism. If the ``normal'' rate is 20 percent 
in County B, then that drug court has not been successful in terms of 
the recidivism performance indicator. By similar logic, a drug court 
with a 30 percent recidivism prevalence may have achieved a much 
greater relative impact on reducing recidivism in the local 
jurisdiction than a drug court in a different jurisdiction with a 20 
percent recidivism prevalence.
    For a number of reasons outlined above, recidivism should and will 
remain a key indicator of drug court performance, and drug courts 
should be encouraged to improve their collection and analysis of in-
program and post-program recidivism. But it is also important to be 
realistic about the costs and limits of collecting such data. Few 
programs funded by the DCPO have allocated sufficient funds or staff 
resources to developing, improving, and maintaining participant 
management information systems. Many drug courts do not receive DCPO 
funding, and state or local support for collecting and analyzing 
recidivism data is limited at best. DCPO already seeks some post-
program recidivism data through its required reporting forms, but 
relatively few programs are able to provide such data. As drug courts 
expand, it will be increasingly important to provide support and 
technical assistance to drug courts to enhance their management 
information systems. But because of ongoing technical problems with 
local court and criminal history databases, we should be realistic 
about what we can expect drug courts to be able to achieve without an 
influx of substantial new resources for data collection.
    Another area in which DCPO can be helpful is developing standards 
for measuring and reporting recidivism. Such efforts are already 
underway in conjunction with the National Drug Court Institute and 
National Association of Drug Court Professionals and should continue to 
be encouraged. These standards should include definitional guidelines, 
but also guidance for quality control, followup time periods, data 
reporting, and statistical analyses.
    Finally, although this discussion has centered on recidivism as a 
key performance measure, drug courts should be assessed using other 
indicators as well. These include operational characteristics related 
to program goals and objectives, such as number of clients enrolled, 
ability to reach the target population, treatment and other service 
delivery, drug test results, number and frequency of status hearings, 
and treatment retention. At the client level, important performance 
indicators include employment and income, vocational training, school 
enrollment, child custody, health, number of days drug-free, and family 
stability. Although operational data should be relatively easy for drug 
courts to collect and maintain, obtaining periodic data on client 
activities and outcomes often requires client interviews. The latter 
are costly, raise concerns about confidentiality and human subjects 
protections that must be considered, and require trained research 
interviewers.

                              CONCLUSIONS

    The enforcement of anti-drug laws and the consequences of drug 
abuse and addiction have impacted the nation's criminal justice system 
in profound ways over the past 25 years. Police departments and other 
law enforcement agencies have paid increasing attention to drug crimes, 
legislatures have passed more and more punitive laws against the use 
and sale of illegal drugs, and access to treatment has been limited for 
those subpopulations of drug users who are most likely to be targeted 
by the criminal justice system for drug-related offenses. As a result, 
burgeoning numbers of drug offenders have flooded jails and prisons, 
and court and probation caseloads have mushroomed.
    Yet, despite abundant research demonstrating that drug treatment 
can significantly reduce drug use and related criminal activity for 
many offenders, access to treatment is typically quite limited for 
criminal offenders relative to the need. This is evidenced by treatment 
utilization data from the national Arrestee Drug Abuse Monitoring 
system, surveys of offenders on probation, and data from prison and 
jail systems. For example, only 12 percent of probationers who had ever 
used drugs were currently in a treatment program when surveyed, and 
although as estimated 75 percent of state prison inmates are in need of 
substance abuse treatment, fewer than 20 percent actually receive such 
treatment.
    Another problem is that aside from a few specialized programs such 
as drug courts and prosecutorial diversion programs, the drug abuse 
problems of offenders are rarely assessed until sentencing. Probation 
and parole departments and correctional systems may screen and assess 
for substance abuse problems, and judges may order treatment as a 
condition of probation, but few actually receive such treatment. Fewer 
still receive the long-term treatment and access to other services that 
this population tends to need.
    The lack of treatment opportunity for offenders has important 
implications. Although some offenders can overcome their drug problems 
without treatment, are able to obtain treatment on their own, or age 
out of drug abuse, most have difficulty escaping from the cycle of drug 
abuse and crime without formal interventions imposed and supervised by 
the criminal justice system. And offenders tend to be from communities 
and families that have limited resources or insurance with which to 
access treatment on their own.
    My research on substance abuse and the criminal justice system 
indicates that within this overall context, drug courts offer 
significant potential to effectively engage offenders into long-term 
treatment and related services. I believe that encouraging and 
expanding investments in court-monitored treatment models, and 
continuing to study their impacts, could yield a substantial reduction 
in crime and drug use, and a concomitant reduction in taxpayer costs. 
Compared with the enormous economic and social costs of building and 
operating the jails and prisons that house hundreds of thousands of 
offenders with substance abuse and addiction problems, programs such as 
drug courts have the potential to result in a greater impact for much 
less money.
    Although the drug court field has generally been supportive of 
research and evaluation, drug courts should be encouraged to do a 
better job of collecting and maintaining consistent, complete, and 
accurate performance data. Key indicators such as assessment and 
clinical profiles, program completion, services received, drug use, 
criminal behavior, and health during program participation should be 
routinely collected, maintained in a database, and reported on in a way 
that is useful for policymakers and funders. Both individual-level as 
well as aggregate data are needed. After program participation ends, 
the periodic collection of official recidivism data might be encouraged 
for drug courts (as well as for other offenders that can serve as 
comparison groups). But the courts also must recognize the need for 
confidentiality protections, especially following drug court 
participation. Thus recidivism rates should be reported in aggregate 
form, and understood in the context of the expected long-term impacts 
of drug court programs, and relative to recidivism rates for similar 
offenders who did not go through a drug court program. In addition, 
most local jurisdictions will need significant new resources in order 
to be able to collect, maintain, and analyze accurate and complete 
recidivism data.
    Drug court and other relevant local staff need to be trained to 
accurately maintain program and client records and conduct regular 
quality assurance reviews. Without a substantial financial and 
philosophical commitment to maintaining accurate and complete 
computerized information systems, it will be difficult to continue to 
document the impacts and costs of drug courts, or to determine how 
their operations can be improved.
    Drug courts are still relatively new, and a number of research gaps 
still exist that I have described in more detail in my previously 
published reviews. However, the field has advanced sufficiently (and 
other research on criminal justice-based substance abuse treatment can 
be applied to the drug court setting) to suggest a number of key 
elements for drug court structure and operations that are likely to be 
associated with more effective programs. These ``best practices'' 
include:
    <bullet> Adherence to the 10 ``Key Components'' of drug courts 
outlined in the 1997 OJP/DCPO monograph
    <bullet> Clinical and other assessment of participant problems and 
service needs
    <bullet> Case management
    <bullet> Timely access to a range of drug treatment and related 
services
    <bullet> Adequate information flow between treatment provider(s) 
and drug court
    <bullet> Comprehensive staff training (cross-training) that 
incorporates cultural sensitivity and competence
    <bullet> Measurable program objectives and targets, with periodic 
review of achievements
    <bullet> Adequate data systems that allow ongoing monitoring and 
evaluation
    <bullet> An aftercare component that includes ongoing treatment 
services as needed, employment and educational services
    Finally, I believe that the question generally asked about drug 
courts (``Do drug courts work?'') is not the appropriate question. 
There is sufficient research to suggest the effectiveness of criminal 
justice-based drug treatment of sufficient duration that adheres to 
research-based practice (see the NIDA publication Principles of Drug 
Addiction Treatement). The more useful research and policy questions 
center around understanding how to develop the most cost-efficient 
treatment interventions for substance-involved offenders that maximize 
positive outcomes for the largest number of participants. For example, 
what aspects of drug courts work best for which clients under what 
conditions? What is the ideal drug court program structure for which 
target population? How can treatment retention be maximized? How can 
treatment and related services be delivered most efficiently and with 
the most impact? What are the characteristics of clients who complete 
the program? What are the characteristics of clients who remain drug- 
and crime-free?

    Senator Sessions. Thank you.
    Dr. Goldkamp.

                 STATEMENT OF JOHN S. GOLDKAMP

    Mr. Goldkamp. Mr. Chairman, greetings from Philadelphia, 
and especially we would like to give our regards to our 
honorary third Senator from Pennsylvania, Senator Biden.
    It is a pleasure to be here. I have been involved in 
research on drug courts and on the impact of drug courts on the 
system and on participants for about a decade, starting with 
the first evaluation NIJ funded with the State Justice 
Institute in the early 1990's, continuing with the long-term 
evaluations of the Las Vegas and Portland, OR, drug courts, two 
of the oldest and longest operating drug courts, continuing 
also with the evaluation of the Philadelphia drug court, and 
helping with the planning of the evaluation of the San 
Francisco drug court.
    In addition, through the funding from the Drug Court 
Program Office of OJP, we have conducted focus groups with drug 
court participants in six cities around the country from San 
Bernadino, Portland, Las Vegas, Miami, and Seattle to Brooklyn. 
So we have captured the views of those who have gone through 
and asked them if they are experiencing what everybody thinks 
that they are experiencing. We found that to be very valuable.
    So my comments come from this background of being familiar 
with the field and engaged in research from the beginning. I am 
much older now, but I have had a long time to think about these 
as these charts have grown.
    Drug courts can and do work, but not all drug courts and 
not under all circumstances. I would like to focus my comments 
on sort of an agenda for research and what we have been 
learning from our research. As I see it, the job of drug court 
research involves three components: first, to understand 
clearly what drug courts are, what they mean to accomplish, and 
that differs widely across the country; second, to assess 
whether they work in a general sense and if they are cost 
effective in doing so and their effects on larger systems in 
which they are located; and, third, if they work, how, when, 
and why they work, and if they don't, why not.
    In our research, we have been pursuing these questions 
through the use of the drug court--I am afraid to say it--
typology that focuses on--focuses the research on the key 
structural ingredients of the drug courts so we move beyond the 
general to the specifics so that we can begin to learn what 
works.
    Drug courts differ in a number of ways. They differ in the 
target problems they are designed to address and the target 
populations they choose to enroll, in the extent to which they 
enroll their target populations or hit the targets, in the ways 
in which they modify normal court processes, the question of 
diversion versus post-conviction and so forth. We are beginning 
to get some evidence on that, I believe. They differ in the 
structure and content of the treatment services that they 
deliver. They differ in the responses to performance of 
participants and the accountability that they employ in their 
courts, incentives as well as sanctions, and they differ in 
productivity, and by productivity I mean crime reduction, 
substance abuse reduction, costs, employment, return to the 
justice system, results per resources expended. Finally, they 
differ in the extent to which they have system support, not 
only among criminal justice and health and other Government 
partners, but within the judicial, executive, and legislative 
branches.
    You have seen from Mr. Belenko's review that there is 
plenty of evidence to suggest the support of the notion that 
drug courts can work. I agree--as a researcher who has 
conducted and is conducting studies of drug courts, I agree in 
a general sense, but we are now learning about the conditions, 
thanks to the NIJ, more recent NIJ-funded research, the 
conditions of their effectiveness. This requires attention to 
the interplay of the dimensions that I just listed. We are now 
at a more complex level of investigation, and I think Assistant 
Attorney General Leary was alluding to the work now that is 
underway and perhaps not completed.
    It is also clear that drug courts have had a major--in 
style, philosophy, and method, have had a major effect on many 
other justice procedures. It has stimulated a wave of 
innovation that has spread to other areas where a helping and 
problem-solving approach has been seen to be useful and 
appropriate. This now includes domestic violence courts, family 
courts, community courts, and, now more recently, mental health 
courts and reentry courts, all of which could not have happened 
without drug courts. So it is the principal innovation, and so 
in that sense, asking now whether drug courts work is 
irrelevant to the reform that has followed. That genie is out 
of the bottle. There is a new way of doing things that has 
enough of a foothold around the country that we have a new 
paradigm, new methods, and new approaches to some of the 
problems of people who are in the criminal justice system.
    I have to say that under the leadership of Marilyn Roberts, 
the Drug Court Program Office of OJP has played a major and 
appropriate role in giving leadership to the development of 
drug courts in several ways: first by requiring minimum 
standards of operation in awards made to new and existing 
courts; second, by providing high-quality technical assistance 
and training for developing courts and supporting and 
encouraging peer networks; and, third, by encouraging 
evaluation results as a part of the drug court process on the 
local and national levels, separate from and in collaboration 
with the National Institute of Justice. And Director Roberts 
has done this at the DCPO all while respecting the local origin 
of drug courts, respecting the diversity of drug courts around 
the country, and resisting playing the heavy role of we are the 
Federal Government and we will tell you how to be a drug court. 
I believe this is in part due to the fact that Attorney General 
Reno had a hand in developing the first drug court in the 
country in Miami back when she had another job in 1989, and she 
has been sensitive to the issues of drug courts and their 
promise, I think, since that time.
    But because the drug court model has great promise 
reflected in the growing track record in the United States--and 
abroad, by the way--does not now mean just because there are 
hundreds of them that all drug courts in all situations are 
appropriate. The need now is to develop clearer notions of best 
practices in drug courts. What about them really makes a 
difference and what about them doesn't? This requires research 
that moves beyond the generalities, as Mr. Belenko said, of do 
they work, which is still a relevant question, to more 
specifically how and why, and I think that in our research in 
Portland and Las Vegas, taking a longitudinal approach, looking 
at drug courts over a long period of time, seeing their ups and 
downs, linking that to outside factors that the Assistant 
Attorney General was talking to, such as changes in 
prosecutorial policies, jail overcrowding, moving away from the 
single drug court model for judges, all have an impact.
    The courts we studied have really been very, very tough and 
have held participants to sort of a tough standard of 
accountability. Graduation rates are reasonably low. It is not 
a walk. Graduates always do better than non-graduates in 
looking at rearrests over
1-, 2-, and 3-year periods. In our use of comparison groups, we 
find generally lower rates of rearrest over 1-, 2-, and 3-year 
periods, particularly for drug offenses; however, the 
significance and the magnitude of differences varied by the 
time periods studied from year to year as different internal 
and external changes affected the courts' operations.
    Our focus groups with drug court participants have reviewed 
some important consonance between what drug court participants, 
drug addicts believed and what drug court designers believe. 
First, in our focus groups, we have seen that they are very 
tough populations who have lots and lots of problems. They look 
at this as an opportunity that they have never had before. They 
find it hard to believe that somebody in the justice system is 
giving them an opportunity to try. They believe the single 
judge is God's gift to drug treatment. They very much recommend 
strict accountability and drug testing. They hate drug testing, 
but they say, You take drug testing away and we will beat you. 
This is what they say. They are strongly motivated by both 
incentives and by sanctions, not just sanctions and not just 
jail. The rewards for forward progress and the sense of 
achievement is something that seems very important to them, but 
they particularly wanted to avoid jail, and the loss of 
employment and custody of children associated with conviction 
and imprisonment are great deterrents to them.
    An important finding that emerges from our research is that 
downtown drug courts are really addressing a collection of 
principal neighborhoods in urban settings and that this 
suggests the drug courts might enhance their effectiveness by 
developing links to specific neighborhood settings, for 
example, collaborating with other community justice 
initiatives, community policing, community court or community 
prosecution, and community health.
    Issues for court research that I think are the most 
important remaining, I have nine of them, and I can do it 
quickly. First of all, the multi-year studies have revealed a 
great deal about the changing dynamics of drug courts and the 
variation of their impact over time. We should build on these 
longitudinal findings. Second, yes, we need more studies, more 
in-depth studies, but we need to focus to mind the studies that 
we have now in more depth. Third, we need to now understand the 
influence of extant contextual factors, prosecutorial policy in 
Las Vegas, taking a judge out of a drug court and assigning 
other kinds of officials in Portland, and to understand the 
impact of the ingredients of the drug court model on its 
effectiveness.
    We should follow up with individuals, but it is very 
expensive and very difficult. When we are looking at drug-
addicted, mentally ill, and often homeless participants, it is 
a real assignment, and it is very difficult and raises all 
sorts of issues. Focus groups are a tool that should be used 
more frequently. They have a lot to say about our understanding 
of drug courts.
    Finally--not finally. Two more points: Drug court research 
should focus on aspects of the drug court typology to move 
beyond the general question of studying if it works to 
increasingly studying how and when and under what conditions it 
works. The variation depends on external factors and internal 
factors, and we are learning about them, and it is important.
    Our Phase II research tries to look into the box of drug 
court treatment now to determine the relative importance of 
some of the ingredients of the drug court model, going to drug 
court, attendance at treatment, the duration and type of 
treatment, the use of incentives and sanctions, the impact of 
the jail sanction. All of these are assumptions the drug court 
model makes. We are only beginning now to tease out the 
relative effects. This should be increasingly a focus of 
research.
    Drug court research should expand to follow participants 
and comparison groups through the other social services 
involved here, including welfare, public health, treatment, and 
other primary health care and other systems. And, finally, drug 
courts have an important community justice implication. Drug 
court effectiveness would be enhanced if they incorporated this 
knowledge to develop linkages to these principal neighborhoods 
that would support successful treatment under sometimes very 
difficult circumstances. Research should turn to the assessment 
of innovative courts that forge these community linkages.
    Thank you very much.
    [The prepared statement of Mr. Goldkamp follows:]

                 Prepared Statement of John S. Goldkamp

    The effect of the drug court movement on courts and the justice 
system over the last 11 years may turn out--with more historical 
distance--to have been one of the major justice reforms of the last 
part of the 20th century in the United States. Its impact on treatment 
systems that have traditionally failed to address the needs of criminal 
justice populations may also prove to have been powerful, as the 
movement compelled them to reconfigure and redirect resources to the 
most challenging populations of substance-involved citizens. Since the 
pioneering efforts of Miami justice officials establishing the nation's 
first drug court in the summer of 1989, the growth of the drug court 
movement--with upwards of 400 courts reportedly now in operation in the 
United States alone--has been extraordinary by any measure.
    To the traditional criminal court and drug treatment practices that 
drug courts were designed to improve upon, the substance of the drug 
court model of court innovation represents paradigm shift away from a 
predominantly punitive orientation toward substance abuse and drug-
related crime of the last decades to one that focuses on treatment, 
investment in human potential, second (and third) chances and 
restoration. Although there are common elements shared by most drug 
courts, proliferation of the drug court model is not explained by the 
wholesale adoption of a fixed, ``cookie-cutter'' approach in the many 
jurisdictions across the nation. Predictably, the original Miami model 
evolved in its successive applications to other settings, and was 
itself transformed in substance and procedure as the basic model 
traveled across the United States and to locations abroad. The drug 
court methodology has been adapted to grapple with other problems 
associated with criminal court populations, including community issues, 
domestic violence and mental health. The substance of the drug court 
movement has directly and indirectly spawned a variety of related 
innovations, so that one can now speak of ``problem-solving'' or 
``problem-oriented'' courts \1\ to refer to a more active, ``hands-on'' 
judicial and justice-system philosophy.
---------------------------------------------------------------------------
    \1\ This term was employed by John Feinblatt of the Center for 
Court Innovation in New York to refer to the growing family of 
innovations in court systems deriving from the drug court model. See 
New York Chief Judge Judith Kaye's commentary in Newsweek, October 11, 
1999.
---------------------------------------------------------------------------
    The challenges for research in gauging the full impact of drug 
courts on the philosophy of justice, the operations of the justice 
system, the function of the criminal and civil courts, not to mention 
the health and behavior of addicted criminal offenders are simply huge. 
In earlier discussions, we have argued that evaluation of drug courts 
should be tied to a clear understanding of their goals and that 
assessment of their impact can best be understood through a conceptual 
framework--a working typology--that identifies key ingredients thought 
to be responsible for their advertised results. Recognizing their 
diversity, we have argued that meaningful assessment of impact must be 
guided by a clear understanding of what drug courts ``are'' and ``what 
they are not''.
    Without such a framework to isolate the critical instrumental 
elements of the approach, findings from scattered evaluations will 
accumulate like apples and oranges and other ingredients for a mixed 
fruit salad of research. The result is that the practice-oriented 
consumer of the research is then left to weed through diverse findings 
from disparate studies to identify directions or themes relating to 
drug court effectiveness. With these challenges in mind, we organized 
our recent research (Goldkamp et al., 2000) studying the evolution and 
impact of two of the earliest and longest-operating drug courts in 
Portland, Oregon, and Las Vegas, Nevada, according to the elements of 
the drug court typology.\2\ In this fashion we hoped to produce 
findings with both a high degree of internal validity, as we seek to 
know what makes a particular drug court work, and sufficient external 
validity, as we seek ambitiously to test the effects of the structural 
elements of the innovation across settings.
---------------------------------------------------------------------------
    \2\ These elements on which drug courts differ include (1) Target 
problem, (2) target population; (3) screening--reaching the target; (4) 
modification/adaptation of court processing and procedures; (5) 
structure and content of treatment; (6) responses to performance in 
treatment--participant accountability; (7) productivity of the drug 
court; (8) extent of system-wide support. (See Goldkamp, 2000.)
---------------------------------------------------------------------------
    The need to sort out the effects of the critical operating 
components of the drug court model in widely different settings around 
the nation (and abroad) and the contextual dynamics of growth and 
change make the evaluation research task complex. Its apparent 
complexity, however, should not serve as a distraction from the need to 
answer some very basis questions, such as ``Do drug courts work?'' and 
``if so, how?''

                         WHAT IS A DRUG COURT?

    The problem of answering the drug-court effectiveness question must 
begin with an understanding of what a drug court is. We have described 
its basic elements as involving a new working relationship between the 
criminal court and health and treatment systems carried out within the 
boundaries of the criminal court's jurisdiction. In comparison with 
methods previously in existence in the justice system, the aims of the 
drug court model are much less punitive, and more healing and 
restorative in nature. Its unorthodox and, in historical context, 
iconoclastic methods have been characterized as an informal operation 
of the courtroom, where direct exchanges between the participant and 
the judge are common and between counsel for the state and the defense 
are non-adversarial. The courtroom was conceived as a therapeutic 
vehicle (a theatre in the ``square'') with the judge at the center 
leading the treatment process. Under this model, it was widely believed 
that the role of the judge, with its symbolism and authority, would 
serve to galvanize the treatment process into a more powerful and 
accountable form of rehabilitation than previously (or recently) 
available in the criminal justice setting. The drug court model's 
emphasis is not on the disposition of the criminal case, but instead on 
the treatment of drug-addicted offenders whose cases, when treatment 
was successful, could often be dismissed. The ``key components'' of the 
drug court model identified by practitioners are well laid out in a 
monograph sponsored by the Drug Court Program Office of the U.S. 
Department of Justice (NADCP, 1997) and described in a host of 
brochures produced by the National Association of Drug Court 
Professionals.

                 POSITIVE FINDINGS OF DRUG COURT IMPACT

    I understand you heard testimony by Dr. Stephen Belenko who has 
reviewed studies of drug courts, large and small, to identify common 
themes in their findings. You are aware, then, that he believes that 
the thrust of findings from assorted studies is generally supportive of 
the drug court innovation and points to positive results. Although the 
body of research is growing, the research process is still in its 
relatively early stages--after all the drug court movement itself is 
only 11 years old--and has only begun to move beyond considerations of 
general impact (lower crime rates among participants) to examination of 
the specific impact of ingredients of the drug court model.
    As one who has been conducting drug court research in the field for 
a decade, my conclusion is that drug courts can and do have an 
important impact on substance abuse and offending and represent an 
important new direction in criminal justice, drug treatment and health. 
My focus has been on understanding how they work and under what 
circumstances they best realize their impact. Because the drug court 
model has great promise, reflected in its growing track record in the 
U.S. and abroad, does not mean, now that there are several hundreds of 
them, that all drug courts in all situations are effective--or even 
appropriate. The need to develop clearer notions of ``best practices'' 
in drug courts--what about them really makes a difference and what 
doesn't--requires that research move beyond the generalities of asking 
``do they work?'' to move specific consideration of ``when they work, 
under what conditions, how and why?''

 LEADERSHIP OF THE DRUG COURT PROGRAM OFFICE OF THE OFFICE OF JUSTICE 
                                PROGRAMS

    The history of the impressive development of the drug court 
movement has been strongly influenced by congressional funding of drug 
courts and the effective leadership demonstrated by the Drug Court 
Program Office of the Office of Justice Programs under the current its 
director Marilyn Roberts and, in its early days, under Timothy Murray. 
The DCPO has structured the funding of new programs to require some 
basic standards of operation and has supported high-quality training 
and technical assistance programs to ensure that strong drug courts 
would result. That office has not only encouraged strict standards in 
the development of the ``key components'' guidelines for drug courts 
but has emphatically stressed the importance of evaluation by offering 
training to local evaluators in drug court issues and practices, by 
requiring local evaluation to be linked to newly funded programs, and 
by working with the National Institute of Justice to sponsor major, 
national-level formal evaluation of drug courts.

                   OUR DRUG COURT EVALUATION RESEARCH

    As one of those involved in drug court research on all levels over 
time, my research at the Crime and Justice Research Institute in 
Philadelphia has sought to understand the workings of the basic drug 
court model and its variations (employing a drug court typology of 
critical elements as a helpful framework) and to asses the impact of 
drug courts. More recently we have begun to sort out the relative 
contribution of elements thought to be critical in their operation, so 
that the further development of drug courts can build on a knowledge 
base of most effective practices.
    Our large-scale evaluations of drug courts have focused on drug 
courts in Miami, Portland, Las Vegas and Philadelphia. I conducted the 
first in-depth evaluation of a drug court, the nation's first drug 
court in Miami, in the early 1990's. Since then we have assisted in the 
development of drug courts and provided training, in particular we have 
assisted in the planning and evaluation of the Philadelphia Treatment 
Court led by the Honorably Louis Presenza, and are currently completing 
a long-term study funded by the National Institute of Justice of two of 
the nation's oldest and longest operating drug courts in Las Vegas, 
Nevada, (under the direction of the Honorable Jack Lehman with the 
assistance of one of the nation's drug court treatment leaders, John 
Marr), and Portland, Oregon (in collaboration with the Honorable Harl 
Haas, District Attorney Michael Schrunk and Metropolitan Public 
Defender Him Hennings).
    In addition, through funding from the Drug Court Program Office of 
the Office of Justice Programs, we have conducted focus groups with 
drug court participants in six cities (San Bernardino, Portland, Las 
Vegas, Miami, Seattle and Brooklyn) to capture the views of the 
citizens who have first hand experience in drug courts as participants. 
My comments about drug courts and how they work, then, come from this 
background of research in the field and close familiarity with the 
development of the drug court movement from its beginnings in Miami in 
1989.

 HIGHLIGHTS FROM THE PORTLAND (MULTNOMAH COUNTY) AND LAS VEGAS (CLARK 
       COUNTY) DRUG COURTS (NIJ NATIONAL DRUG COURT EVALUATION I)

    Much of the knowledge we gained derives from our long-term study of 
the Portland and Las Vegas drug courts under the National Institute of 
Justice ``National Evaluation of Drug Courts (I). The scope of 
evaluation of these two drug courts, two of the oldest and longest 
operating courts, extended from their beginnings (Portland, 1991; Las 
Vegas, 1993) through 1997 with follow-up of one, two and three years 
(depending on the years studied). The in-depth longitudinal approach to 
the study of drug courts--the first time ever--has provided an 
opportunity to examine these courts as they began implementation, 
developed and matured, and then faced changes over time in aspects of 
the basic drug court model. The Phase I findings show not only that, 
when the core elements of the drug court model were effectively 
implemented, the drug courts had the impact anticipated, but also that 
their effectiveness was influenced by outside factors (such as changes 
in drug laws, emergency jail crowding decrees, prosecutorial policy and 
judicial staffing of the drug courts).
    <bullet> In both sites graduates consistently were rearrested less 
frequently during one-,
two- and three-year follow-up periods than non-graduates overall and 
during each year studied.
    <bullet> When contrasted with the performance of comparison group 
drug defendants, drug court participants produced generally lower rates 
of rearrest in the one, two and three year follow-up period, 
particularly for drug offenses; however, the significance and the 
magnitude of the differences varied by the time period studied (from 
year to year) as different internal and external changes affected the 
courts' operation.

                FOCUS GROUPS OF DRUG COURT PARTICIPANTS

    Focus groups of drug court participants in each site confirmed 
several important assumptions of the drug court model:
    <bullet> Challenging target populations: that the participants were 
generally very seriously involved in substance abuse, often having long 
histories of abuse and failure in treatment;
    <bullet> Multi-problem treatment needs: that they often suffered 
from co-occurring disorders (e.g. mental illness);
    <bullet> Accepted the opportunity: that they saw the drug court 
experience as a unique opportunity, were impressed that ``someone would 
want to help,'' and were responsive to positive incentives offered by 
the drug court treatment process;
    <bullet> Critical importance of the single drug court judge: that 
they viewed the single drug court judge as the main and most important 
element of the treatment experience that made it different from other 
experiences in court or treatment;
    <bullet> Accountability and Responses to Performance: that 
participants considered drug testing and accountability it provided as 
key to the treatment process; and that they were strongly motivated 
both by incentives (rewards for progress and the sense of achievement 
that came with it) and sanctions employed by the drug court. They 
particularly wanted to avoid jail, convictions, and the loss of 
employment and custody of children associated with conviction and 
imprisonment.

                 DRUG COURTS AND SPECIFIC NEIGHBORHOODS

    Both the longitudinal study and discussions with drug court 
participants in the focus groups revealed that ``downtown'' drug courts 
deal with residents of several distinct principal neighborhoods within 
each jurisdiction that differed by race/ethnicity and the drug and 
crime problems associated with them. This suggests that drug courts 
might enhance their effectiveness by developing links to specific 
neighborhood settings, for example, in collaboration with community 
policing, community court or community prosecution initiatives.

                    SELECTED FINDINGS FROM THE SITES

Portland
    <bullet> The Multnomah County Drug Court (the S.T.O.P. program) 
enrolled about 4,620 participants from 1991 (its pilot year) through 
1998, an average of about 577 per year. From 1995 through 1998, 
enrollments exceeded 600 per year, peaking in 1997 at 734 participants.
    <bullet> 36 percent of enrolled participants graduated within two 
years overall, although this rate varied by time-period cohort.
    <bullet> Drug court graduates were rearrested notably less 
frequently than non-graduates over the entire study period and when 
each yearly cohort was examined during one-, two- and three-year 
follow-up periods; 35 percent of graduates were rearrested within three 
years compared to 61 percent of non-graduates. The differences were 
largest when rearrests for drug offenses were examined.
    <bullet> When contrasted with the records of comparison group drug 
defendants, drug court participants showed generally lower rearrest 
rates at over the one year follow-up period and lower rearrest rates at 
the three-year mark for three of the four time-period cohorts studies. 
The magnitude and significance of the differences, however, varied by 
time period.
    <bullet> The most difficult (less effective) periods for the drug 
court were during the initial start-up period (1991-92), when an 
initial treatment provider had to be discarded and a new provider 
adopted, and from 1996 through 1997, when the chief judge dropped the 
core drug court judge approach and assigned non-judge personnel and/or 
frequent rotation of many different judges into the drug court.
Las Vegas
    <bullet> The Clark County Drug Court enrolled 3,364 participants 
from 1993 through 1998, an average of about 556 per year. From 1996 
through 1998, enrollments exceeded 600 per year, peaking in 1998 at 755 
participants.
    <bullet> 34 percent of enrolled participants graduated within two 
years overall, although this rate varied by time-period cohort; it was 
lowest when the court shifted toward guilty plea cases.
    <bullet> Drug court graduates were rearrested notably less 
frequently than non-graduates over the entire study period and when 
each yearly cohort was examined during one-, two- and three-year 
follow-ups; 46 percent of graduates were rearrested within three years 
compared to 76 percent of non-graduates. The differences were largest 
when rearrest for drug offenses were examined.
    <bullet> When contrasted with the records of comparison group drug 
defendants, drug court participants showed generally lower rearrest 
rates at over the one year follow-up period and generally lower 
rearrest rates at the three-year mark; overall 65 percent of drug court 
participants had been rearrested three years after entering drug court 
compared to 79 percent of comparison group drug defendants. The 
magnitude and significance of the differences, however, varied by time 
period.
    <bullet> The most different period for the drug court was beginning 
in 1996 when prosecutorial policy changed from encouraging diversion to 
requiring guilty pleas from participants to enter the drug court. This 
not only changed the kind of participant entering drug court to a 
higher risk participant with more extensive prior histories, but also 
appeared to reduce the participant's incentive to successfully complete 
court. Charges could not be dismissed at the end of the process as they 
previously could be when the main emphasis was on a pre-conviction 
diversion approach.

                          ISSUES FOR RESEARCH

    <bullet> Drug Court Performance over Time: The multi-year study of 
drug courts has revealed a great deal about the changing dynamics of 
drug courts and variations in impact over time. Single time-period 
studies generalize from a single time period, which may produce 
misleading results (depending on whether it was a particularly good or 
bad year). We should build on these longitudinal findings.
    <bullet> The Importance of Contextual Factors. External, contextual 
factors, such as prosecutorial policy regarding drug court entrance 
(requiring guilty pleas) in Las Vegas and judicial staffing (moving 
away from the dedicated drug court judge) in Portland--have important 
impacts on the effective operation of the drug court and need to be 
studied more closely.
    <bullet> Follow-up of Individuals: Individual follow-up of 
participant and non-participants (control group defendants) over time 
is desirable but very difficult and expensive because of the challenges 
associated with locating people over time and the sample attrition that 
occurs.
    <bullet> Focus Groups of Drug Court Participants: Focus groups of 
drug court participants represent a plausible, low cost and more 
immediate--though less systematic--method of gaining feedback on the 
drug court experience and from the point of view of those who 
experience the programs. This approach to gathering knowledge about the 
actual (as opposed to the intended) effects of drug courts should be 
given a higher priority.
    <bullet> The Framework of the Drug Court Typology: Drug court 
research should focus on aspects of the drug court typology to move 
beyond the general question of studying only ``if it works'' to 
increasingly studying how and when it works, as effectiveness appears 
to vary over time and circumstance in these two sites. The variation 
depends on external factors as well as the relative deployment of 
important elements of the drug court model.
    <bullet> Studying the Effects of Elements of the Drug Court Model: 
Our phase two research tries to look into the ``black box'' of drug 
court treatment to determine the relative effects, for example, of drug 
court appearances, treatment attendance, duration and type, use of 
incentives and sanctions, and, particularly, the impact of the jail 
sanction on outcomes. Examination of the relative impact of these 
ingredients can explain how drug courts work and why, and facilitate 
efforts to build on the effective elements.
    <bullet> The Community Justice Implications of Downtown Drug 
Courts: Downtown drug courts (like the Portland and Las Vegas Courts 
studied) have clear implications for community justice efforts, as 
analysis shows they disproportionately deal with participants from 
several principal neighborhoods within the cities. These neighborhoods 
differ in race and ethnicity, in crime and the kinds of problems 
prevalent. Drug court effectiveness would be enhanced if they 
incorporated this knowledge to develop linkages to these neighborhoods 
that would support successful treatment under sometimes very difficult 
circumstances.
    <bullet> Added Emphasis on In-Depth Analysis of Current Data: 
Research should not only add to the long-term changes and effectivenes 
of established drug courts, but should look at existing data from long-
term studies in more in-depth.

                               REFERENCES

    2000--Goldkamp, John S. ``The Drug Court Response: Issues and 
Implications for Justice Change.'' 63 Albany Law Review 923-961. 
Appended to testimony.
    2000--John S. Goldkamp and Cheryl Irons-Guynn. Emerging Judicial 
Strategies for the Mentally Ill on the Criminal Caseload: Mental Health 
Courts in Fort Lauderdale, Seattle, San Bernardino, and Anchorage. A 
Report on Community Justice Initiatives. (Washington, DC: U.S. 
Department of Justice, Bureau of Justice Assistance.)
    2000--Goldkamp, Michael D. White and Jennifer Robinson. 
Retrospective Evaluation of Two Pioneering Drug Courts: Phase I 
Findings from Clark County, Nevada, and Multnomah County, Oregon. An 
Interim Report of the National Evaluation of Drug Courts. 
(Philadelphia: Crime and Justice Research Institute.) Executive Summary 
appended to testimony.
    2000--John S. Goldkamp, Michael D. White and Jennifer Robinson. 
``Do Drug Courts Work: Getting Inside the Drug Court Black Box,'' 
submitted to the Journal of Drug Issues. Appended to testimony.
    2000--John S. Goldkamp, Michael D. White and Jennifer Robinson. 
``Context and Change: the Evolution of Pioneering Drug Courts in 
Portland and Las Vegas (1991-1998),'' submitted to the Journal of Law 
and Policy. Appended to testimony.
    2000--John S. Goldkamp, Michael D. White and Jennifer Robinson. 
Participant Perspectives: Highlights from Focus Groups or Drug Court 
Participants in Brooklyn, Miami, Seattle, Las Vegas, Portland and San 
Bernardino. Unpublished report submitted to the Drug Court Program 
Office, U.S. Department of Justice, Appended to Testimony.
    1999--Goldkamp, John S. ``When is a Drug Court Not a Drug Court?'' 
in C. Terry (ed.), The Early Drug Courts: Case Studies in Judicial 
Innovation. Beverly Hills, CA: Sage Publications. Appended to 
testimony.
    1999--Goldkamp, John S. ``The Origins of the Treatment Drug Court 
in Miami.'' in C. Terry (ed.), The Early Drug Courts: Case Studies in 
Judicial Innovation. Beverly Hills, CA: Sage Publications. Appended to 
testimony.
    John S. Goldkamp, Ph.D.--Dr. Goldkamp is Professor of Criminal 
Justice at Temple University and heads the Crime and Justice Research 
Institute in Philadelphia. His research focuses broadly on discretion 
in criminal justice and innovation in the courts, with a special 
emphasis on treatment and alternatives to confinement. Over the last 
decade some of his research has dealt with the drug court movement, 
beginning with the first comprehensive evaluation of the nation's first 
drug court in Miami, Assessing the Impact of Dade County's Felony Drug 
Court (with Doris Weiland), and a Department of Justice white paper, 
Justice and Treatment Innovation: The Drug Court Movement (1994). Since 
this time he has assisted in the planning and evaluation of 
Philadelphia's Treatment Court, The implementation of the Philadelphia 
Treatment Court: A Descriptive Analysis of Early Stages of 
Implementation. (1997), has written on the drug court movement and its 
evaluation (``The Origins of the Treatment Drug Court in Miami'' and, 
``When is a Drug Court Not a Drug Court?'' in C. Terry (ed.),, The 
Early Drug Courts: Case Studies in Judicial Innovation, 1999); ``The 
Drug Court Response; Issues and Implications for Justice Change,'' 63 
Albany Law Review 923-961, 2000), and two recent articles (``Do Drug 
Courts Work: Getting Inside the Drug Court Black Box,'' submitted to 
the Journal of Drug Issues, Summer 2000; ``Context and Change: the 
Evolution of Pioneering Drug Courts in Portland and Las Vegas (1991-
1998),'' submitted to the Journal of Law and Policy, Summer 2000). He 
serves as a drug court evaluation resource for Pennsylvania's emerging 
drug courts through the Pennsylvania Commission on Crime and 
Delinquency. With his colleagues (Robinson and White), he has recently 
completed a first report on the NIJ-sponsored retrospective evaluation 
of two the nation's oldest and longest-operating drug courts in 
Portland and Las Vegas (Retrospective Evaluation of Two Pioneering Drug 
Courts: Phase I Findings from Clark County, Nevada, and Multnomah 
County, Oregon, 2000) and has conducted focus groups of drug court 
participants in six jurisdictions in the United States. He is assisting 
the San Francisco Drug Court in planning in evaluation. He is 
conducting a five-year evaluation of Philadelphia's Criminal Justice 
Treatment Network for Women through CSAT and has recently completed a 
BJA monograph (with Cheryl Irons-Guynn) on the nation's first mental 
health courts (Emerging Strategies for the Mentally Ill in the Criminal 
Caseload: Mental Health Courts in Fort Lauderdale, Seattle, San 
Bernardino, and Archorage). He serves as the law reporter for the 
American Bar Association Pretrial Release Standards Task Force as it 
revises it standards relating to pretrial release, detention and 
adjudication alternatives, including drug courts and other problem-
solving courts, such as community, mental health and family courts.
    Senator Sessions. Thank you, Mr. Goldkamp. I appreciate those 
comments, but we are under a rule. We have gone a tad over. I hope we 
won't go to jail for it. We will keep the record open for any other 
statements or questions that may be offered.
    An objection has been made. Members of the other side have been 
objecting to committee hearings during this Senate session. You can 
hold a hearing for 2 hours, but then you have to stop. So that rule has 
been invoked. It is part of an unfortunate obstruction around here and 
makes life more difficult in my view, but we live with our rules as we 
find them.
    So we will adjourn, but I would appreciate it and think it 
appropriate that we can continue to discuss matters in a non-hearing 
context. I see there is a table over there. If this panel would join me 
at the table, and if anybody wants to stand around and pull up a chair 
and listen, I would like to continue this discussion. We had one good 
hearing here, and I met back in my office with some people, and we 
learned more discussing in my office than we did in the 2 hours in the 
panel.
    So if you will join me if you have time, I would appreciate it. We 
are adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4754A.001
    
    [GRAPHIC] [TIFF OMITTED] T4754A.002
    
    [GRAPHIC] [TIFF OMITTED] T4754A.003
    
    [GRAPHIC] [TIFF OMITTED] T4754A.004
    
    [GRAPHIC] [TIFF OMITTED] T4754A.005
    
    [GRAPHIC] [TIFF OMITTED] T4754A.006
    
    [GRAPHIC] [TIFF OMITTED] T4754A.007
    
    [GRAPHIC] [TIFF OMITTED] T4754A.008
    
    [GRAPHIC] [TIFF OMITTED] T4754A.009
    
    [GRAPHIC] [TIFF OMITTED] T4754A.010
    
    [GRAPHIC] [TIFF OMITTED] T4754A.011
    
    [GRAPHIC] [TIFF OMITTED] T4754A.012
    
    [GRAPHIC] [TIFF OMITTED] T4754A.013
    
    [GRAPHIC] [TIFF OMITTED] T4754A.014
    
    [GRAPHIC] [TIFF OMITTED] T4754A.015
    
    [GRAPHIC] [TIFF OMITTED] T4754A.016
    
    [GRAPHIC] [TIFF OMITTED] T4754A.017
    
    [GRAPHIC] [TIFF OMITTED] T4754A.018
    
    [GRAPHIC] [TIFF OMITTED] T4754A.019
    
    [GRAPHIC] [TIFF OMITTED] T4754A.020
    
    [GRAPHIC] [TIFF OMITTED] T4754A.021
    
    [GRAPHIC] [TIFF OMITTED] T4754A.022
    
    [GRAPHIC] [TIFF OMITTED] T4754A.023
    
    [GRAPHIC] [TIFF OMITTED] T4754A.024
    
    [GRAPHIC] [TIFF OMITTED] T4754A.025
    
    [GRAPHIC] [TIFF OMITTED] T4754A.026
    
    [GRAPHIC] [TIFF OMITTED] T4754A.027
    
    [GRAPHIC] [TIFF OMITTED] T4754A.028
    
    [GRAPHIC] [TIFF OMITTED] T4754A.029
    
    [GRAPHIC] [TIFF OMITTED] T4754A.030
    
    [GRAPHIC] [TIFF OMITTED] T4754A.031
    
    [GRAPHIC] [TIFF OMITTED] T4754A.032
    
    [GRAPHIC] [TIFF OMITTED] T4754A.033
    
    [GRAPHIC] [TIFF OMITTED] T4754A.034
    
    [GRAPHIC] [TIFF OMITTED] T4754A.035
    
    [GRAPHIC] [TIFF OMITTED] T4754A.036
    
    [GRAPHIC] [TIFF OMITTED] T4754A.037
    
    [GRAPHIC] [TIFF OMITTED] T4754A.038
    
    [GRAPHIC] [TIFF OMITTED] T4754A.039
    
    [GRAPHIC] [TIFF OMITTED] T4754A.040
    
    [GRAPHIC] [TIFF OMITTED] T4754A.041
    
    [GRAPHIC] [TIFF OMITTED] T4754A.042
    
    [GRAPHIC] [TIFF OMITTED] T4754A.043
    
    [GRAPHIC] [TIFF OMITTED] T4754A.044
    
    [GRAPHIC] [TIFF OMITTED] T4754A.045
    
    [GRAPHIC] [TIFF OMITTED] T4754A.046
    
    [GRAPHIC] [TIFF OMITTED] T4754A.047
    
    [GRAPHIC] [TIFF OMITTED] T4754A.048
    
    [GRAPHIC] [TIFF OMITTED] T4754A.049
    
    [GRAPHIC] [TIFF OMITTED] T4754A.050
    
    [GRAPHIC] [TIFF OMITTED] T4754A.051
    
    [GRAPHIC] [TIFF OMITTED] T4754A.052
    
    [GRAPHIC] [TIFF OMITTED] T4754A.053
    
    [GRAPHIC] [TIFF OMITTED] T4754A.054
    
    [GRAPHIC] [TIFF OMITTED] T4754A.055
    
    [GRAPHIC] [TIFF OMITTED] T4754A.056
    
    [GRAPHIC] [TIFF OMITTED] T4754A.057
    
    [GRAPHIC] [TIFF OMITTED] T4754A.058
    
    [GRAPHIC] [TIFF OMITTED] T4754A.059
    
    [GRAPHIC] [TIFF OMITTED] T4754A.060
    
    [GRAPHIC] [TIFF OMITTED] T4754A.061
    
    [GRAPHIC] [TIFF OMITTED] T4754A.062
    
    [GRAPHIC] [TIFF OMITTED] T4754A.063
    
    [GRAPHIC] [TIFF OMITTED] T4754A.064
    
    [GRAPHIC] [TIFF OMITTED] T4754A.065
    
    [GRAPHIC] [TIFF OMITTED] T4754A.066
    
    [GRAPHIC] [TIFF OMITTED] T4754A.067
    
    [GRAPHIC] [TIFF OMITTED] T4754A.068
    
    [GRAPHIC] [TIFF OMITTED] T4754A.069
    
    [GRAPHIC] [TIFF OMITTED] T4754A.070
    
    [GRAPHIC] [TIFF OMITTED] T4754A.071
    
    [GRAPHIC] [TIFF OMITTED] T4754A.072
    
    [GRAPHIC] [TIFF OMITTED] T4754A.073
    
    [GRAPHIC] [TIFF OMITTED] T4754A.074
    
                       SUBMISSIONS FOR THE RECORD

                              ----------                              


    Prepared Statement of Judge Jeffrey S. Tauber, on Behalf of the 
                     National Drug Court Institute

                              INTRODUCTION

    The importance of a substantial federal presence in providing 
training and assistance to the drug court field cannot be 
underestimated. Due to the limited but critical resources provided to 
the drug court field through the federal government, we can point to 
unprecedented growth in the number of drug courts, from approximately 
50 when federal assistance began in 1995, to over 700 drug courts in 
existence or being planned today. Truly, the Drug Courts Program Office 
(DCPO), Office of Justice Programs, U.S. Department of Justice, in 
collaboration with other federal agencies, has done a remarkable job in 
providing technical assistance and funding to the field. Federally 
funded technical assistance and training are necessary as DCPO funded 
programs bring the knowledge and expertise of the best practitioner-
trainers to drug courts throughout the nation.
    Not only are the trainings themselves highly effective, but they 
prove cost effective as well. The sharing of information, experiences, 
and lessons learned is an invaluable cost and time saving tool in and 
of itself. Developing the curriculum and then training the trainers who 
will teach their colleagues in workshops around the country saves 
valuable resources. Individual state organizations and administrative 
offices do not need to search out and develop trainings and seminars 
for practitioners in their area and unnecessarily expend resources and 
duplicate efforts. Rather, the extraordinary expertise and experiences 
developed locally in specific jurisdictions may be showcased on a 
national level and shared among colleagues. What is most important to 
remember, however, is that the sharing of information, lessons learned, 
innovative curricula, and the expertise of highly effective 
practitioners has happened only through the advent of federally funded 
workshops and trainings. Therefore, increased federal funding for 
training and technical assistance must be the highest priority for 
federal assistance to this rapidly expanding field.

                            STANDARDIZATION

    Technical assistance and the funding that makes this assistance 
possible is critical to the development of effective, standardized drug 
courts. Although drug courts are unique to each jurisdiction, the 
development of nationally recognized standards across drug court 
programs is necessary in order to insure the effectiveness of drug 
courts nationally. For example, through technical assistance provided 
at regional research and evaluation workshops like those conducted by 
NDCI, drug court practioners and evaluators are able to learn from the 
experiences of their colleagues who have already conducted drug court 
evaluations, and discuss standards and definitions of terms such as 
success, failure, retention, recidivism, and cost analysis.
    DCPO has taken the lead in supporting and promoting standardization 
projects in order to provide jurisdictions with the tools necessary to 
sustain their programs. Previously under a grant from DCPO, the 
National Association of Drug Court Professionals (NADCP) convinced the 
National Association of Drug Court Professionals Drug Court Standards 
Committee, which produced Defining Drug Courts: The Key Components, in 
January 1997. The Key Components provide guidelines, or 10 components, 
that are central to the drug court model and implementing an effective 
drug court. The Key Components have become a national model for drug 
courts, and promote competency that is available to practitioners 
across the nation. It should be noted that many state judiciaries, 
including California and Florida, have adapted the Key Components in 
their rules and court. Additionally, the Conference of Chief Justices, 
representing all 50 chief justices, recognized the effectiveness of the 
10 Key Components of drug court in its resolution of August 19, 2000, 
endorsing drug courts and other problem solving courts. Still, it is 
important that performance standards are developed and the Key 
Components are revisited to include ``best practices'' for drug courts.
    NDCI has also sought to identify standardization needs that are 
critical to the advancement and future of evaluation. A meeting of the 
drug court research advisory committee, held in partnership with the 
National Institute on Drug Abuse (NIDA) in September 1998, identified 
several critical and immediate needs of the research and practitioner 
communities in relation to drug court research and evaluation. The 
following standardization needs are among those identified by the 
committee: Standardization and research terms (Data Dictionary); 
Standardization of minimum data sets; Definition of characteristics of 
target populations; Definition of research variables needed for local 
drug court jurisdictions; Definition of differences between fine level 
data (court information) and program data (evaluation data/information) 
for local jurisdictions; Definition of process evaluation vs. outcome 
evaluation (what questions should they answer). Increased funding for 
DCPO technical assistance and training must be provided to support the 
development of standards and best practices for drug court research and 
evaluation.

                         RESEARCH & EVALUATION

    NDCI and DCPO realize that continued research and program 
evaluations are crucial; in short, drug court programs must be able to 
justify their program's utility in order to sustain it. Drug courts 
often have very little funding for evaluation because they are unable 
to demonstrate the program's effectiveness, even though the very future 
of drug court programs depend upon it.
    Many drug court programs currently struggle with their evaluations. 
Practitioners need to recognize the importance of evaluation and the 
costs associated with it. Practitioners also need to know what to look 
for in an evaluator, what to expect from an evaluator, the importance 
of developing a good working relationship with an evaluator, the 
elements of data collection, and the development of a credible data 
collection system. In turn, evaluators need to be educated about the 
program, management, communication, problem solving, team building, 
organizational skills, data collection, needs assessment, case 
management, intensive substance abuse treatment skills and offender 
supervision are all important to the drug court team member. The range 
of required skills and the diversity of education and experience 
histories of incumbents support the need for the NDCI comprehensive 
drug court practitioner training series designed and delivered by 
experienced practitioners.
    Each training provides an innovative, interactive framework for 
education and an important new tool for educators to use during the 
training. For example, while traditional judicial training provides 
information on substantive law and court procedures, the NDCI 
comprehensive judicial training design focuses intensively on the 
judges' communications skills and his or her ability to positively 
impact the offender's drug usage and criminality in the drug court 
setting.
    Over 100 video segments (typically running between one and three 
minutes) of 30 different drug courts have been integrated into the 
training curriculum, and are the cornerstone of NDCI comprehensive drug 
court practitioner trainings. In small facilitated group discussions as 
well as in plenary sessions, participants review and analyze drug court 
situations on video tape, as real drug court judges deal with such 
critical issues as implementing sanctions and dealing with relapse.
    To date, NDCI has trained 312 drug court practitioners from 47 
states and Guam, Puerto Rico, Ireland and Australia. By the end of 
2000, that number may be us many as 600. On a scale of one to seven, 
96% of judicial participants rank the training as a six or seven and 
67% rank the training with the highest possible score. The mean score 
thus far for the four NDCI judicial trainings is a 6.57 out of a 
possible score of 7.
    Due to NDCI's successful skills-based, discipline specific training 
program for drug court practitioners, NDCI has embarked on a new 
training project for DCPO. DCPO provided the funding for a series 
workshops for recipients of DCPO planning grants, and has collaborated 
with the NDCI to provide 25 workshops for 59 (45 adult drug courts, 14 
DUI drug courts) grantee jurisdictions. Next year NDCI, in 
collaboration with DCPO, intends to provide jurisdictional trainings 
for over 100 drug court programs nationwide.
    All of the workshops discussed above are held at NADCP Mentor Court 
sites and are designed to provide planning grantee jurisdictions with 
the tools necessary to plan and implement an effective drug court. The 
first in the series, the ``Introductory Workshop,'' focuses on 
educating the judge and coordinator about drug court fundamentals, 
respective roles and responsibilities from the planning process through 
implementation and operation as well as team building and team leading. 
The second in the series, the ``Skills-based, Discipline Workshop,'' 
focuses on comprehensively educating the entire jurisdictional team on 
specialized drug court issues and how they relate to the individual 
disciplines of the drug court team. Focus is also given to the roles of 
each discipline and those functions through the drug court planning, 
implementation and operation phases. Finally, the workshop enables the 
team to begin a Jurisdictional Action Plan Outline. The final workshop, 
the ``Operational Workshop,'' focuses on the Jurisdictional Action Plan 
and the tasks therein, set by the jurisdiction, outlining the plan to 
implement a drug court.

                       NADCP MENTOR COURT NETWORK

    Established in partnership with DCPO in 1996, the NADCP Mentor 
Court Network provides a cost-effective approach and relies on locally 
or regionally centered education rather than on-site technical 
assistance. Local practitioners volunteer much of the resources and 
expertise used in the network. The Mentor Court Network is comprised of 
a number of effective teaching sites and trainers whose practitioners 
have proven expertise, teaching experience, and organizational skills. 
The sites are presently selected through a collaborative process by 
which DCPO and NADCP visit mentor site candidates and reach agreement 
as to the appropriateness of individual sites as mentor programs. 
Potential mentor sites are reviewed for competence and cost 
effectiveness, geographic and ethnic diversity, population density, 
drugs of choice, and community participation and support.
    By relying on broad-based regionally centered networks, NADCP 
avoids the expense of flying consultants around the country. Instead, 
it nurtures local and regional leadership, moving the focus away from 
the national to the local level where the practitioners and most of the 
resources are found.
    Since its inception in 1996, the Mentor Court Network has:
    <bullet> Grown from seven sites to 25 in 2000;
    <bullet> Expanded to include Community Oriented Policing Services 
(COPS) sites, which are courts that have innovative linkages with law 
enforcement;
    <bullet> Been the primary training network for DCPO planning and 
implementation grantees;
    <bullet> Trained nearly 5,000 practitioners since the Network's 
inception; and
    <bullet> Gained international recognition from and provided 
training to delegates from other countries.

                              SCHOLARSHIP

    DCPO and ONDCP support a variety of publications and the 
distribution of other information through NDCI and other organizations. 
NDCI has developed the National Drug Court Institute Review (NDCIR), a 
journal published twice per year, that provides technical, scientific, 
and legal articles to the drug court practitioner in a clear and 
understandable form. NDCI is also known for its monograph series, 
focusing on specific topics in order to bring a discussion of the 
issues to practitioners across the country. NDCI's monographs include 
DUI/Durg Courts: Defining a National Strategy, Development and 
Implementation of Drug Court Systems, and Reentry Drug Courts. NDCI 
also publishes The Institute, a technical assistance and training 
newsletter, three times a year. Finally, NDCI disseminates the Drug 
Court Practitioner Fact Sheet series, which provides a one page brief 
focused on issues important to the practitioner such as evaluation, 
coercion in drug courts, methamphetamine, buprenorphine, and juvenile 
and family drug courts, among others.

                               CONCLUSION

    Whether trainings and workshops have been developed and put on by 
NDCI, or by NDCI in collaboration with organizations such as SEARCH, 
the Justice Management Institute (JMI), the Drug Court Clearinghouse 
and Technical Assistance Project at American University, or the 
National Council of Juvenile and Family Court Judges, the common thread 
and ingredient for success has been the financial support and 
commitment of federal agencies such as DCPO and ONDCP. Federal funding 
provided by DCPO has provided the backbone of technical assistance in 
the areas of research and evaluation, drug court practitioner training, 
and standardization in critical areas of the drug court field.
    Standardized practices in research and evaluation will provide the 
basis for ascertaining which drug court programs, and which components 
of drug court programs, are most effective, and which need improvement. 
Standardized practices in the training of drug court team members will 
insure that those team members are equipped with the knowledge and 
skills necessary do not only administer an effective program, but also 
use evaluation findings to recognize the need for, and implement, 
improvements in that program. Finally, standardized practices made 
possible through increased federal support for technical assistance and 
training saves limited resources and allow those resources to be 
focused on providing critical assistance to as many drug courts and 
drug court practitioners as possible throughout the United States.
          the development of the national drug court institute
    Historically, education and training in the drug court field has 
only been available at regional workshops and national conferences, 
where analysis and commentary were limited to anecdotes and personal 
accounts. The newness of the field and the lack of resources inhibited 
the development of a drug court institute.
    That situation has changed. Hundreds of programs have been 
implemented over the last several years. Scholars and researchers have 
begun to apply the rigors of scientific analysis to the drug court 
model, and now evaluations exist on dozens of drug court programs.
    Recognizing that in order to survive the drug court field needed 
strong educational, research and scholarship components, the Office of 
National Drug Control Policy (ONDCP) provided initial funding for a 
drug court institute. On December 13, 1997, ONDCP Director General 
Barry McCaffrey announced the creation of the National Drug Court 
Institute (NDCI) in the Roosevelt Room at the White House.
    In collaboration with ONDCP, the Drug Courts Program Office (DCPO), 
Office of Justice Programs, U.S. Department of Justice, has been 
instrumental in the development of NDCI, which provides training, 
scholarship, and research skills to the field.

[GRAPHIC] [TIFF OMITTED] T4754A.075

[GRAPHIC] [TIFF OMITTED] T4754A.076

[GRAPHIC] [TIFF OMITTED] T4754A.077

[GRAPHIC] [TIFF OMITTED] T4754A.078

[GRAPHIC] [TIFF OMITTED] T4754A.079

[GRAPHIC] [TIFF OMITTED] T4754A.080

[GRAPHIC] [TIFF OMITTED] T4754A.081

[GRAPHIC] [TIFF OMITTED] T4754A.082

[GRAPHIC] [TIFF OMITTED] T4754A.083

[GRAPHIC] [TIFF OMITTED] T4754A.084

[GRAPHIC] [TIFF OMITTED] T4754A.085

[GRAPHIC] [TIFF OMITTED] T4754A.086

[GRAPHIC] [TIFF OMITTED] T4754A.087

[GRAPHIC] [TIFF OMITTED] T4754A.088

[GRAPHIC] [TIFF OMITTED] T4754A.089

[GRAPHIC] [TIFF OMITTED] T4754A.090

[GRAPHIC] [TIFF OMITTED] T4754A.091

    Prepared Statement of Susan Turner, Ph.D., on Behalf of the RAND

    I have been asked to prepare a written statement on drug court 
research for the Subcommittee on Youth Violence. I serve as the 
Associate Director for Research and the Director for the Sentencing and 
Corrections Center for RAND Criminal Justice. Our mission is to conduct 
research, analysis, and demonstrations that help policymakers and 
communities reduce violence and substance abuse. Over the past 10 
years, I have been involved in a number of evaluations of drug courts 
across the country; currently RAND Criminal Justice is conducting a 
national evaluation of 14 drug court programs. The 14 drug court 
programs were funded by the Drug Courts Program Office (DCPO); the 
evaluation is funded by the National Institute of Justice with funds 
transferred from the Drug Courts Program Office. My statement will 
focus on two major themes: (1) what we have learned to date from the 
national evaluation and our plans for continuing that work and (2) an 
assessment of the current state of research on drug courts.

                    THE 14-SITE NATIONAL EVALUATION

    The national evaluation was designed as a two-phase effort. We have 
just completed the first phase. We anticipate beginning the second 
phase later this year. The first phase was designed to (1) develop a 
conceptual framework of drug courts; (2) describe program 
implementation of the 14 drug courts; (3) determine program 
``evaluability'' (the extent to which programs can support a strong 
evaluation) for each participating jurisdiction; and (4) develop 
specific plans for a Phase II evaluation of each program's impact and 
success. I discuss three of these below that are directly relevant to 
my statement: the framework, program evaluability, and the Phase II 
evaluation.

            NEED FOR A DRUG COURTS FRAMEWORK FOR EVALUATION

    Today approximately 500 drug court programs are operational 
nationwide. These programs differ in terms of target populations, 
treatment programs, drug testing regimes, sanctions imposed, etc. And 
because drug courts differ on these dimensions, it is important to know 
whether particular drug court characteristics are more or less 
effective than others. Despite ongoing surveys of drug program 
characteristics conducted by the American University, the development 
of the ``key drug court elements'' (Drug Court Program Office), and a 
working typology of drug courts for research purposes developed by Dr. 
John Goldkamp, we argue that drug court research currently has no 
unifying perspective regarding the structural and process 
characteristics of drug courts that can be used to link drug court 
components with outcomes. We propose a framework to assist researchers 
in this effort.
    Building on previous work in the field, our analysis of the 14 
courts and their operating environments results in a framework with 
five dimensions: leverage, population severity, intensity, 
predictability, and rehabilitation emphasis. The first two dimensions 
are structural characteristics of drug court. The other three 
dimensions are process characteristics. They describe what happens to 
participants as they proceed through the drug court program.
    Leverage refers to the nature of consequences faced by incoming 
participants if they later fail to meet program requirements and are 
discharged from drug court. Thus leverage depends, perhaps heavily, on 
the court's entry point--pre-plea, post-plea, or probation. In pre-plea 
or deferred prosecution courts, entry to the program occurs before an 
offender is required to enter a plea. Upon completion of all program 
requirements, the charge is reduced or dropped. Pre-plea courts may 
have limited leverage because participants have not pleaded guilty and 
may have no sentence pending. Moreover, after pre-plea participants are 
discharged for noncompliance, the case may be too ``cold'' to reopen. 
In post-plea or deferred judgment courts, however, entry to the program 
occurs only after an offender pleads guilty. Upon program completion, 
the plea can be stricken and the case dismissed. But if an offender 
fails the program, his/her case moves directly to sentencing and 
possible incarceration. Thus the stakes are high, and leverage strong, 
in a post-plea drug court.
    Population severity refers to characteristics of offenders deemed 
eligible to enter drug court. This dimension is based on a distinction 
between drug courts set up to target a hardcore population of addicted 
and persistent offenders (one extreme) and drug courts dealing with 
lightweight offenders, whose offense history is short and relatively 
minor and whose drug use is ``recreational'' (the other extreme). The 
latter may be routed to drug court not so much because they need 
intensive treatment/supervision but because the local criminal justice 
system views the drug court as a welcome new resource for processing 
cases. This possibility is perhaps most apparent when the target 
population is first-time or lightweight offenders, system resources are 
stretched thin, and prosecutors are using the drug court essentially as 
a way to move cases through the system. Of course many drug court 
populations fall between the high- to low-severity extremes. Because 
eligibility for drug court and, more importantly, the participants' 
likelihood of success may depend on lifetime patterns of drug use and 
crime as well as on the instant offense, we believe that both current 
and lifetime indicators of misconduct should be used in gauging 
population severity.
    Intensity refers to requirements for participating in and 
completing drug court. These always include urine testing, court 
appearances, and drug abuse treatment. Other obligations may be imposed 
as well, such as employment, suitable housing, completion of a G.E.D., 
and payment of fines or restitution. It is important to note that 
intensity does not refer to requirements actually met by the 
participant. That is affected by self-selection. Neither does intensity 
refer to what happens to the noncompliant participant. That too is 
affected by self-selection in a sense; additional requirements are 
triggered by actions of the participant. Instead, we focus on a 
dimension of drug court itself: what participants understand to be the 
minimum requirements for program completion.
    Predictability reflects the degree to which participants believe 
their behavior will be detected by the court, and know with high 
probability how the court will respond to their behavior. For example, 
courts with less variability in their response to each positive drug 
test are more predictable; participants are more likely to know what 
will probably happen to them if they test positive one, twice, and so 
on.
    The final dimension in our framework is the emphasis placed on 
rehabilitation as against other court functions, including case 
processing and punishment. This dimension takes on particular 
significance in light of legal philosophies known as restorative 
justice and therapeutic jurisprudence, in which criminal justice is 
viewed more as a therapeutic tool and less as a formalistic and 
essentially punitive one. To a greater or lesser degree, most drug 
courts reflect these philosophies.
    Our hypotheses regarding the linkage between these dimensions and 
outcomes for drug court are straightforward. Those programs that exert 
more leverage over their participants, target offenders with less 
severe problems, provide intensive services, are more predictable in 
their rewards and sanctions and provide a more rehabilitative focus 
should show more favorable outcomes. Additionally, our framework 
provides a wide range of indicators, currently collected in the field, 
for each dimension.

                    EVALUABILITY OF 14 PROGRAM SITES

    Our Phase I was designed to assess each of the 14 participating 
jurisdictions to determine whether they could support solid evaluation. 
In other words, can we compare outcomes for drug court participants 
with outcomes of similar offenders who did not participate in the 
program? Does the program routinely gather information on drug court 
participation, treatment, sanctions, and outcomes? Are these data 
recorded in a consistent and accessible fashion? To answer these 
questions, researchers made site visits to each of the 14 programs, 
interviewed staff and judges, observed drug court programs, visited 
treatment programs, and gathered information on data management 
information systems.
    Ideally, each drug court would have been able to meet the 
requirements of process and outcome collection specified in the DCPO 
``Program Guidelines and Application Information.'' These include the 
collection of information on drug court participants (and to the 
fullest extent, non-participants) including: demographic 
characteristics, substance abuse history, vocational and educational 
status; mental health history, criminal justice history, treatment 
needs, etc.; measures of program implementation and process, including 
program intervention receive, participation in treatment (including 
motivation and actual attendance records for each program component), 
status at completion of drug court, service needs at discharge from 
program, etc. Programs were strongly urged to design, implement and 
maintain an automated database for recording these variables.
    In addition, programs were alerted to the requirements of a 
national evaluation. Drug court programs were instructed to anticipate 
providing the following additional information for an national 
evaluator: substances abuse treatment and support services completion 
rates, counselor ratings of extent of participant attendance and 
engagement in treatment, program components and improvement over time 
in life skills acquisition, psychological and emotional functioning, 
educational and employment status, participant satisfaction with the 
treatment program, reports of substance abuse, results of urinalysis, 
data and nature of violations and arrests, positive social adjustment, 
and counselor ratings and extent of participant attendance and 
engagement in aftercare components and referrals services following 
completion of the drug court program.
    Our site visits revealed that programs staff were unaware of the 
federal requirements to collect the data for evaluation--original grant 
writers did not share application requirements with program staff. Site 
visits and analyses revealed that none of the 14 programs has gathered 
the full range of measures specified by DCPO in a single database for 
both the drug court and a comparison group of offenders. This is not to 
say that sites were uninterested in gathering information or in 
evaluation or their drug courts. To the contrary, all were keenly 
interested in determining whether or not their programs were effective. 
However, it appears that a great deal of staff time is devoted to the 
day-to-day operations, coordination among agencies, provision of 
services, etc., leaving little time for staff to develop database 
systems and record a vast array of measures for participants. In 
addition, program staff often do not have the training or backgrounds 
in research and must contract out the work to outside evaluators.
    Looking across programs, we found that in several sites, no local 
evaluation of the program had been conducted; in half the sites, no MIS 
system recorded the required data elements--records were maintained 
solely on paper. In terms of classic process and outcomes studies, most 
sites could offer the following types of data using quasi-experimental 
evaluation designs that could only be accomplished with fairly 
intensive data collection effort:
    <bullet> Background characteristics. Often computerized, sometimes 
paper and pencil screening and/or treatment files provide these 
characteristics for drug court participants; generally less complete 
paper and pencil data would be available for comparison groups.
    <bullet> Process data. Urinalysis results are generally available 
and often computerized (particularly if TASC is part of the team); 
services received are computerized in about half the sites. In many 
sites, detailed information about treatment participation and 
activities would need to be gathered from individual treatment program 
files--not necessarily kept by the drug court itself.
    For process measures, virtually all information currently available 
is official record; no data on participant's self-reported 
satisfaction, perceptions or other behaviors are available; information 
on counselor perceptions is also not available. In general self-
reported process variables would need to be collected by external 
evaluators--they are not being collected by the sites. These measures 
are necessary for testing theoretical hypotheses about why the drug 
courts may be effective. Without them, we can't tell why the drug court 
did or did not produce the effects it desired.
    <bullet> Outcome data. All sites are able to report the termination 
status of drug court participants, although this is not automated at 
all sites. The most frequently used outcomes are officially-recorded 
recidivism, gathered from criminal history databases or probation 
files. Remaining drug free, as measured by negative urine tests is 
another commonly used outcome measure. Referral to and completion of 
programs after drug court termination are not available.

                             PHASE II PLANS

    The original intent for Phase II was to conduct separate outcome 
evaluations in each of the 14 sites. However, given the large effort 
that would be required to conduct such evaluations; the limited amount 
of routinely collected data, and the real possibility of noncomparable 
comparison groups, we have decided this may not be the best way at the 
present time to advance the state of knowledge on drug courts' 
effectiveness. Rather, we propose to pool existing data from drug court 
programs to examine the relationship between program characteristics, 
participant characteristics and outcomes. Using only drug court program 
data (not comparison groups since they are few, often poor and require 
a great deal of work to construct), we hope to identify as many data 
sets as possible from a representatives set of drugs court programs and 
conduct exploratory analyses to answer a slightly different question. 
Instead of the question typically asked in a traditional outcome 
research design--does a drug court reduce use and crime compared to 
routine criminal justice processing, we have turned the question 
slightly to ``what are the characteristics of drug courts that seem 
most able to reduce drug use and crime?'' With this approach, we can 
also test out our framework components of leverage, severity, 
predictability, intensity and rehabilitation and their relationships to 
drug court participant outcomes. To the best of our knowledge the 
proposed study is the first of its kind in which data re pooled from a 
moderate to large number of drug courts across the country to examine 
overall effects on drug court outcomes.

                CURRENT STATE OF RESEARCH ON DRUG COURTS

    Over the past several years, Dr. Steven Belenko has compiled 
findings from drug court evaluations. According to his 1999 review, 
drug courts: <bullet> handle serious offenders with multiple problems, 
<bullet> provide more comprehensive supervision and monitoring, 
compared to other treatment programs, <bullet> increase treatment 
retention, <bullet> reduce drug use and criminal behavior while 
offenders are in drug court <bullet> reduce recidivism following 
program completion <bullet> generate savings in jail costs, especially 
for pretrial detention
    At the same time, however, we don't understand very well the impact 
of specific drug court components for a number of reasons. First, many 
evaluations do not use strong research designs. Few have incorporated 
random assignment--a design in which we can be assured that observed 
differences between drug court participants and other offenders are the 
direct result of drug court participation--and not due to 
characteristics of the offenders themselves. Rather, quasi-experimental 
designs are used in which it may be difficult to parse out effects due 
to offender characteristics from the drug court program itself.
    Second, drug courts as implemented, are a ``package'' of treatment, 
sanctions and incentives, drug treatment, judicial involvement, etc. 
When we observe a positive outcome for the court, we have logical 
inference problem--was it the treatment, was it the judge, was it the 
sanctions? Unless research designs do a better job of testing the 
impact of individual drug court components, we cannot know for sure how 
key elements impact offender outcomes.
    Third, the richness of process and outcome measures needs to be 
improved. Many studies have used a limited range of ``implementation'' 
and ``success' measures, with recidivism being the most frequently 
outcome measure. Knowing two- to three-year outcome information on not 
only recidivism, but actual drug use, employment and job skills, and 
other psycho-social measures would greatly improve our knowledge of the 
impact of drug courts on offender's lives.
    Finally, as indicated earlier, drug court programs themselves do 
not often have the ability to conduct ongoing evaluations of their 
programs. MIS are often not well developed nor capture consistent data 
across programs. Program staff are not trained in evaluation; many 
programs must rely on assistance from outside researchers to gather 
both process and outcome measures, often on a ``one-shot'' effort. 
Continuing evaluation is beyond the ability of most programs, given 
current expertise and resources.
    Many of these issues are not unique to drug courts. We face the 
same constraints in understanding the effectiveness of many criminal 
justice innovations, from intensive supervision probation, to universal 
drug testing and sanctions, to programs for the mentally ill offender. 
However, given the widespread adoption of drug courts across the 
country and resources devoted to their operation, we must be able to 
conduct credible evaluations on their impacts to help inform the policy 
debate about their place in sentencing and corrections.
    [Submissions for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T4754A.092
    
    [GRAPHIC] [TIFF OMITTED] T4754A.093
    
    [GRAPHIC] [TIFF OMITTED] T4754A.094
    
    [GRAPHIC] [TIFF OMITTED] T4754A.095
    
    [GRAPHIC] [TIFF OMITTED] T4754A.096
    
    [GRAPHIC] [TIFF OMITTED] T4754A.097
    
    [GRAPHIC] [TIFF OMITTED] T4754A.098
    
    [GRAPHIC] [TIFF OMITTED] T4754A.099
    
    [GRAPHIC] [TIFF OMITTED] T4754A.100
    
    [GRAPHIC] [TIFF OMITTED] T4754A.101
    
    [GRAPHIC] [TIFF OMITTED] T4754A.102
    
    [GRAPHIC] [TIFF OMITTED] T4754A.103
    
    [GRAPHIC] [TIFF OMITTED] T4754A.104
    
    [GRAPHIC] [TIFF OMITTED] T4754A.105
    
    [GRAPHIC] [TIFF OMITTED] T4754A.106
    
    [GRAPHIC] [TIFF OMITTED] T4754A.107
    
    [GRAPHIC] [TIFF OMITTED] T4754A.108
    
    [GRAPHIC] [TIFF OMITTED] T4754A.109
    
    [GRAPHIC] [TIFF OMITTED] T4754A.110
    
    [GRAPHIC] [TIFF OMITTED] T4754A.111
    
    [GRAPHIC] [TIFF OMITTED] T4754A.112
    
    [GRAPHIC] [TIFF OMITTED] T4754A.113
    
    [GRAPHIC] [TIFF OMITTED] T4754A.114
    
    [GRAPHIC] [TIFF OMITTED] T4754A.115
    
    [GRAPHIC] [TIFF OMITTED] T4754A.116
    
    [GRAPHIC] [TIFF OMITTED] T4754A.117
    
    [GRAPHIC] [TIFF OMITTED] T4754A.118
    
    [GRAPHIC] [TIFF OMITTED] T4754A.119
    
    [GRAPHIC] [TIFF OMITTED] T4754A.120
    
    [GRAPHIC] [TIFF OMITTED] T4754A.121
    
    [GRAPHIC] [TIFF OMITTED] T4754A.122
    
    [GRAPHIC] [TIFF OMITTED] T4754A.123
    
    [GRAPHIC] [TIFF OMITTED] T4754A.124
    
    [GRAPHIC] [TIFF OMITTED] T4754A.125
    
    [GRAPHIC] [TIFF OMITTED] T4754A.126
    
    [GRAPHIC] [TIFF OMITTED] T4754A.127
    
    [GRAPHIC] [TIFF OMITTED] T4754A.128
    
    [GRAPHIC] [TIFF OMITTED] T4754A.129
    
    [GRAPHIC] [TIFF OMITTED] T4754A.130
    
    [GRAPHIC] [TIFF OMITTED] T4754A.131
    
    [GRAPHIC] [TIFF OMITTED] T4754A.132
    
    [GRAPHIC] [TIFF OMITTED] T4754A.133
    
    [GRAPHIC] [TIFF OMITTED] T4754A.134
    
    [GRAPHIC] [TIFF OMITTED] T4754A.135
    
    [GRAPHIC] [TIFF OMITTED] T4754A.136
    
    [GRAPHIC] [TIFF OMITTED] T4754A.137
    
    [GRAPHIC] [TIFF OMITTED] T4754A.138
    
    [GRAPHIC] [TIFF OMITTED] T4754A.139
    
    [GRAPHIC] [TIFF OMITTED] T4754A.140
    
    [GRAPHIC] [TIFF OMITTED] T4754A.141
    
    [GRAPHIC] [TIFF OMITTED] T4754A.142
    
    [GRAPHIC] [TIFF OMITTED] T4754A.143
    
    [GRAPHIC] [TIFF OMITTED] T4754A.144
    
    [GRAPHIC] [TIFF OMITTED] T4754A.145
    
    [GRAPHIC] [TIFF OMITTED] T4754A.146
    
    [GRAPHIC] [TIFF OMITTED] T4754A.147
    
    [GRAPHIC] [TIFF OMITTED] T4754A.148
    
    [GRAPHIC] [TIFF OMITTED] T4754A.149
    
    [GRAPHIC] [TIFF OMITTED] T4754A.150
    
    [GRAPHIC] [TIFF OMITTED] T4754A.151
    

</pre></body></html>
